<html>
<title> - NOMINATION OF TOM PRICE TO SERVE AS SECRETARY OF HEALTH AND HUMAN SERVICES</title>
<body><pre>[Senate Hearing 115-228]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 115-228

   NOMINATION OF TOM PRICE TO SERVE AS SECRETARY OF HEALTH AND HUMAN 
                                SERVICES

=======================================================================

                                HEARING

                                OF THE

                    COMMITTEE ON HEALTH, EDUCATION,
                          LABOR, AND PENSIONS

                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             FIRST SESSION

                                   ON

   NOMINATION OF TOM PRICE TO SERVE AS SECRETARY OF HEALTH AND HUMAN 
                                SERVICES

                               __________

                            JANUARY 18, 2017

                               __________

 Printed for the use of the Committee on Health, Education, Labor, and 
                                Pensions
                                
                                
 [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                               
                                


      Available via the World Wide Web: http://www.gpo.gov/fdsys/
      
      
                     U.S. GOVERNMENT PUBLISHING OFFICE                    
23-749 PDF                  WASHINGTON : 2018                     
          
----------------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free). 
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="2f485f406f4c5a5c5b474a435f014c404201">[email&#160;protected]</a>     
      


          COMMITTEE ON HEALTH, EDUCATION, LABOR, AND PENSIONS

                  LAMAR ALEXANDER, Tennessee, Chairman
                  
                  
MICHAEL B. ENZI, Wyoming		PATTY MURRAY, Washington
RICHARD BURR, North Carolina		BERNARD SANDERS (I), Vermont
JOHNNY ISAKSON, Georgia			ROBERT P. CASEY, JR., Pennsylvania
RAND PAUL, Kentucky			AL FRANKEN, Minnesota
SUSAN COLLINS, Maine			MICHAEL F. BENNET, Colorado
LISA MURKOWSKI, Alaska			SHELDON WHITEHOUSE, Rhode Island
SUSAN M. COLLINS, Maine			TAMMY BALDWIN, Wisconsin
BILL CASSIDY, M.D., Louisiana		CHRISTOPHER S. MURPHY, Connecticut
TODD YOUNG, Indiana			ELIZABETH WARREN, Massachusetts
ORRIN G. HATCH, Utah			TIM KAINE, Virginia
PAT ROBERTS, Kansas			MAGGIE HASSAN, New Hampshire
LISA MURKOWSKI, Alaska			
TIM SCOTT, South Carolina

                             

               David P. Cleary, Republican Staff Director

         Lindsey Ward Seidman, Republican Deputy Staff Director

                  Evan Schatz, Minority Staff Director

              John Righter, Minority Deputy Staff Director

                                             
                                  (ii)

                           C O N T E N T S

                               __________

                               STATEMENTS

                      WEDNESDAY, JANUARY 18, 2017

                                                                   Page

                           Committee Members

Alexander, Hon. Lamar, Chairman, Committee on Health, Education, 
  Labor, and Pensions, opening statement.........................     1
Murray, Hon. Patty, a U.S. Senator from the State of Washington, 
  opening statement..............................................     4
Isakson, Hon. Johnny, a U.S. Senator from the State of Georgia...     8
Enzi, Hon. Michael B., a U.S. Senator from the State of Wyoming..    20
Sanders, Hon. Bernard, a U.S. Senator from the State of Vermont..    22
Hatch, Hon. Orrin G., a U.S. Senator from the State of Utah......    25
Casey, Hon. Robert P., Jr., a U.S. Senator from the State of 
  Pennsylvania...................................................    27
Paul, Hon. Rand, a U.S. Senator from the State of Kentucky.......    30
Franken, Hon. Al, a U.S. Senator from the State of Minnesota.....    32
Bennet, Hon. Michael F., a U.S. Senator from the State of 
  Colorado.......................................................    36
Collins, Hon. Susan M., a U.S. Senator from the State of Maine...    38
Whitehouse, Hon. Sheldon, a U.S. Senator from the State of Rhode 
  Island.........................................................    40
Roberts, Hon. Pat, a U.S. Senator from the State of Kansas.......    44
Baldwin, Hon. Tammy, a U.S. Senator from the State of Wisconsin..    46
Young, Hon. Todd, a U.S. Senator from the State of Indiana.......    48
Murphy, Hon. Christopher, a U.S. Senator from the State of 
  Connecticut....................................................    50
Murkowski, Hon. Lisa, a U.S. Senator from the State of Alaska....    53
Warren, Hon. Elizabeth, a U.S. Senator from the State of 
  Massachusetts..................................................    56
Hassan, Hon. Margaret Wood, a U.S. Senator from the State of New 
  Hampshire......................................................    60
Cassidy, Hon. Bill, M.D., a U.S. Senator from the State of 
  Louisiana......................................................    62
Kaine, Hon. Tim, a U.S. Senator from the State of Virginia.......    66
Scott, Hon. Tim, a U.S. Senator from the State of South Carolina.    69

                                Witness

Price, Tom, B.A., M.D., Nominee for Secretary of Health and Human 
  Services, Roswell, GA..........................................    10
    Prepared statement...........................................    13

                          ADDITIONAL MATERIAL

Statements, articles, publications, etc.
    Resolution designating Confederate History and Heritage Month 
      in Georgia.................................................    77
    Kaiser's Health News Article.................................    79
    Petitions Opposing Tom Price's Nomination....................    81
Letters:
    Senator Murray and 11 signed Democrats.......................    81
    State of Rhode Island Letter with Chart, Gina M. Raimondo, 
      Governor...................................................    82
    Letters of Opposition........................................    84

                                 (III)

  

 
   NOMINATION OF TOM PRICE TO SERVE AS SECRETARY OF HEALTH AND HUMAN 
                                SERVICES

                      WEDNESDAY, JANUARY 18, 2017

                                       U.S. Senate,
       Committee on Health, Education, Labor, and Pensions,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:05 a.m., in 
room 430, Dirksen Senate Office Building, Hon. Lamar Alexander, 
chairman of the committee, presiding.
    Present: Senators Alexander, Enzi, Isakson, Paul, Collins, 
Cassidy, Young, Hatch, Roberts, Murkowski, Scott, Murray, 
Sanders, Casey, Franken, Bennet, Whitehouse, Baldwin, Murphy, 
Warren, Kaine, and Hassan.

                 Opening Statement of Senator Alexander

    The Chairman. The hearing will come to order. The Committee 
on Health, Education, Labor, and Pensions will come to order.
    Today we're reviewing the nomination of Dr. Tom Price to be 
the Secretary of Health and Human Services.
    Dr. Price, we welcome you, and congratulations on your 
nomination. Welcome to you and your wife Betty, who is here 
today with you. I enjoyed having the opportunity to visit with 
you in my office and to learn from you about your plans.
    Dr. Price will be introduced today in a few minutes by 
Johnny Isakson, a member of this committee and Dr. Price's home 
State Senator. Before Senator Isakson introduces the nominee, 
Senator Murray and I will each make a few introductory remarks. 
After the nominee makes his statement, we'll have the usual 
round of questions. Let me say something about the round of 
questions.
    Last night we had a hearing of 3\1/2\ hours. I had tried as 
chairman to be fair by following the same precedent we had for 
President Obama's two Education nominees by having one round of 
5-minute questions followed by Senator Murray and me asking 
questions and wrapping up. I don't want to re-argue that 
because we spent a lot of that 3\1/2\ hours arguing about the 
3\1/2\ hours.
    I have listened carefully to what my colleagues have said 
and I looked back at the precedent for the Health and Human 
Services Secretary when that person came before our committee. 
Secretary Burwell had one round of questions; Sebelius one 
round, plus Coburn, Dr. Coburn asked a question; Daschle one 
round, plus three Senators asked a question; Leavitt, six 
members asked questions in the second round; Thompson one 
round, but it was a round of 7 minutes; Shalala, six members 
asked a second round.
    What I've decided to do, in an effort to try to treat 
President-elect Trump's nominee approximately the same as the 
way we've treated other nominees, is to have a single round of 
7-minute questions today. That would be the precedent followed 
with Secretary Thompson, and that seems to me to give every 
member of the Senate more time to ask questions of the 
Secretary.
    This is a courtesy hearing. Dr. Price will be before the 
Finance Committee next Tuesday. A number of the members of this 
committee are also members of the Finance Committee.
    We don't vote on his nomination. They vote on his 
nomination and will be the ones that report it to the floor, if 
that's their decision. We have the hearing because we have some 
of the health care jurisdiction, some important parts of it, 
and we would like to talk to him about those issues, 
especially.
    He has all of his paperwork in place before the Finance 
Committee, including the Letter of Agreement with the Office of 
Government Ethics, which is on the website and available to 
members of this committee, as well as others. It's my hope that 
in our 7 minutes of questions that we'd have time to focus on 
the responsibilities of the Department of Health and Human 
Services rather than have a continuing discussion about the 
number of minutes.
    There will be an opportunity following the hearing to ask 
written questions of Dr. Price as well.
    Dr. Price, if you're confirmed to lead the Department of 
Health and Human Services, you'll be running an organization 
that spends $1.1 trillion a year. It's always troubling to me, 
actually, that you'll be in charge of spending more than the 
Congress actually appropriates every year. By that I mean the 
part of the budget that we appropriate and which is under 
pretty good control, which is the part that has national 
defense, the National Institutes of Health and national parks 
and national laboratories over the last several years and for 
the next several years, that part is rising at about the rate 
of inflation. It's not adding to the budget. It's about a third 
of the total amount of Federal Government spending.
    It's a little less than the amount that's in your 
department every year, most of which is entitlement spending, 
mandatory spending, and which is going up at a rate like that, 
while the rest of the budget is going like this.
    You'll be overseeing Medicare and Medicaid, mental health 
and substance abuse programs. We just enacted in December of 
last year, and the President signed, the most important reforms 
of those programs in a decade. Senator Cassidy and Senator 
Murphy were the leaders on that in this committee, along with 
Senator Murray.
    We made important changes in the Food and Drug 
Administration, giving them new authority, new responsibility; 
for example, new authority to hire and pay the experts they 
need to move products and devices through the FDA at a more 
rapid rate, saving time and money and getting those devices 
into the medicine cabinets of the doctors' offices. That was 
Dr. Califf 's No. 1 priority. We passed that into law in 
December.
    And then the implementation of Obamacare and the various 
proposals to repair the damage done by Obamacare and replace it 
with concrete, practical alternatives for the American people 
to give them more choices of lower cost health insurance.
    Dr. Price, I believe you're an excellent nominee for this 
job. You were a practicing orthopedic surgeon for nearly two 
decades. You were a professor at Emory University School of 
Medicine. I read about the resident doctors in training who you 
taught. You served as medical director of the orthopedic clinic 
at Grady Memorial Hospital. In the House you were chairman of 
the Budget Committee, and you've been a leader in deliberations 
over the future of our health care system. You know the subject 
very, very well.
    One of the first responsibilities that you will have is to 
give us your advice about how to repair the damage that the 
Affordable Care Act has caused to so many Americans and how to 
replace it, or to replace parts of it with concrete, practical 
alternatives that give Americans more choices of lower cost 
insurance.
    Let me give my view about how we might proceed on that, and 
then during the question and answer session I will ask you more 
about your views.
    Following the presidential election, President-elect Trump 
said on 60 Minutes that replacement and repeal of Obamacare 
would be done simultaneously--his word. To me that means at the 
same time. Recently Speaker of the House Paul Ryan said that 
repeal and replacement of Obamacare would be done concurrently. 
Then Senator McConnell said last week that we need to do this 
promptly but in ``manageable pieces.'' Trying to interpret what 
those words mean. To me that means Obamacare should be finally 
repealed only when there are concrete, practical reforms in 
place that give Americans access to truly affordable health 
care.
    The American people deserve health care reform that's done 
in the right way, for the right reasons, in the right amount of 
time. It's not about developing a quick fix. It's about working 
toward long-term solutions that work for everyone. One way to 
think about what ``simultaneously'' and ``concurrently'' mean 
is to think about Obamacare the same way you'd think about a 
collapsing bridge in your hometown, because that's just what's 
happening with Obamacare in my home State and in many other 
States.
    According to the Tennessee insurance commissioner, the 
Obamacare insurance market in our State is ``very near 
collapse,'' and across the country premiums and co-pays are up, 
employers have cut jobs in order to be able to afford the 
mandates of Obamacare. Medicaid mandates are consuming State 
budgets. In one-third of America's counties, citizens with 
Federal subsidies have only a single choice of a company to buy 
insurance from on the Obamacare exchanges. Without quick action 
next year, there may be zero choices on those exchanges. The 
subsidies may be worth as much as a bus ticket in a town where 
no buses run.
    If your local bridge in Georgia or in Tennessee were very 
near collapse, the first thing you'd do, I would think, is to 
send in a rescue crew to repair the bridge temporarily so no 
one else is hurt. Then you would build a better bridge or, more 
accurately in the case of health care, many bridges to replace 
the old bridge. And finally, when the new bridges are finished, 
you would close the old bridge. That's how I suggest we 
proceed, rescue those trapped in a collapsing system, replace 
that system with functional markets, market or markets, as 
States develop their own plans for providing access to truly 
affordable health care, and then repeal Obamacare for good.
    First we should offer a rescue plan so the 11 million 
Americans who buy insurance now on the exchange can continue to 
do so while we build a better set of concrete practical 
alternatives. Second, we should build better systems, providing 
Americans with more choices of insurance that cost less. Note 
that I say systems, not one system. If anyone is expecting 
Senator McConnell to roll a wheelbarrow onto the Senate floor 
with a 4,000-page comprehensive Republican health care plan, 
they're going to be waiting a long time because we don't 
believe in that. We don't want to replace a failed Washington, 
DC. health care system with another failed Washington, DC. 
health care system. We'll build better systems, providing 
Americans with more choices of insurance that cost less, and 
we'll do this by moving more health care decisions out of 
Washington, DC. and into the hands of States and patients, and 
by reducing harmful taxes, and we'll do this carefully, step by 
step, so that it's effective.
    Finally, we should then repeal what remains of the law that 
did the damage and created all this risk. I know that the 
President-elect has said that after you are confirmed, which I 
hope is fairly early in February, that he will propose a plan 
to Congress. I look forward to that plan, and I know you can't 
tell us what that plan is today, but I do look forward to 
hearing from you, how you suggest we approach this.
    We want to do this right. We want to sequence the events 
carefully and adequately so that Americans have concrete, 
practical alternatives in place of what is there today. We want 
to make sure that the parts of Obamacare that are repealed are 
replaced before the repeal becomes effective.
    Senator Murray.

                  Opening Statement of Senator Murray

    Senator Murray. Thank you very much, Chairman Alexander.
    Thanks to all of our colleagues that are joining us today.
    Congressman Price, congratulations on your nomination, and 
thank you to your wife Betty who I know is there with you as 
well.
    Before I speak about this nominee, I do want to say that we 
remain deeply disappointed in last night where Democrats were 
blocked from asking more than one round of questions on Betsy 
DeVos, who is the nominee for Secretary of Education, and are 
disappointed that we are rushing this hearing as well, Mr. 
Chairman. You said 7 minutes, but I will just say I don't think 
any of us in prior nominees that you keep pointing to ever 
thought if I don't ask for another question, I've just set a 
precedent. In fact, I think that there is no example of any 
Senator asking to do a question before and being turned down.
    These nominees in a new administration that many people 
have questions about deserve to be asked questions, scrutinized 
in public before we have a choice to make on the floor of the 
U.S. Senate, on both sides of the aisle, in terms of whether we 
vote yes or no. That is why we think it's extremely important 
that we are allowed the opportunity to ask second rounds of 
questions after we have heard all of the questions, and today 
we have three or four committee hearings going on at the same 
time as this, so it is extremely challenging for our Senators 
to be here on a nomination they care deeply about, on a subject 
that we care deeply about.
    I would just like to point out again that several nominees 
that have come before, if we're going to talk about precedent, 
Secretary Leavitt, President George Bush's second HHS 
secretary, five bipartisan Senators participated in a second 
round. Senator Daschle, President Obama's first HHS Secretary, 
three bipartisan Senators participated. Again, it is 
unprecedented for a chairman to turn down a member who has a 
question to ask.
    For the record, I would just like to ask consent to put 
parts of the record of the nominees of Michael Leavitt, Andrew 
von Eschenbach, and Tom Daschle into the record of this 
hearing.
    The Chairman. That will be fine.

    [Due to the high cost of printing the information referred 
to may be found in the following hearings: Michael Leavitt's--
S. Hrg. 109-56; Andrew Von Eschenbach--S. Hrg. 109-816; and Tom 
Daschle--S. Hrg. 111-469.]

    Senator Murray. Again, our members have questions because 
this nominee is going to have jurisdiction over the health care 
and lives of millions of Americans, and we want to know where 
he stands before we make a decision, yes or no, our imprimatur 
to him to be there. That is why it is so important to members 
of our committee.
    Having said that, I want to say this. The health of our 
families and communities could not be more important to our 
strength as a Nation. When a young child goes to school healthy 
and ready to learn, she's better prepared to succeed. When 
women are empowered to plan their families and pursue all of 
their dreams, our communities benefit. When workers have access 
to quality health care that they can afford, our economy grows. 
When seniors are able to trust that the guarantee of programs 
they have paid into, Medicare and Social Security, will be 
there when needed, we live up to some of our country's most 
vital responsibilities.
    The Department of Health and Human Services has a critical 
role to play in our ongoing work to meet each of these goals 
and many more. That is why, in evaluating a nominee for 
Secretary of Health and Human Services, I consider whether the 
nominee has a record of putting people first, not politics, not 
partisanship, or those at the top; whether they will put 
science first, not ideology; and whether their vision for our 
health care in our country would help more families get 
quality, affordable care, or take us backward.
    Congressman Price, I have serious concerns about your 
qualifications and plans for the department you hope to lead, 
and I am looking forward to hearing from you today on a number 
of topics. I'll start by laying out issues with what your 
record suggests about your approach to our Nation's health care 
system.
    Just last week, you voted to begin the process of ripping 
apart our health care system without any plan to replace it 
despite independent studies showing that nearly 30 million 
people would lose health care coverage, even though more and 
more members of your own party are expressing serious doubts 
about its ability to unify around a plan, and knowing that in a 
matter of weeks you could be leading the department whose core 
responsibility is to enhance Americans' health and well-being.
    My constituents are coming up to me with tears in their 
eyes, wondering what the future holds for their health care 
given the chaos Republican efforts could cause. President-elect 
Trump and Republican leaders have promised the American people 
their plans to dismantle our health care system right away 
would somehow do no harm and would not cause anyone to lose 
coverage. In fact, just days ago, President-elect Trump 
promised ``insurance for everybody.'' Congressman Price, your 
own proposals would cause millions of people to lose coverage, 
force many people to pay more for their care, and leave people 
with pre-existing conditions vulnerable to insurance companies 
rejecting them or charging them more. I will be very interested 
in hearing your explanation of how your plans would keep the 
promises your party has made to the American people about their 
health care.
    Medicare is another issue I will be interested in hearing 
about today. President-elect Trump campaigned on promises to 
protect Medicare and Medicaid. You have said you plan to 
overhaul Medicare in the first 6 to 8 months of this 
administration, in a way that would end the guarantee of full 
coverage that so many seniors and people with disabilities rely 
on. You have put forward policies that would shift $1 trillion 
in Medicaid costs to our States, squeezing their budgets and 
taking coverage away from struggling children and workers and 
families. While President-elect Trump has said that Medicare 
should be able to negotiate lower drug prices for seniors, you 
have repeatedly opposed efforts to do that. You even went so 
far as to call legislation on that issue ``a solution in search 
of a problem.'' I disagree. This is absolutely critical for 
families in my home State, and I am eager to hear how you would 
reduce the burden of prescription drug costs in our 
communities.
    As a woman, a mother, a grandmother, and a U.S. Senator, I 
am deeply troubled by the ways in which your policies would 
impact women's access to health care and their reproductive 
rights. I have serious concerns about your understanding of 
women's needs for basic health care like birth control given 
your expressed doubts on this topic, your proposals to make 
women pay extra out-of-pocket for birth control, and your 
repeated efforts to defund our Nation's largest provider of 
women's health care, Planned Parenthood.
    I am also very focused on the role of the Department of 
Health and Human Services in strengthening and protecting 
public health. I will want to hear from you about whether and 
how you would uphold the gold standard of FDA approval; and, 
for example, how you would approach important programs and 
rules intended to keep tobacco companies from luring children 
into addiction.
    Finally, as I discussed at our hearing yesterday, I believe 
firmly that, especially as the President-elect tries to blur 
lines around conflicts of interest, it is critical we not only 
do everything in our power to hold him to high standards but we 
do the same for Cabinet nominees. That's why I was so appalled 
that with four of the President-elect's nominees currently 
serving in the House of Representatives, House Republicans 
attempted right out of the gate to get rid of the independent 
Office of congressional Ethics. Luckily they heard loud and 
clear from people across the country it wasn't acceptable, and 
they backed down.
    Congressman Price, the Office of Congressional Ethics has 
now been asked not only by Democrats, but by the consumer 
advocacy group Public Citizen, to investigate serious concerns 
and questions about your medical stock trades during your time 
in the House. I and other Democrats have repeatedly called for 
hearings on your nomination to be delayed until such an 
investigation is complete. It is disappointing to us that 
instead, Republicans are moving forward with your nomination 
before we have all the facts. I hope you have come prepared to 
be fully transparent with us in your explanations.
    I have outlined just a few of my questions and concerns 
about this nomination, and I know, in light of Republican 
efforts to take our health care system in a vastly different 
and harmful direction, they are shared by millions of people 
across the country who can't be here today. With that in mind, 
it's crucial that the voices of people who will be impacted 
every day by choices made under this administration are part of 
the process when it comes to the President-elect's Cabinet 
nominees. I just want to say I'm very pleased that tomorrow, 
Senators Warren and Stabenow will be hosting a forum with 
witnesses who can speak to the impact of health care providers 
like Planned Parenthood, the importance of the work done in the 
Affordable Care Act to expand access to mental health care and 
substance abuse treatment, and the ways in which the full 
guarantee of Medicare has helped keep them financially and 
physically secure.
    There are stories across the country like this, of lives 
saved and strengthened because of the progress we've made to 
expand quality, affordable health care. I urge my Republican 
colleagues to attend and to prioritize what is best for these 
women and men and families, not what's best for politics, as 
they consider each of their decisions in the coming weeks.
    Congressman Price, as we begin this hearing I would ask you 
to be as transparent and frank as possible about your views and 
your plans for the Department, and urge you to commit to 
providing us with additional information and answers to any 
followup questions we have in a timely and thorough manner.
    I am looking forward to what I hope will be a rigorous and 
open discussion today, and I hope that we all arrive at the 
right decision for the families and the communities that we 
serve.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Murray.
    Before I introduce Senator Isakson, I'd like to put into 
the record the information about the last six hearings that 
we've had here, without going into detail. The current 
Secretary, one round of questions; Secretary Sebelius, one 
round with one member asking a second round; Daschle, one round 
plus three; Leavitt, six members ask a second round; Thompson, 
one round of 7 minutes each; and Shalala, six members ask a 
second round. My decision is that rather than give 6 of 23 
members a second round, that it would be better to let every 
Senator have 7 minutes.
    Senator Isakson.

                      Statement of Senator Isakson

    Senator Isakson. Thank you, Mr. Chairman.
    I'd like to ask unanimous consent that the remarks that 
were prepared for me to read this morning be submitted for the 
record.
    The Chairman. They will be.
    [The information referred to was not available at time of 
press.]
    Senator Isakson. Because I'm not going to read them.
    I have a unique honor and privilege to introduce a friend 
of mine for 30 years, someone I know to be a great politician, 
a great practicing legislator, a great family man, a great 
community servant, and a great friend of mine, and it's an 
honor for me to do so.
    I want to thank each of you for taking my call before this 
meeting today when I called you to ask you to listen to what 
Tom had to say, because I think you'll be impressed with what 
you hear no matter how tough the question might be.
    I approached this introduction as if I'm being asked what I 
would look for in somebody who I wanted to entrust with $1 
trillion of my money, the quality of my health care, and the 
future of the American quality of health care. I'd look for 
five things.
    First, does this man understand the American family. Not 
only does he understand it, but his wife Betty is here.
    Betty, stand up.
    She'll tell you he understands the family.
    His son Robert is not here because he's in Nashville, TN, 
singing country music and writing country music songs. I know 
the Chairman would appreciate that. He's a fine young man, and 
I enjoy working with him.
    Tom is a great family man, a member of Roswell United 
Methodist Church, active in his community, active in the State 
legislature, active in doing what's right for his community. 
He's a good man and understands the family and the value of the 
family and the value of health care to every family.
    Second, I'd want to know is he capable of handling $1 
trillion. You know, $1 trillion is a lot of money. It's 
actually $1.1 trillion, but when you get to $1.1, why worry 
about it? It's a lot of money. It's more than we appropriate, 
as the Chairman said.
    He's been chairman of the Budget Committee in the House of 
Representatives. He served in the Georgia legislature, leading 
appropriations for many, many years. He's run one of the 
largest medical practices in the State of Georgia. In fact, Tom 
Price is one of those people who put together what's known as 
Resurgens Orthopaedics. They happen to be my doctors. In fact, 
they saved my son's right leg 26 years ago in a terrible 
automobile accident. I understand the value of Resurgens 
Orthopaedics and what Tom has done. It's now the largest 
practice center up-state, a well-run practice, and a practice 
that's set up as an example of how to do medicine in the 21st 
century.
    I'd want to know that my nominee for Health and Human 
Services knew and understood the health care business. Well, 
who better to understand the health care business than a 
doctor? Even better than that, a doctor who is married to 
another doctor? Tom and Betty met at Grady Memorial Hospital 
when they were doing their residencies. They fell in love 
there, and they fell in love with the practice of medicine. 
I've watched them over the last 30 years participate in 
activities in our State, whether elected or not. They 
contributed to the betterment of health care in our State, the 
betterment of hospitals like Grady Memorial Hospital, which is 
the largest crisis hospital and trauma center we have in the 
State of Georgia, saving lives every single day. They would 
have probably not been there today had it not been for people 
like Tom Price, who gave of his time and his effort to see to 
it to raise the money necessary to keep Grady open.
    I'd want to know they had some experience with the 
legislature, because if you get a chairman of Health and Human 
Services to come in, you give him a $1.1 trillion budget, and 
then you say go talk to those 435 people over there and 
convince them what we need to do to change the law, that's a 
pretty tall order. You'd want to find somebody who served in 
public office. Tom has been in the State Senate in Georgia, was 
the first elected Republican leader of the George State Senate 
in the history of our State. He served in the Congress of the 
United States. In fact, he improved the 6th District remarkably 
when I left and he was elected to replace me. The intellectual 
level went way up when Tom came, I can promise you that.
    He has done an outstanding job being re-elected six times 
to the U.S. House of Representatives, serving, as I said, as 
Budget chairman, as Study Committee chairman, and as a very 
active member of the Congress of the United States of America.
    I'd want to also know if he was an accountable person and 
believed in accountability. Tom Price believes in 
accountability. He's one of the rare one of us--in fact, he may 
be the only one of us, and I know this is true, that reads all 
the bills. When I need to know something about a bill, rather 
than read, I call Tom Price to give me advice because I know 
he's read it. Sometimes he's boring, but he's always 
knowledgeable.
    [Laughter.]
    It's because he does his homework, he does it right, he 
believes in his responsibilities.
    I'm going to mention a couple of things that have been said 
negative about Tom, and I want to address them straight up 
because they're wrong. In fact, I did so on the floor of the 
Senate yesterday afternoon when Chuck Schumer took this case of 
Zimmer Biomet and tried to make it into a major case.
    Zimmer Biomet is a $26-a-share stock that Tom Price's 
broker who manages his account bought for him at a time Tom was 
unaware of the purchase. It was 2 months after the House had 
acted on a medical device bill. There's a term of art called 
``disparate impact'' where you take two facts that are 
unrelated and you put them together to indict somebody for a 
wrong when, in fact, nothing wrong was done at all, and that's 
the case there. Zimmer Biomet, a $2,674 stock purchase, took 
place without Tom's knowledge because his account is managed by 
someone else. His knowledge of that purchase took place 1 month 
later after the disclosure was made. He didn't even know about 
it at the time that it was made. The allegations that were made 
yesterday on the floor of the Senate are patently wrong by 
taking two correct things and putting them together to make an 
incorrect thing.
    Second, something else has been said that I have working 
knowledge of. Tom was accused of not being for saving Social 
Security for seniors. I'm 72 years old. I'm not going to stand 
up here and get you all to approve somebody who is not going to 
protect Social Security, because I've got some of it. Let me 
tell you a little story about Tom Price.
    He and I got a phone call 6 months ago--I guess now it's 
been 8 months ago--from AARP asking us if we would travel and 
do town hall forums for AARP on saving Social Security. Why 
would somebody call Tom Price, a Congressman, or Johnny 
Isakson, a Senator, to be the organization that represents 
seniors to go on the road and do town hall meetings about 
saving Social Security if they weren't for saving Social 
Security? It's just incongruent and it doesn't make any sense.
    Last, one of the best votes I cast 4 years ago for Cabinet 
members was a vote for Sylvia Burwell. When she came before 
this committee and the Senate Committee on Finance, I was on 
both committees, as I am today. She's an articulate, 
intelligent lady. There was a lot of reason for me as a 
Republican, in the minority, to say, ``Oh, I'll just throw away 
a vote and vote against her because she's a Democratic 
nominee.'' I listened to her answers, I studied her history, I 
watched her actions, and I proudly voted for her, and today 
she's a professional friend of mine, and we'll miss her in her 
office. There's nobody better qualified to replace Sylvia 
Burwell than Tom Price.
    I voted for Sylvia Burwell with pride, and I'm going to 
vote for Tom Price with pride because I know he's the right man 
for the right job at the right time for America.
    He's my friend and I commend him to you, and I urge you to 
vote for him in his confirmation.
    The Chairman. Thank you, Senator Isakson. That's much 
better than whatever was written for you to say.
    [Laughter.]
    Dr. Price, welcome to the committee.

 STATEMENT OF TOM PRICE, B.A., M.D., NOMINEE FOR SECRETARY OF 
             HEALTH AND HUMAN SERVICES, ROSWELL, GA

    Dr. Price. Chairman Alexander, Ranking Member Murray, and 
all the members of the committee, I want to thank you all for 
the opportunity to speak with you today and engage, as the 
Ranking Member said, in a discussion about the road ahead for 
our great nation.
    I want to thank Senator Johnny Isakson for his generous 
introduction. As he said, we've known each other for 30 years, 
and I'm so grateful for his friendship and his kindness, and 
our State is blessed to have had his service and his 
leadership.
    I wish also to especially thank my wife Betty of 33 years 
who joins me here today. As Johnny mentioned, her support and 
encouragement and advice, which I would suggest to you is 
virtually always correct, and her love means more to me than I 
could ever say.
    Over the past few weeks I've met with many of you 
individually and have gained a real appreciation for the 
passion that you have for the Department of Health and Human 
Services. Please note that I share that passion. That's why I'm 
here today and why I'm honored to be the nominee for Secretary 
of Health and Human Services.
    We all come to public service in our own unique ways that 
inform who we are and why we serve. My first professional 
calling was to care for patients. That experience as a 
physician and later as a legislator has provided an holistic 
view of the complex interactions that take place every day 
across our communities, and today I hope to share with you how 
my experience has helped shape me and my understanding and 
appreciation for the work of the Department of Health and Human 
Services.
    From an early age I had an interest in medicine. My 
earliest memories are of growing up on a farm in the State of 
Michigan. We lived on a farm in Michigan before we moved to 
suburban Detroit when I was 5 years old. I spent most of my 
formative years being raised by a single mom, so my fondest 
memories are spending time with my grandfather, who was a 
physician. When I was young we would go--I would be able to go 
spend some weekends with him and we'd go on rounds, which at 
that time meant going on house calls. We'd drive up to houses, 
and the memories I have of individuals opening the door and 
giving him a hug and welcoming him graciously are cemented in 
my mind.
    After graduating from medical school from the University of 
Michigan, I moved to Atlanta, which I've called home for nearly 
40 years. That's where I met my wife, where we raised our son. 
I did my residency at Emory University and Grady Memorial 
Hospital, where I would later return in my career to serve as 
the medical director of the orthopedic clinic.
    Throughout my professional career I've treated patients in 
all walks of life, including so many children. Anyone who has 
ever treated a child knows the remarkable joy that you have 
when you're able to go tell a mom and dad that we have helped, 
we have helped save their child or helped their child back to 
healthfulness. My memories of Grady are filled with the 
gracious comments of parents and of patients for the team of 
health care specialists with whom I had the privilege of 
working.
    After 25 years of school and training, I started a solo 
orthopedic practice. Over the years this practice grew, as 
Senator Isakson mentioned, and eventually became one of the 
largest non-academic orthopedic groups in the country, for 
which I would eventually serve as chairman of the board.
    During 20 years as a practicing physician I have learned a 
good bit about not just treating patients but about the broader 
health care system and where it intersects with government. A 
couple of vivid memories stand out. One, many of my patients 
were never more irritated or angry when they recognized that 
there was somebody else in the exam room, not physically but 
figuratively, who was getting between the doctor and the 
patient in making decisions, whether it was the insurance 
company or government. Then there was the day when I noticed in 
my office--it was in the mid-1990s when I realized that there 
are more individuals behind the door where the clinical work 
was going on seeing patients than there were in front of the 
door. Those folks were filling out forms and making certain 
that we were checking all the boxes and challenging or arguing 
with insurance companies or government about what was in the 
best interest of the patient.
    It became clear to me that our health care system was 
losing focus on its No. 1 priority, and that is the patient. As 
a result, I felt compelled to broaden my role in public service 
and help solve the issues harming the delivery of medicine, so 
I ran for the George State Senate. I found the State Senate in 
Georgia to be often remarkably bipartisan and that collegial 
relationships were the norm. This is the environment in which I 
learned to legislate, reaching across the aisle to get work 
done.
    In Congress I've been fortunate as well to be part of 
collaborations that broke through party lines to solve 
problems. Just this past Congress it was a bipartisan effort 
that succeeded in ridding Medicare of a broken physician 
payment system and which has now begun the creation of a new 
system which, if implemented properly, will help ensure that 
seniors have better access to higher-quality care.
    If confirmed, my obligation will be to carry to the 
Department of Health and Human Services both an appreciation 
for bipartisan, team-driven policymaking and what has been a 
lifetime commitment to improving the health and well-being of 
the American people. That commitment extends to what I call the 
six principles of health care: affordability, accessibility, 
quality, responsiveness, innovation, and choices.
    Health and Human Services is more than health care. There 
are real heroes at this department doing incredible work to 
keep our food safe, to develop new drugs and treatment options, 
driven by scientists conducting truly remarkable research. 
There are heroes among the talented, dedicated men and women 
working to provide critical social services, helping families 
and particularly children have a higher quality of living and 
the opportunity to rise up and achieve their American Dream.
    The role of Health and Human Services in improving lives 
means it must carry out its responsibilities with compassion. 
It also must be efficient and effective and accountable, as 
well as willing to work with those in communities already doing 
incredible work on behalf of their citizens.
    Across the spectrum of issues and services that this 
department handles, there endures a promise that has been made 
to the American people. We must strengthen our resolve to keep 
the promises our society has made to our senior citizens and to 
those who are most in need of care and support. That means 
saving and strengthening and securing Medicare for today's 
beneficiaries and future generations. It means ensuring that 
our Nation's Medicaid population has access to the highest 
quality care. It means maintaining and expanding America's 
leading role in medical innovation and the treatment and 
eradication of disease. I share your passion for these issues, 
having spent my life in service to them.
    Yet there's no doubt that we don't all agree on or share 
the same point of view when it comes to addressing every one of 
these issues. Our approaches to policies may differ, but 
surely, surely there exists a common commitment to public 
service and to compassion for those that we serve. We all hope 
that we can help improve the lives of the American people to 
help heal individuals and whole communities.
    So with a healthy dose of humility and an appreciation for 
the scope of the challenges before us, with your assistance and 
with God's will, we can make it happen, and I look forward to 
working with you to do just that.
    Mr. Chairman, I thank you for the opportunity to be with 
you today.
    [The prepared statement of Dr. Price follows:]
        Prepared Statement of Congressman Tom Price, B.A., M.D.
    Thank you Chairman Alexander, Ranking Member Murray, and all the 
members of this committee for the opportunity to speak with you today 
and engage in a discussion about the road ahead for our great Nation. 
These proceedings, and this entire process, would not be possible 
without the work of your staff, and so I want to extend my appreciation 
to them as well for the great service they provide. Thanks so much to 
Senator Johnny Isakson for his generous introduction. We've known each 
other for nearly 30 years and I'm so grateful for his friendship and 
kindness, and our State is blessed to have had his service and 
leadership. I wish also to especially thank my wife of 33 years, Betty, 
who joins me today. Her support, encouragement and advice (which is 
always correct) mean more than I could ever say.
    Over the past few weeks, I have had the chance to meet with many of 
you individually and have gained a real appreciation for the passion 
you all have about the critical work of the Department of Health and 
Human Services. Please know that I share that passion. That is why I am 
here today and why I'm honored to have been nominated by the President-
elect to serve as the next Secretary of HHS.
    We all come to public service in our own unique ways that inform 
who we are and why we serve. My first professional calling was to care 
for patients. That experience as a physician and later as a legislator 
has provided a holistic view of the complex interactions that take 
place every day across our communities and across this country that, 
when done correctly, are in service to the greater good we seek to 
achieve. Today, I hope to share with you how my experience has helped 
shape my understanding of and appreciation for the work of the 
department and its team, which I hope to lead.
    From an early age, I had an interest in medicine. My earliest 
memories are of a farm in Michigan where my family and I lived before 
moving to suburban Detroit at the age of 5. I spent most of my 
formative years being raised by a single mom, and I assumed a lot of 
responsibility since there were five of us. Some of my fondest memories 
were spending time with my grandfather, a physician, as he made house 
calls to see patients. Having both a father and grandfather as 
physicians surely influenced my path toward medicine. It was very 
likely that the orthopedist who treated my many broken bones in my 
youth gave me a particular fascination for fixing things--and not just 
broken bones.
    After graduating with a medical degree from the University of 
Michigan, I went south to Atlanta, GA--which I've called home for 
nearly 40 years. It's where I met my wife, Betty; and where we raised 
our son. I did my residency at Emory University and Grady Memorial 
Hospital in downtown Atlanta. I would return to Grady later in my 
career to serve as medical director of the orthopedic clinic. 
Throughout my professional career I treated patients of every age from 
all walks of life--including many children. Anyone who has ever treated 
a child knows how fulfilling it is to look into the eyes of a parent 
and tell them our team has helped heal their son or daughter--to give 
them peace of mind. My memories of Grady are filled with the gracious 
comments from parents and patients for the team of health care 
specialists with whom I had the privilege of working. I cherished my 
time there.
    After 25 years of school and training, I hung out my shingle to 
start a solo private orthopedic practice. Over the years, this practice 
grew and eventually became one of the largest, non-academic orthopedic 
groups in the country--a group I would eventually serve as chairman of 
the board. Whether as part of that team or on staff at a hospital, it 
was apparent early on that every person involved in the delivery of 
care, no matter their role--doctors, nurses, lab techs, orderlies--all 
had one goal in mind and that was to get our patients well again, to 
heal them. It was always a team effort and wherever you fit into that 
team, you appreciated the value of those working with you.
    During 20 years as a practicing physician--both in office and 
hospital setting--I learned a good bit about not just treating patients 
but about the broader health care system and where it intersects with 
government--local, State and Federal. A couple of lessons stand out. 
One lesson was that many patients I knew or treated were never more 
angry and frustrated than when they realized that there was someone 
other than themselves and/or their physician making medical decisions 
on their behalf--when there was someone not involved in the actual 
delivery of care that was standing between them and their doctor or 
treatment.
    Another lesson came the day I noticed that there were more 
individuals within our office who were dealing with paperwork, 
insurance filings, and government regulations than there were 
individuals actually seeing and treating patients. It was in those 
moments that it became crystal clear that our health care system was 
losing focus on the No. 1 priority--the individual patient. Having had 
no greater joy than taking care of patients, I felt compelled to 
broaden my role in public service, and help solve the issues harming 
the delivery of medicine, so I ran for the State Senate in Georgia.
    Anyone here who has ever served at the State level knows that State 
government has a different feel to it, it's a different pace. In 
Georgia, I found the State Senate to be a remarkably bipartisan place 
where collegial relationships were the norm. This is the environment in 
which I learned to legislate--reaching across the aisle to get the work 
done--needing the buy-in and the support of more than just one party. I 
worked with Democrats including then-State Senator, now-Atlanta mayor, 
Kasim Reed. He and I did not see eye to eye on everything, for sure, 
but we were successful in finding our way together through some really 
challenging issues for our State.
    In Congress, I have been fortunate to have been a part of 
collaborations that broke through party lines to solve problems 
including those pertaining to health care. Early in my congressional 
career, I was privileged to work alongside then-representative, now 
Senator, Tammy Baldwin to introduce legislation that would have 
empowered States to come up with new ideas to provide health care 
coverage to their uninsured populations. Just this past Congress, it 
was a bipartisan, bicameral effort that actually succeeded in ridding 
Medicare of a broken physician payment system and which has now begun 
the creation of a new system that, if implemented properly, will help 
ensure that seniors have better access to higher quality care.
    If confirmed, my obligation will be to carry to the Department of 
Health and Human Services both an appreciation for bipartisan, team-
driven policymaking and what has been a lifetime commitment to work to 
improve the health and well-being of the American people. That 
commitment extends to what I call the six principles of health care--
six principles that, if you think about it, all of us hold dear: 
affordability, accessibility, quality, choices, innovation, and 
responsiveness. We all want a health care system that's affordable, 
that's accessible to all, of the highest quality, with the greatest 
number of choices, driven by world-leading innovations, and responsive 
to the needs of the individual patient.
    HHS is more than just health care. There are real heroes at this 
department doing incredible work to keep our food safe, to develop new 
drugs and treatment options--driven by scientists conducting truly 
remarkable research. The Centers for Disease Control and Prevention--
which we in Atlanta are proud to have headquartered in our city, is the 
first place the world turns to when there's a health care threat that 
requires the greatest, most capable minds to solve.
    There are heroes among the talented, dedicated men and women 
working to provide critical social services--helping families and, 
particularly, children have a higher quality of living and the 
opportunity to rise up and strive to achieve their American Dream--
something we all want for ourselves and our loved ones.
    The role of HHS in improving lives means it must carry out its 
responsibilities with compassion. It also must be efficient, effective 
and accountable, as well as being willing to partner with those in our 
communities already doing remarkable work. In every aspect of the 
department, across the spectrum of issues and services it handles, 
there is embedded a promise that has been made to the American people. 
Governor Michael Leavitt, during his confirmation hearing in 2004 to 
take on this task, spoke of our highly regarded ``brands''--the CDC, 
FDA, NIH, and others--and how they must be preserved and strengthened 
because they guarantee that those promises are kept.
    Today's challenges make it even more important that we strengthen 
our resolve to keep the promises we, as a society, have made to our 
senior citizens and to those among us who are most in need of care and 
support. That means saving, strengthening, and securing Medicare for 
today's beneficiaries and future generations. It means ensuring that 
our Nation's Medicaid population has access to quality care. It means 
maintaining, and expanding, America's leading role in medical 
innovation and the treatment and eradication of disease.
    As I noted at the outset, I share your passion for these issues--
having spent my life in service to them. Yet, there's no doubt that we 
do not all share the same point of view when it comes to addressing 
each and every one of them. Our approaches to policies may differ, but 
there surely exists a common commitment to public service and 
compassion for those we serve. We all hope, by our actions, to help 
improve the lives of the American people, to help heal individuals and 
whole communities. With a healthy dose of humility and appreciation for 
the scope of the challenges before us, with your assistance and with 
God's will, we can make it happen. I look forward to working with you 
to do just that.
    Thank you very much for the privilege of appearing before you 
today.

    The Chairman. Thank you, Dr. Price.
    We will now begin a round of 7-minute questions, and I'll 
start the questioning.
    I'll just talk about the Affordable Care Act and the health 
care system. My belief is that the historic mistake in the 
passage of the Affordable Care Act was it sought to expand a 
system that already cost too much, a health care system.
    What is our goal here of those who want to repair the 
damage of Obamacare and replace parts of it? Is it to lower the 
cost of insurance for Americans? Is it to give them more 
choices of that lower-cost insurance? Is it to put more 
decisions in the hands of States and into the hands of 
patients?
    Dr. Price. Thank you, Mr. Chairman. I think certainly the 
issues that you raised with choices and access and cost are at 
the heart and the center of where we ought to be putting our 
attention. As I mentioned in the six principles that I have for 
health care, affordability is incredibly important. It doesn't 
do you any good if you can't afford health coverage. 
Accessibility is absolutely imperative. Today many folks have 
coverage but they don't have care because they don't have 
access to the physicians that they'd like to see. So choices 
are absolutely vital.
    The Chairman. Well, isn't one of the primary means for 
achieving those choices moving more health care decisions out 
of Washington, putting them back in the hands of States and 
patient consumers?
    Dr. Price. I think in many instances the closer that you 
can have those decisions to the patient, keeping the focus on 
the patient, the better.
    The Chairman. If the responsibilities are headed toward the 
States, or some responsibilities, would that not necessarily 
involve a fair amount of extensive consultation with Governors 
and State insurance departments about how to do that and what 
the implementation schedule ought to be?
    Dr. Price. Absolutely. Folks at the State level, as you 
well know, having served there, know their populations better 
than we can know them.
    The Chairman. Senator McConnell said last week that 
Obamacare would be replaced and repealed in manageable pieces. 
I want to suggest some pieces to you on a chart back here. It 
looks to me like there are four major areas where Americans get 
our health care insurance. One is Medicare, 18 percent of 
Americans. One is employer insurance. Sixty-one percent of 
Americans get their insurance on the job. One is Medicaid, 
which is 22 percent. One is the individual market, only 6 
percent, and the exchanges we hear so much about are just 4 
percent of that 6 percent, but that's where so much of the 
turmoil is.
    Let me ask you this. Is this bill an effort to replace and 
repeal Obamacare, is this the bill to reform Medicare?
    Dr. Price. Absolutely not.
    The Chairman. We would be focused on employer, Medicaid, 
and individual insurance. Are those accurate categories, or 
would you categorize them in a different way?
    Dr. Price. I think the challenges that we have to address 
immediately are those in the individual market and in the 
Medicaid market, as you identified.
    The Chairman. Is it possible to work on one of those areas 
at a time rather than in a comprehensive--or let me put it this 
way. I said don't expect Senator McConnell to wheel in a 
wheelbarrow with a big comprehensive Republican health care 
plan. That's because, in my opinion, we don't believe in that. 
We don't believe in replacing a failed Washington, DC. health 
care plan with our own failed plan. We want to work on it step 
by step, large piece by piece. How do you respond to that?
    Dr. Price. I think that's fair. I think that for 
individuals to--the American people need to appreciate that the 
last thing we want to do is go from a Democrat health care 
system to a Republican health care system. Our goal would be to 
go from what we see as a Democrat health care system to an 
American health care system that recognizes the needs of all.
    The Chairman. I know your plan won't be presented until 
after you're confirmed, but the President-elect has said let's 
do repeal and replace simultaneously. To me that must mean that 
any repeal of parts of Obamacare wouldn't take effect until 
after some concrete, practical alternative were in place for 
Americans to choose. Is that accurate, or do you have a 
different idea of what ``simultaneous'' might mean or what the 
sequencing might be as we move through this process?
    Dr. Price. No, I think that's fair. I think one of the 
important things that we need to convey to the American people 
is that nobody is interested in pulling the rug out from under 
anybody. We believe that it's absolutely imperative that 
individuals that have health coverage be able to keep health 
coverage and move, hopefully, to greater choices and 
opportunities for them to gain the kind of coverage that they 
want for themselves and for their families. I think there's 
been a lot of talk about individuals losing health coverage. 
That is not our goal, nor is it our desire, nor is it our plan.
    The Chairman. Let me ask you about how long this all might 
take, this repairing the damage, this working on these three 
big areas--individual market, Medicaid, and employer. My sense 
of it is that we've been working on this so long, although we 
have different opinions about it, we ought to be able to make 
most of our votes in the next few months about what to do, but 
that the implementation about whatever we decide, especially 
since some of it will be going back to the States, to the 
department that you hope to lead, might take several years. Is 
there a difference between the votes we might take and then a 
longer time for implementation of what we decide to do?
    Dr. Price. No, I think that's fair. I would point out that 
our health care system is continually evolving, and should. We 
ought to be always looking at how it's working, whether it's 
working for patients, whether it's working for the individuals 
that are working to provide the highest quality care for folks, 
and when it is, that's fine. When it isn't, then it's incumbent 
upon policymakers to make certain that we do the kinds of 
things to adjust that policy so that it can work, especially 
for patients.
    The Chairman. My last question is about this individual 
market, the 6 percent. The Obamacare exchanges are about 4 
percent of all of us who have insurance. Our insurance 
commissioner in Tennessee says the market is virtually 
collapsing. I'm told by many people that we need to basically 
have a rescue plan, a reform plan for the individual market in 
place by March the 1st so that insurance companies who make 
their decisions about the year 2018 can make those plans so 
that people have insurance to buy in all of these States. Do 
you agree that the market is collapsing, that we need a rescue 
plan, and that March the 1st is an important approximate date 
for a decision of action?
    Dr. Price. Well, we're clearly seeing changes in the 
individual and small group market that are adverse to the 
patient. Whether it's decreasing access to coverage, whether 
it's increasing premiums, whether it's higher deductibles, 
something is going badly wrong out there, and it's imperative, 
I believe, for us to recognize that, and then to put in place 
the kinds of solutions that we believe to be most appropriate.
    The Chairman. And your plan that we're likely to see in 
February will include recommendations for how to do that?
    Dr. Price. We look forward to, should I be given the honor 
of leading the Health and Human Services, along with the 
President, we look forward to working with Congress to come 
forward with that plan.
    The Chairman. Thank you, Dr. Price.
    Senator Murray.
    Senator Murray. Thank you, Mr. Chairman.
    Before I start, I want to ask consent to put a letter to 
Chairman Alexander from all 11 Democrats on this committee on 
the importance of a second round of questions on this nominee; 
and I ask unanimous consent to put in the record 25 letters 
signed by 193 organizations opposing Congressman Price's 
nomination to lead the Department of Health and Human Services; 
and I also have a petition signed by 500,000 people from across 
the country opposing this nomination I ask to put in the 
record.
    The Chairman. They will be.
    [The information referred to may be found in Additional 
Materials; however due to the high cost of printing some 
letters are being retained in committee files.]
    Senator Murray. Congressman Price, recent press reports 
about your investments in the Australian biotech company Innate 
Immunotherapeutics raises some serious questions about your 
judgment, and I want to review the facts.
    You purchased stock in Innate Immunotherapeutics, a company 
working to develop new drugs, on four separate occasions 
between January 2015 and August 2016. You made the decision to 
purchase that stock, not a broker; yes or no?
    Dr. Price. That was a decision that I made, yes.
    Senator Murray. You were offered an opportunity to purchase 
stock at a lower price than was available to the general 
public; yes or no?
    Dr. Price. The initial purchase in January 2015 was at the 
market price. The secondary purchase in June through August/
September 2016 was at a price that was available to individuals 
that were participating in a private placement offering.
    Senator Murray. It was lower than was available to the 
general public, correct?
    Dr. Price. I don't know that it was. It was the same price 
that everybody paid for the private placement offering.
    Senator Murray. Well, Congressman Chris Collins, who sits 
on President-elect Trump's transition team, is both an investor 
and a board member of the company. He was reportedly heard just 
last week off the House floor bragging about how he had made 
people millionaires from a stock tip.
    Congressman Price, in our meeting, you informed me that you 
made these purchases based on conversations with Representative 
Collins. Is that correct?
    Dr. Price. No. What I----
    Senator Murray. Well, that is what you said to me in my 
office.
    Dr. Price. What I believe I said to you was that I learned 
of the company from Congressman Collins.
    Senator Murray. What I recall our conversation was that you 
had a conversation with Collins and then decided to purchase 
the stock.
    Dr. Price. No, that's not correct.
    Senator Murray. Well, that is what I remember you said in 
my office. In that conversation, did Representative Collins 
tell you anything that could be considered a stock tip? Yes or 
no?
    Dr. Price. I don't believe so, no.
    Senator Murray. Well, if you're telling me he gave you 
information about a company, you were offered shares in the 
company at prices not available to the public, you bought those 
shares, is that not a stock tip?
    Dr. Price. That's not what happened. What happened was that 
he mentioned--he talked about the company and the work that 
they were doing and trying to solve the challenge of 
progressive secondary multiple sclerosis, which is a very 
debilitating disease and one that I----
    Senator Murray. I'm well aware of that.
    Dr. Price [continuing]. When I had the opportunity to treat 
patients when I was in practice.
    Senator Murray. I'm aware----
    Dr. Price. I studied the company for a period of time and 
felt that it had some significant merit and promise and 
purchased the initial shares on the stock exchange itself.
    Senator Murray. Congressman Price, I have very limited 
time. Let me go on.
    Your purchases occurred while the 21st Century Cures Act, 
which had several provisions that could impact drug developers 
like Innate Immunotherapeutics, was being negotiated; and 
again, just days before you were notified to prepare for a 
final vote on the bill.
    Congressman, do you believe it is appropriate for a senior 
Member of Congress actively involved in policymaking in the 
health sector to repeatedly personally invest in a drug company 
that could benefit from those actions? Yes or no?
    Dr. Price. That's not what happened.
    Senator Murray. Well, let me just say that I believe it's 
inappropriate, and we need answers to this regarding whether 
you and Congressman Collins used your access to non-public 
information when you bought at prices that were unavailable to 
the public and----
    Dr. Price. I had no access to non-public information.
    Senator Murray. Well, we'll move on.
    Congressman Price, just last week you and Republicans in 
Congress voted to begin ripping apart our health care system, 
which would cause nearly 30 million people to lose their 
coverage and raise health care costs for families, without 
telling the American people specifically what you plan to do 
instead. President-elect Trump and Republicans in Congress have 
promised to deliver a plan that prevents anyone from losing 
coverage and leaves no one worse off. Just days ago President-
elect Trump said his plan would provide insurance for 
everybody. Do you share those goals?
    Dr. Price. I think it's absolutely imperative that we have 
a system in place that has patients at the center and allows 
for every single American to have the opportunity to gain 
access to the kind of coverage they want.
    Senator Murray. You share his goal of insurance for 
everybody?
    Dr. Price. That's been always my stated goal. It's what 
we've worked on throughout my entire public career.
    Senator Murray. OK. If your repeal plan, the Empowering 
Patients First Act, was signed into law, would you consider 
these commitments to insure all Americans and leave no one 
worse off to be met?
    Dr. Price. The goal of the bills that I've worked on here 
in Congress, and understanding that the role, if I'm given the 
privilege of leading----
    Senator Murray. I'm asking about you, though.
    Dr. Price [continuing]. Is different, but my role in 
Congress was to always make certain that individuals had the 
opportunity to gain access to the kind of coverage that they 
desired, and that they had the financial feasibility to do so. 
That's what's different about the plans that we put forward.
    Senator Murray. Well, I think it's really important that we 
have clear answers, so let me just say this. Your bill only 
allows people with pre-existing conditions to obtain health 
insurance if they maintained continuous insurance for 18 months 
prior. Millions of Americans with pre-existing health 
conditions lack insurance for short periods of time. Under your 
plan, insurance companies could deny those Americans coverage 
for pre-existing conditions. Yes or no? Under your bill.
    Dr. Price. It's a broader question than that because we 
would put in place high-risk pools and individual health pools 
that would allow every single person in the individual small 
group market who are the ones challenged with pre-existing 
illness to be able to gain access again to the coverage that 
they want. We believe through that plan that every single 
person would have the opportunity and financial feasibility to 
gain the coverage that they want for themselves and for their 
families.
    Senator Murray. We disagree on the consequences of that.
    Your bill would repeal dependent coverage available to 
young adults up to age 26. That is correct, right?
    Dr. Price. The bill that I authored did not include 
coverage up to age 26. The insurance companies have said that 
they were working on that, that they were including that in 
their plans going forward, and so we felt it was covered.
    Senator Murray. OK, and your bill takes away current 
benefits, which includes prescription drugs, mental health and 
substance use disorder benefits, and maternity coverage, among 
others. That is correct, right?
    Dr. Price. Again, it's different in the legislative arena 
than it is in the administrative arena, but there are other 
factors that we would put in place that would make certain that 
individuals had the care and the kind of coverage that they 
needed for whatever diagnosis would befall them.
    Senator Murray. Again, I disagree with the consequences. 
Your bill didn't cover that.
    Your bill also repeals the lifetime limits on coverage that 
helps a lot of people who are sick and have high medical 
expenses, like a person with cancer. Yes or no?
    Dr. Price. Again, it's a larger question because what we 
would put is a different construct in place that would allow 
for every single person to gain access to the coverage that 
they want and have nobody fall through the cracks.
    Senator Murray. Well, I think just with these questions I'm 
very concerned that your vision for a health care system is 
very different than one that I think millions of Americans are 
counting on.
    The Chairman. Thank you, Senator Murray.
    Senator Enzi.

                       Statement of Senator Enzi

    Senator Enzi. Thank you, Mr. Chairman.
    Thank you, Dr. Price, for being willing to serve and to go 
through this process. I call this ``gotcha management.'' 
Nothing is barred, and the idea is to get you to take questions 
on short notice in public that you wouldn't have done what you 
normally do. I've worked with you for the last 2 years, meeting 
with you at least once a week every week that we've been in 
session. I know how you operate, and I appreciate how you 
operate, and the care and the focus and the concern and how 
comprehensively you think about particularly the medical 
things.
    One of my concerns is always the rural areas, because 
Wyoming is the most rural State in the Nation. I hesitate to do 
that because last night at the Education hearing I got to hear 
from Mrs. DeVos, who remembered a conversation from a month 
before that I had on a rural problem which dealt with grizzly 
bears by the Wapiti School in Wyoming. That became a major 
topic around here, and I'm glad everybody recognizes that need 
and concern. Part of the story was that that's the grade school 
that former Senator Craig Thomas went to. When he was there, 
they didn't need that defense because he was tough.
    [Laughter.]
    There are different kinds of problems in different places 
than the health care area. I have a county that's the size of 
Delaware. It has one community that would like to say it has 
2,500 people. It does have a hospital. When you have a rural 
community, a rural county that big with that small of a town, 
it's difficult to keep a doctor. Without at least a PA there, 
the hospital has to close. If that hospital closes, emergency 
care is 80 miles away, not a likely story in most of the 
places, and we need to make sure that those things are covered. 
I've appreciated getting to share those with you over the 
period of time.
    I was always curious as to why you left a very successful 
practice and were willing to come back here and try to make a 
difference, and I want to congratulate you on the difference 
that you have made. One of the questions I'd ask you is why are 
you willing to leave a place with so much responsibility and 
background and capability to be willing to be the Secretary of 
Health and Human Services.
    Dr. Price. Thank you, Senator. When I think about the 
mission of the Department of Health and Human Services, which 
is to improve the health, safety, and well-being of the 
American people, it's what I literally spend my life trying to 
do. To have the opportunity to participate, if confirmed, to 
serve as the Secretary of Health and Human Services and try to 
guide that organization in a direction that would further 
fulfill that mission, I can't think of anything more exciting 
or fulfilling.
    Senator Enzi. Well, I think you have the background for 
doing that too, with the wide range of experience you had 
between the different practices and hospitals, and then coming 
here and going through a number of different committee 
situations. What you're about to go through is rather intense, 
and then that's followed by probably the most productive part, 
if Senators happen to read the answers, and that's when you get 
to do written questions as well, which we hope you'll provide a 
rapid response on. Those aren't nearly as much fun for the 
panelists because they aren't in public.
    I'll move to some questions that are a little bit more 
related here.
    Because we begin the serious and challenging task of 
restoring the health insurance markets which are teetering on 
the brink now, some are collapsing--in some counties you can't 
get coverage. In Wyoming there's only one provider, and it's my 
understanding that the incoming administration may have the 
ability to make some key policy changes immediately. Some of 
the most critical changes for short-term stabilization of the 
markets might include reducing the number of special enrollment 
periods and requiring up-front verification, or aligning grace 
periods for non-payment of premiums in State law. My 
understanding from those in the insurance business is it's 
targeted actions by the Department of Health and Human Services 
may provide some meaningful changes that could impact premiums 
for the next year. Are those some options that you might 
consider?
    Dr. Price. Absolutely. The insurers, as I think the 
Chairman mentioned, are deciding right now as they come forward 
in March and April, what the premium levels will be for 2018--
calendar year 2018. What they need to hear from all of us, I 
believe, is a level of support and stability in the market, the 
kinds of things that make it so that they're able to provide 
product to patients out there.
    You mentioned that there are counties in your State where 
there is only one provider. There are five States in this 
Nation where there's only one insurance provider. One-third of 
the counties in this country only have one insurance provider.
    We must as policymakers and as folks administering these 
programs, we must ask ourselves what's going wrong, where are 
the problems out there. That may work for the insurers in 
certain instances, it may work for government, but it doesn't 
work for patients. If we keep the patients at the center of all 
of this, we'll get to the right answer, and that's what I hope 
to do with each and every one of you.
    Senator Enzi. I appreciate that. I got to work for years 
with Senator Kennedy on biologics and biosimilars, and having 
the requirements for their biosimilarity and their 
changeability has needed some additional information. The FDA 
has issued guidance documents since the law passed, but they 
haven't set policy on interchangeability with the reference 
product. I was concerned that in 2017, having gone through 
nearly two full presidential terms, that just yesterday we 
finally got a draft of the FDA's interchangeability policy.
    I'll ask that question, since my time has expired, in 
writing. Thank you.
    Dr. Price. Thank you very much, Senator.
    The Chairman. Thank you, Senator Enzi.
    Senator Sanders.

                      Statement of Senator Sanders

    Senator Sanders. Thank you, Mr. Chairman.
    Congressman Price, thanks for being here, and thanks for 
the conversation we had the other day.
    Dr. Price. Thank you.
    Senator Sanders. Congressman, on May 7, 2015--let me begin 
by saying all of us know that we have come through a very 
unusual election process. President-elect Trump received almost 
3 million votes less than Secretary Clinton, but he won the 
electoral college. He's going to be inaugurated this week. He 
won a number of States by rather slim margins.
    During the course of his campaign, Mr. Trump said over and 
over again that he would not cut Social Security, not cut 
Medicare, not cut Medicaid. Let me read some quotes.
    On May 7, 2015, Mr. Trump tweeted, ``I was the first and 
only potential GOP candidate to state there would be no cuts to 
Social Security, Medicare and Medicaid.''
    On April 18, 2015, he said,

          ``Every Republican wants to do a big number on Social 
        Security, they want to do it on Medicare, they want to 
        do it on Medicaid, and we can't do that, and it's not 
        fair to the people that have been paying in for years, 
        and now all of a sudden they want to be cut.''

    August 10, 2015, Mr. Trump said,

          ``I will save Medicare, Medicaid, and Social Security 
        without cuts. We have to do it. People have been paying 
        in for years and now many of these candidates want to 
        cut it.''

    March 29, 2016, Trump said,

          ``You know, Paul Ryan wants to knock out Social 
        Security, knock it down, way down. He wants to knock 
        Medicare way down. Frankly--well, two things. No. 1, 
        you're going to lose the election if you're going to do 
        that. I'm not going to cut it, and I'm not going to 
        raise ages, and I'm not going to do all of the things 
        they want to do. They want to really cut it, and they 
        want to cut it very substantially, the Republicans, and 
        I'm not going to do that.''

    On and on and on.
    The point being, this is not something he said in passing. 
I think it is likely he won the election because millions of 
working-class people and senior citizens heard him say he was 
not going to cut Social Security, Medicare and Medicaid.
    Congressman Price, a very simple question: Is the 
President-elect, Mr. Trump, going to keep his word to the 
American people and not cut Social Security, Medicare and 
Medicaid, or did he lie to the American people?
    Dr. Price. I have--I haven't had extensive discussions with 
him about the comments that he made, but I have no reason to 
believe that he's changed his position.
    Senator Sanders. All right. You are telling us that, to the 
best of your knowledge, Mr. Trump will not cut Social Security, 
Medicare and Medicaid.
    Dr. Price. As I say, I have no reason to believe that that 
position has changed.
    Senator Sanders. Congressman Price, quoting Mr. Trump 
again, or at least paraphrasing him, just last week he said, 
roughly speaking, pharma is getting away with murder. Do you 
recall that tweet?
    Dr. Price. I do.
    Senator Sanders. OK. There are many of us on this side of 
the aisle who are working on legislation that would do at least 
two things: No. 1, end the absurdity of the American people 
being ripped off by the pharmaceutical industry, who 2 years 
ago the top five companies made $50 billion in profits, while 
one out of five Americans can't afford to fill the 
prescriptions their doctors write.
    Will you and will the President-elect join us in 
legislation we are working on which, No. 1, will allow Medicare 
to negotiate prices with the drug companies and lower prices; 
and No. 2, allow the American people to bring in less expensive 
medicine from Canada and other countries? Is that something you 
will work with us on?
    Dr. Price. The issue of drug pricing and drug costs is one 
of great concern to all Americans. I think it's important to 
appreciate that in a couple of areas we've had great success, 
whether it's in the generic area where the costs are 
significantly less than they have been, and in----
    Senator Sanders. You are aware, sir--I don't mean to 
interrupt. I don't have a lot of time. We are paying by far the 
highest prices in the world for prescription drugs. You don't 
disagree with that, do you?
    Do you disagree with that?
    Dr. Price. I think that's the case. I'd have to look at the 
statistics.
    Senator Sanders. It is, it is.
    Dr. Price. I think there are a lot of reasons for that, and 
if we get to the root cause of what that is, then I think we 
can actually solve the bipartisan----
    Senator Sanders. Well, one of the root causes is that every 
other major country on earth negotiates drug prices with the 
pharmaceutical industry. In our country, the drug companies can 
raise their prices. Today they could double their prices. There 
is no law to prevent them from doing that.
    Will you work with us so that Medicare negotiates prices 
with the pharmaceutical industry?
    Dr. Price. You have my commitment to work with you and 
others to make certain that the drug pricing is reasonable and 
that individuals across this land have access to the 
medications that they need.
    Senator Sanders. It wasn't quite the answer to the question 
that I asked.
    Congressman Price, the United States of America is the only 
major country on earth that does not guarantee health care to 
all people as a right. Canada does it. Every major country in 
Europe does it. Do you believe that health care is a right of 
all Americans, whether they're rich or they're poor? Should 
people, because they are Americans, be able to go to the doctor 
when they need to, be able to go into a hospital, because they 
are Americans?
    Dr. Price. Yes. We're a compassionate society----
    Senator Sanders. No, we are not a compassionate society. In 
terms of our relationship to poor and working people, our 
record is worse than virtually any other country on earth. We 
have the highest rate of childhood poverty of any other major 
country on earth, and half of our senior older workers have 
nothing set aside for retirement. I don't think compared to 
other countries we are particularly compassionate.
    My question is, in Canada, in other countries, all people 
have the right to get health care. Do you believe we should 
move in that direction?
    Dr. Price. If you want to talk about other countries' 
health care systems, there are consequences to the decisions 
that they've made, just as there are consequences to the 
decisions that we made. I believe, and I look forward to 
working with you to make sure that every single American has 
access to the highest quality care and coverage that is 
possible.
    Senator Sanders. ``Has access to'' does not mean that they 
are guaranteed health care. I have access to buying a $10 
million home. I don't have the money to do that.
    Dr. Price. That's why we believe it's appropriate to put in 
place a system that gives every person the financial 
feasibility to be able to purchase the coverage that they want 
for themselves and for their family, again not what the 
government forces them to buy.
    Senator Sanders. Yes, but if they don't have any--well, 
it's a longer story. Thank you very much.
    Dr. Price. Thank you.
    The Chairman. Thank you, Senator Sanders.
    Senator Hatch.

                       Statement of Senator Hatch

    Senator Hatch. Well, thank you, Mr. Chairman.
    Welcome to the committee. Having worked with you over the 
years, I found you to be always very, very knowledgeable----
    Dr. Price. Thank you.
    Senator Hatch [continuing]. Very up front, very 
straightforward, very honest, and somebody who really 
understands the health care system of this country. You're just 
perfectly situated to be able to help turn it around and get it 
so it works. We hear a lot from the other side about how bad 
the system is and so forth, and I'm going to tell you I don't 
think it's very good myself, and we've got to work on it and 
get it done right. Boy, I'd sure like to have you right there 
helping to get it done, because you're one of the really 
premiere people in this whole Congress and in the world, as a 
matter of fact, understanding what needs to be done, and yet 
recognizing the problems of getting it done.
    Dr. Price, some of my colleagues have criticized you for 
your health-related stock holdings while serving in the House. 
Not only do House rules not prohibit members from trading 
stocks but it is also not an uncommon practice for Members of 
Congress. In fact, there are members on this committee, as I 
understand it, who have traded individual health stocks while 
serving on this committee. This appears to be nothing more than 
a hypocritical attack on your good character, and I personally 
resent it because you have always disclosed.
    Let me just say this. Can you confirm that you have always 
followed the law related to trading in stocks while serving as 
a Member of Congress?
    Dr. Price. Thank you, sir. Everything that we have done has 
been above board, transparent, ethical and legal. As you know, 
and the members of this committee know, there's an organization 
that's called the Office of Government Ethics that looks at 
all--for every Cabinet nominee, looks at all of the 
possessions, all the holdings and the like, and makes a 
recommendation as to what that Cabinet member must do in order 
to make certain that there's no conflict of interest. The 
Office of Government Ethics has looked at our holdings and 
given advice about what would need to be done in terms of 
divesting from certain stock holdings to make certain that 
there's no conflict of interest. We have read those and agreed 
to those, signed those. That document is online for everybody 
to see so that everybody is absolutely certain that there will 
be no conflict of interest whatsoever.
    Senator Hatch. Well, thank you. And you followed their 
advice?
    Dr. Price. Absolutely.
    Senator Hatch. Well, Dr. Price, the collapse of Obamacare 
has exacerbated our Nation's health care problems. Too 
frequently my colleagues and I have seen European idealism 
strangle functional insurance design with cost-prohibitive 
measures. Despite these failed reforms, I don't think we can 
lose sight of the broader health system that is at risk. For 
example, rare disease patients do not have access to life-
saving treatments because policies that have stemmed from 
Obamacare prevent investments in innovative therapies that can 
cure and save lives. This is an issue that I'm deeply 
passionate about.
    Dr. Price, what steps do you believe will improve the 
pipeline for rare disease therapies to bring treatments and 
cures to patients in desperate need of hope?
    Dr. Price. The Orphan Drug Act, which passed I think 30 
years ago or so----
    Senator Hatch. That was my first bill, by the way.
    Dr. Price. It really has revolutionized the ability to 
treat rare diseases. What it did was make the United States the 
leader in coming forward with treatments for rare diseases. I 
think that there are things that we can do in terms of patent 
protection, in terms of liability, in terms of incentivization 
resources to be able to encourage the discovery of cures for 
rare diseases.
    Senator Hatch. We have a lot more drugs coming through, 
even some blockbuster drugs that came because of that little 
bill.
    Dr. Price. Yes.
    Senator Hatch. We just put some incentives in effect, and 
all of a sudden there's an explosion in orphan drugs for 
populations of less than 200,000. It's a pretty important 
little bill.
    Dr. Price. One of the successful ones.
    Senator Hatch. It didn't cost a lot of money, but it was a 
Republican bill.
    Dr. Price. Yes, one of the success stories truly for public 
policy in the country.
    Senator Hatch. All right. Dr. Price, one of the central 
duties of the HHS Secretary is to be diligent and thoughtful 
when considering if Federal regulation is necessary in 
assessing whether the regulations impede research, development, 
and innovation. Over the years the regulatory infrastructure 
guiding dietary supplements has changed dramatically. Do you 
recognize the importance of dietary supplements in helping 
Americans reach and maintain healthy lifestyles?
    Dr. Price. Absolutely.
    Senator Hatch. Will you commit to me and other members of 
the committee to work to ensure appropriate regulation and 
implementation of the Dietary Supplement Health and Education 
Act so that we can protect public health while assuring 
consumers continued access to safe products?
    Dr. Price. This is one of those areas where it's incredibly 
important to gain the information that you referred to, to 
gather the individuals that know the most about this area, 
whether it's consumers, whether it's those providing the 
product to market, to make certain that there are protections 
for unadulterated products. It's absolutely vital that we get 
this right.
    Senator Hatch. Well, I'll tell you this, I have to commend 
Donald Trump for picking you.
    Dr. Price. Thank you.
    Senator Hatch. You are clearly one of the premiere people 
in all of Congress who understands the problems of health care, 
and you have the professional background that I don't know if 
any other Member of Congress can match to help solve the 
problems that we have. We've got a real messy situation here, 
and Obamacare has not really helped. Do you think Obamacare has 
helped?
    Dr. Price. I think some of the things that have occurred 
with the passage of the ACA have improved certain areas. The 
coverage has certainly improved. The consequences of that, that 
many people, as I mentioned before, have coverage but they 
don't have care. There are so many things about just the 
decisionmaking process, who decides about our health care. 
Should it be the Federal Government, or should it be patients 
and families and doctors? We certainly believe the latter as 
opposed to the former.
    Senator Hatch. I take it you believe that getting health 
care closer to the people is a far better thing than everybody 
pontificating from Washington, DC.
    Dr. Price. I think the more involvement that patients and 
families and doctors can have in medical decisions, the higher 
quality care we'll have.
    Senator Hatch. In my earlier life--one of the things I did 
was--I was a medical liability defense lawyer, defending 
doctors, hospitals, nurses, health care providers, et cetera. 
What do you think we should do about medical liability?
    Dr. Price. This is really a difficult challenge because 
it's not just the malpractice rates that doctors or hospitals 
pay, but it's the practice of defensive medicine, which are the 
things that physicians do that don't hurt anybody but there are 
tests and procedures and examinations that aren't necessarily 
needed to either make a diagnosis or to treat patients.
    Senator Hatch. But show up in their history.
    Dr. Price. It shows up in their history so that if they're 
called into a court of law they can say to the judge and the 
jury I don't know what you wanted me to do because I did 
everything, when in fact everything is rarely necessary to 
either treat or to diagnose the patient.
    If we look at it in that light and try to focus on 
decreasing the practice of defensive medicine to the benefit of 
patients, then I think we can get to the right answer, and 
there are some exciting opportunities out there that have been 
bipartisan in the past.
    Senator Hatch. Well, thank you, sir. I think you're a great 
nomination.
    Dr. Price. Thank you.
    The Chairman. Thank you, Senator Hatch.
    Senator Casey.

                       Statement of Senator Casey

    Senator Casey. Thank you, Mr. Chairman.
    Representative Price, we're grateful you're here, and 
thanks for the visit to our office.
    Dr. Price. Thank you.
    Senator Casey. I wanted to highlight something we probably 
don't spend enough time highlighting or talking about, and 
that's the full protections of what was known as the original 
bill, the Patient Protection and Affordable Care Act. We've had 
a lot of shorthand terminology since then. I know you and I 
have a basic disagreement; I think it's important to be candid 
about that.
    I think what a lot of people have forgotten about is that--
and the Chairman had a chart earlier that outlined the 
categories of Americans that have health insurance by virtue of 
various programs, or I think the number he had on the poster 
about the number of Americans in the employer-sponsored 
coverage category I think was 178 million people. That's a lot 
of folks with coverage, who had coverage before. Most of them 
had coverage before the legislation and after, meaning they 
were paying their premiums and had coverage. They didn't have 
protections that only came with the passage of the legislation.
    We know that somewhere between 11 and 12 million people 
have purchased health insurance through the individual 
marketplace. I want to ask you a couple of questions about 
those basic protections that are now law that were not law 
before.
    I think you'd agree with me, and you know from your 
practice that you meet just remarkably inspiring people in your 
work, and once in a while here in the Senate we do as well, 
probably don't take enough time to have those opportunities. 
One of the people I met in the lead-up to the legislation 
passing was Stacey Ridder. She was from Manheim, PA. She didn't 
have a personal challenge. It was the challenge faced by her 
two daughters. They were 4 years old, Madeline and Hana. As 
Stacey said about her daughters, she said that they would be at 
that time, before the passage of the bill, punished and 
rejected because they had the misfortune of developing cancer 
as a child. Her basic problem was the caps on treatment.
    The first question I'd ask you in terms of your work as 
Secretary of Health and Human Services, should you be 
confirmed, will you commit to maintaining the protections that 
ensure that no child, no child is denied insurance coverage 
because of pre-existing conditions?
    Dr. Price. Pediatric cancer is one of those things that is 
remarkably challenging. I remember when I was in my residency 
and did a rotation on the pediatric orthopedic ward, and so 
many of those children had cancer. Before I began that rotation 
I almost dreaded going to that month because I was worried 
about just the severity of the challenges I would meet.
    I'll tell you, it was one of the most uplifting months I 
spent in medical school, and that was because the children were 
so uplifting.
    So, absolutely, we need to make certain that every single 
child has access to the kind of coverage that they need and the 
care that they need, and there are a number of ways to do that, 
and I look forward to working with you to make that happen.
    Senator Casey. I heard the word ``yes'' there.
    Second, and it's really hard to believe that we even have 
to ask a question about this next topic, which is victims of 
domestic violence. It was the State of the law prior to the 
passage of the legislation that victims of domestic violence 
were considered Americans who had a pre-existing condition. 
It's still the law in some States that they are not protected. 
Question No. 2 is will you commit to maintaining the 
protections that ensure that victims of domestic violence will 
not be discriminated against when purchasing health insurance? 
Yes or no?
    Dr. Price. I think it's absolutely vital that victims of 
domestic violence and others, anybody--we need a system in 
place that ensures that individuals are either not priced out 
of the market because they get a bad diagnosis or not eligible 
or able to purchase coverage that works for them because of 
their diagnosis.
    Senator Casey. I have limits--I don't want to interrupt. I 
don't want to get hung up on ``priced out of the market.'' What 
I'm asking for is an ironclad guarantee that that circumstance, 
that horrific circumstance will never be a bar to coverage, 
treatment, or care.
    Dr. Price. It certainly shouldn't be. As you well know, I 
think if I'm fortunate to be confirmed, that's an 
administrative role and it's a policy decision that the 
legislators would----
    Senator Casey. I think we can agree on that.
    No. 3, will you maintain the commitment and the protections 
that prohibit discrimination in health insurance on the basis 
of health status or disability? Yes or no?
    Dr. Price. Again, I think it's absolutely imperative that 
we have a system in place that works for patients, and anybody 
not being able to gain access to the coverage that they want or 
need is not a system that works for patients.
    Senator Casey. I'll followup with more questions. What I'm 
getting at here is that we had a state of the law before 
passage of the ACA where individuals like that, whether a child 
had a pre-existing condition, even if their parents were paying 
premiums for years, an insurance company could literally say, 
``Sorry, you have a pre-existing condition, so you can't get 
coverage.'' Women were discriminated against because they were 
women, just a remarkable stain on America that we allowed that 
to happen.
    My concern, though, now is not just a series of concerns 
about what you have proposed as a member of the House and what 
you could do as Secretary, but I just heard earlier that the 
three areas that will be of focus in whatever replacement plan 
there is--and I'm anxious to see it--would be--and I wrote them 
down. I think Chairman Alexander wanted to take off the table--
and that's a good thing--Medicare. I heard that there will be 
three targets--that's my word, of course--the individual 
market, Medicaid, and employer-sponsored coverage.
    I hope if employer-sponsored coverage is a subject of 
change, that we'll ensure all those protections that are in 
place right now, and that's why I'm asking those questions. 
I'll followup more in writing or if we get another round.
    Mr. Chairman, put me on record as incorporating by 
reference everything Ranking Member Murray said about questions 
and an additional round. Thank you.
    Dr. Price. Thank you, Senator.
    The Chairman. Thank you, Senator Casey. Duly noted, and I 
appreciate your using your 7 minutes to ask questions.
    Senator Isakson has deferred to Senator Paul..

                       Statement of Senator Paul

    Senator Paul. As a fellow physician, and as a fellow 
physician who did so much at Grady, congratulations. I wish 
everybody on the committee could come to Grady and see what 
it's like to work in one of our Nation's biggest charity 
hospitals, often doing work that is just incredible--gunshot 
wounds, compound fractures of the femur, you name it. I 
remember being there as a student and then as an intern. We 
used to always calculate how many hours and divide by our 
income and say, ``Boy, we wish we could get minimum wage.''
    I think it is important that we get somebody with that kind 
of clear reasoning and critical skills to be in charge of our 
government, both knowing about the medical aspect as well as 
the public policy aspect.
    I think what I regret about this kind of hearing and what I 
think a lot of people in America regret is the vitriol and the 
rancor and the partisanship that should go into something that 
we should--we kind of all want the same things, and to question 
your motives I think is insulting. To question whether you're 
honest is insulting.
    The whole question of--and I guess this would be my first 
question to you--did you go into public service to enrich 
yourself or for public service?
    Dr. Price. I have a passion for public service and a 
passion for people, and that's what guided our decision that 
some might think was a foolish decision for both of us.
    Senator Paul. Did you take a pay cut to go into public 
service?
    Dr. Price. I didn't consider the remuneration for public 
service.
    Senator Paul. Right, but I'm guessing it would have been a 
pay cut.
    The motives as to what we should do--I think we aren't 
separated that much on our motives. I think we all want the 
most amount of insurance for people at the least amount of 
cost. We want people to get access to health care.
    What are your motives? What are your goals? What should we 
do with the health care system? Do you want more people to be 
insured? Do you want more people to have health care, or do you 
think we disagree on just how we do it and not necessarily the 
motives?
    Dr. Price. As I tried to lay out earlier, and I know time 
is short for everybody, but the principles that I think are 
absolutely imperative for the health care system is that it's 
one that's affordable for everybody, one that provides the 
access to health care and coverage for everybody, one that is 
of the highest quality, that is responsive to patients--the 
system isn't any good if it's not responding to patients--one 
that incentivizes innovation because it's the innovation that 
drives the high quality health care, and then one that ensures 
choices are made and preserved by patients. Patients ought to 
be the ones choosing who is treating them where, when, and the 
like.
    Senator Paul. You, and us by extension, Republicans by 
extension, have been accused of having no replacement ideas, no 
ideas for how to fix the system. Approximately how many bills 
do you have that could be regarded as replacement bills or ways 
to improve the health insurance system and our health care?
    Dr. Price. We had one large term bill since March of early 
2009, and then beyond that tens of pieces of legislation to 
address the health care issue.
    Senator Paul. It's also been insinuated that America is 
this horrible, rotten place, that we don't have compassion, and 
then I guess by extension the physicians don't. When you worked 
as an emergency room physician, or you worked as a physician, 
did you always agree as part of your engagement with a hospital 
to treat all comers regardless of whether they had an ability 
to pay?
    Dr. Price. It's one of the things that we pride ourselves 
upon, and that is that anybody that showed up in need of care 
was provided that care, and that was true not only in our 
residency but in our private orthopedic practice as well.
    Senator Paul. It's interesting that those who say we have 
no compassion extoll the virtues of socialism, and you look at 
a country like Venezuela, with great resources and an utter 
disaster where people can't eat, evolving into violence, I 
think it is important that we do have a debate in our country 
between socialism and communism and America and capitalism.
    One of the things that's extraordinary about our country is 
that just 2 years ago, in 2014, we gave away $400 billion, 
privately, not the government, individually through churches 
and through charities. We're an incredibly compassionate 
society, and I think often this was misplaced in the wonky 
numbers, this number and that number within health care, how 
much we do help each other. Not only do we help each other in 
our country; I'll bet you half the physicians in my community 
in Bowling Green were going on international trips and have 
done international charity work, and all that is lost in saying 
that we're this heartless, terrible country, and I would just 
argue the opposite.
    I think the greatness of our country and the greatness of 
the compassion of our country, we give away more than the gross 
domestic product of most of these socialized countries around 
the world. I think it is important.
    With regard to replacement, a couple of things. There are 
some big, broad ideas that I think would insure more people. 
One is the idea of legalizing the sale of all types of 
insurance. Under Obamacare, we made it illegal to sell certain 
types of inexpensive insurance. Do you think we could insure 
more people and help some of the people who actually don't get 
insurance under Obamacare to get insurance if we would legalize 
the sale of more types of insurance?
    Dr. Price. I think choices, as I mentioned, is absolutely 
vital. I know that if we have as a principle and as a goal 
having patients have those choices, then I believe that 
patients will select the kind of coverage that they want. The 
choices that ought to be available to them are a full array of 
opportunities.
    Senator Paul. Do you think health savings accounts will 
help also some people that are not helped currently?
    Dr. Price. I think health savings accounts and high-
deductible catastrophic coverage are things that make a whole 
lot of sense for many individuals. We ought not force anybody 
to do anything. It ought to be a voluntary choice, but they 
ought to have the choice to be able to select them.
    Senator Paul. One of the things you've had different 
legislation on and I'm a big supporter of is allowing 
individuals to join together in groups to buy insurance. Do you 
think this has the possibility of what Senator Alexander talked 
about, the millions of people in the individual market? I have 
great sympathy for that. I was a small physician with four 
employees, and if one employee were to get sick, it could be 
devastating not only to them but also to the economics of 
keeping them employed.
    Letting us join together into pools, where instead of me 
buying insurance as one of four people, I could buy it in a big 
group, maybe 100,000 people, maybe a million people. Currently 
the law kind of prevents that, but you had some bills for 
expanding that, and I'm a big fan of that. Could you mention 
some of the association-held plans and how that might help some 
people to get insurance who don't have insurance currently?
    Dr. Price. Association health plans are one of those 
entities that would allow individuals who are economically 
aligned in some way to be able to purchase coverage together 
even though they don't necessarily work together or in the same 
group. Individual health pools, which I think is one of the 
secrets to being able to solve the individual and small group 
market conundrum that we find ourselves in, would allow anybody 
to pool with anybody else solely for the purpose of purchasing 
health coverage.
    It's not a new idea. The model for it is actually the Blue 
Shield plan that existed decades ago that allowed people to 
pool their resources together for major medical coverage for 
hospitalization, and it just makes a lot of sense. It allows 
insurance to work the way it's supposed to work, which is to 
spread the risk, and then anybody's adverse health status 
doesn't drive up the cost for them or anybody else because the 
pool is large enough.
    The Chairman. Thank you, Senator Paul.
    Senator Franken.

                      Statement of Senator Franken

    Senator Franken. I'll tell you how we could get a really 
big risk pool. It would be called Medicare for everyone. That 
would be the biggest risk pool.
    Dr. Price, it was nice meeting you the other day.
    Dr. Price. Yes, it was good.
    Senator Franken. Did you enjoy meeting me?
    [Laughter.]
    Dr. Price. I did, I did. I enjoyed our discussion about our 
gray hair.
    Senator Franken. Dr. Price, what is the leading cause of 
preventable death in the United States?
    Dr. Price. I'll defer to you. You've obviously got it on 
the page in front of you.
    Senator Franken. I actually knew this before I put it on 
the page. It's smoking.
    Dr. Price. That hits home. I lost my dad, who was a Lucky 
Strikes smoker from World War II, to emphysema. He prided 
himself on the fact that he never smoked a cigarette with a 
filter for years and years, and it was an incredible tragedy.
    Senator Franken. I lost my dad, too.
    As a physician, you may know--I guess you didn't--that 
smoking kills approximately 480,000 Americans each year and 
totals $170 billion each year in health care costs. Yet, 
between 1993 and 2012, you were a shareholder of tobacco, of 
big tobacco companies, meaning that you personally benefited 
from tobacco sales. Meanwhile, you voted against landmark 
legislation in 2009 that gave the FDA the authority to regulate 
tobacco.
    Congressman Price, you're a physician, which means you took 
the Hippocratic Oath, a pledge to do no harm. How do you square 
reaping personal financial gain from the sale of an addictive 
product that kills millions of Americans every decade with also 
voting against measures to reduce the death toll inflicted by 
tobacco?
    Dr. Price. Well, it's an interesting question, Senator, and 
it's a curious observation. I have no idea what stocks I held 
in the 1990s or the 2000s, or even now. All of these decisions 
for all of us, I suspect, are made through mutual funds and 
through pension plans. I would bet--well, I won't bet here. I 
would suspect that in your pension plan, that there are 
components of that that are held that may have something to do 
at some time in your history with tobacco.
    Senator Franken. I find it very hard to believe that you 
did not know that you had tobacco stocks. I find it a little 
hard to believe that in the questions about your stock 
portfolio you said you didn't know things. Just over the last 4 
years you traded more than $300,000 in health-related stocks, 
while at the same time sponsoring and advocating legislation 
that could affect the performance of those stocks.
    We talked a little bit about the Zimmer Biomet. Your 
broker--you say you didn't know this--bought it on March 17, 
2016. You did introduce a bill later, a week later, on March 
23, 2016. You say that you did not know then that you had this 
stock. It was to delay a Federal rule that would have reduced 
the profitability of the company's--to delay a rule that would 
hurt the company.
    What I don't understand is once you found out that your 
broker bought it, you kept the stock. You purchased this 
$50,000 to $100,000 worth of stock in a biomedical company 
called Innate Immuno. We talked about it a little bit. It's the 
single largest purchase in the past 3 years, in a private deal 
that was not made available to the public, and I find it 
absolutely amazing that you responded that you did not know 
that you got a discounted price. That is absolutely amazing, 
because we discussed this.
    Dr. Price. By definition, I believe that's the nature of a 
private placement offering. What I said to you and what I've 
said to others is that I paid exactly the same price as 
everybody else. I disclosed it----
    Senator Franken. It was a private offering that only went 
to about 20 people, including, Representative, your colleague 
Chris Collins, his chief of staff, and a prominent D.C. 
lobbyist, and you reported $50,000 to $100,000 in profits on 
this purchase. It really begs credulity, sir, when you say you 
did not know that you got a discount on this. This was a 
private offering to a very small number. When you have the 
chairman of the Budget Committee, when you have a Congressman 
and his chief of staff, these sound like sweetheart deals, and 
I think our job in this body and in Congress and in government 
is to avoid the appearance of conflict. And, boy, you have not 
done that.
    I want to talk just about your latest plan, Empowering 
Patients First Act. Some of it is detailed in this article from 
the New England Journal of Medicine. It's called ``Care for the 
Vulnerable vs. Cash for the Powerful, Trump's Pick for HHS.'' 
I'll just read a random paragraph.

          ``Price's record demonstrates less concern for the 
        sick, the poor, and the health of the public, and much 
        greater concern for the economic well-being of their 
        physician caregivers.''

    I would commend this to every member of this committee 
before making a vote, because what your plan does is--one of 
the things, it gives a tax credit to Americans to buy health 
insurance. It's no different for someone who is poor or someone 
who makes $20,000, $30,000, to Bill Gates. It is an incredibly 
regressive system.
    You have talked about ending--you guys want to end the 
expansion of Medicaid. That has people in Minnesota scared out 
of their minds.
    Look, I've heard a lot that Obamacare has been a disaster. 
First of all, you have to admit that it's bent the cost curve, 
that the cost of health care in this country has grown less 
than it did in the previous 10 years. It's also covered 20 
million more people, but forget them.
    In 2008, I would go around the State of Minnesota and in 
every VFW hall, in every cafe, I would see a bulletin board 
where it would have a Burger Bash or a Spaghetti Dinner for 
someone who had gone bankrupt because they had gone through 
their annual cap or their lifetime cap. I am very frightened 
about what you are going to do, and so are millions of 
Americans. Frankly, I know that you do things that help the 
physician groups. You've put in provisions that would prevent 
these findings by efficiency and innovation boards that would 
have to be cleared by physician groups.
    I see you as someone who is there for the doctor and that 
this is a cover for--this is not going to create access for all 
Americans, what you talked about, the Empowering Patients First 
Act. This is going to unravel something that has given a lot of 
Americans peace of mind, knowing that their kids can stay on 
their health care until they're 26, knowing that if they have a 
pre-existing condition, that won't stop them from getting care. 
That's what this hearing should be about. You're a smart man--
--
    The Chairman. Senator, you're a minute over.
    Senator Franken. OK. In my second round, I will be a minute 
short.
    The Chairman. Sure.
    Senator Franken. Thanks.
    The Chairman. You may be here by yourself.
    Senator Murray. I'll be here with him.
    Senator Franken. You know, the Benghazi hearing was 11 
hours. That's all I'm saying.
    The Chairman. Thank you, Senator Franken.
    Senator Isakson.
    Senator Isakson. Congressman Price, since that question 
ended with him not having any time to give you a chance to 
respond to it, do you have any response to Senator Franken?
    Dr. Price. Yes. I would just say that this is one of the 
things that makes it difficult to reach a solution here in 
Washington. The concerns that were expressed by the Senator are 
valid concerns. The conclusions that he drew on the policies 
that I've promoted and will continue to promote are absolutely 
incorrect.
    We all share a concern for the American people and how we 
best make certain that they have access to the highest quality 
care that the world knows. I hope--and I understand why he's 
doing it. I mean, it's a political activity. I understand that. 
I hope that we're able to work together, if I'm given the 
privilege of leading and serving as the Secretary of Health and 
Human Services, to truly solve these difficult challenges that 
we have in our Nation.
    Senator Isakson. Congressman Price, isn't it true that by 
the date of May 15 of every year since you've served in 
Congress, you've had to make full disclosure of everything you 
own, everything your wife owns, what it's worth, when it was 
acquired, and what it was sold for?
    Dr. Price. Every single year we do a yearly financial 
disclosure, and the House requires a monthly periodic 
transaction form that updates if there's any significant 
change.
    Senator Isakson. Isn't it true that every transaction 
that's been referred to and questions of you are available to 
the public and on the record of the Senate Ethics Committee and 
the House Ethics Committee?
    Dr. Price. Absolutely, and they remain so today.
    Senator Isakson. These are not discovered things that were 
hidden. They were, in fact, facts that we require you to 
disclose every year?
    Dr. Price. In fact, there isn't a single bit of information 
that's out here that I didn't reveal to the public in a 
transparent process.
    Senator Isakson. Isn't it true that transparency is the 
antiseptic that creates an environment where there is no 
corruption?
    Dr. Price. Sunshine cures disease, that's exactly right.
    Senator Isakson. Isn't it correct that you have worked 
throughout your career in the Georgia Senate, the U.S. 
Congress, and I'm sure you will as the Secretary of HHS, to 
make sure there is always transparency?
    Dr. Price. Absolutely. It's a hallmark and a key, 
especially in the area of health care, and in the services that 
HHS provides.
    Senator Isakson. Is it not true that you love your country, 
you love your job, and if you had the opportunity to be 
Secretary of Health and Human Services you'll do everything you 
can so there's never any appearance of any conflict of interest 
whatsoever?
    Dr. Price. Without a doubt, and that's why I mentioned the 
Office of Government Ethics and the work, the diligence that 
they do to look at everybody's holdings and assets who are 
scheduled to potentially serve in the Cabinet, and then they 
make a recommendation, a very specific recommendation that's 
also available to be seen online, and we have agreed to every 
single recommendation that they made to divest of whatever 
holdings we have that might even give the appearance of a 
possible conflict.
    Senator Isakson. Mr. Chairman, I yield back the balance of 
my time.
    The Chairman. Thank you, Senator Isakson.
    Senator Bennet.

                      Statement of Senator Bennet

    Senator Bennet. Thank you, Mr. Chairman, and thank you for 
the 7 minutes as well. I should tell you that I have never 
shown a knee, my knee, to any nominee before Dr. Price came to 
my office, but he gave me some free medical advice and I'm 
grateful for that.
    Dr. Price. How are you doing?
    Senator Bennet. Free health care. It's terrible, but I'll 
talk to you after it's over. It's not because of you.
    Dr. Price. I can't ask you, but I'm curious as to whether 
or not you got the MRI.
    Senator Bennet. Today at 10 o'clock, so I'll let you know.
    [Laughter.]
    Congressman, I enjoyed our conversation, and it's good to 
see you here. I know you've been chair of the House Budget 
Committee. I know you're a member of the Tea Party. You've been 
a strong advocate for balancing the budget, introducing a 
Balanced Budget for a Stronger America, it's called.
    What I've noticed is that after gaining control of the 
House, the Senate, and the White House, the first order of 
business for the Republican majority here has been to pass a 
budget resolution repealing the ACA, and this budget resolution 
specifically authorizes $9 trillion in additional debt over the 
next 10 years. It also rigs the bill in secret to block any 
point of order to the bill because that bill will increase the 
deficit.
    Let me read what my colleague--a smart guy who is here--
Senator Paul, what was duly highlighted in his floor speech on 
January 4. He said,

          ``The more things change, the more they seem to stay 
        the same. Republicans won the White House, Republicans 
        control the Senate, Republicans control the House, and 
        what will be the first order of business for the new 
        Republican majority? To pass a budget that never 
        balances, to pass a budget that will add $9.7 trillion 
        of new debt over 10 years.''

    This is a facsimile of his chart. ``Is that really what we 
campaigned on? ''
    The quote goes on. ``Why would we vote on a budget that 
adds $9.7 trillion to the debt? '' Because we're in a hurry. We 
can't be bothered. It's just numbers. I was told again and 
again swallow it, take it, they're just numbers, don't worry, 
it's not really a budget. Yet the legislation says it's a 
budget.

          ``So this is what Republicans are for. This is the 
        blueprint that the Republican Party says they're for, 
        $10 trillion worth of new debt. I'm not for it.''

    Said that honest man.
    Rand Paul is right. The repeal law overrides two separate 
budget provisions already passed by the Senate to prevent 
increasing the deficit by more than $10 billion, to increase 
the deficit more than $5 billion in years further down the 
road.
    I ask you, sir, are you aware that behind closed doors 
Republican leadership wrote into this bill that any replacement 
to the Affordable Care Act would be exempt from Senate rules 
that prohibit large increases to the deficit?
    Dr. Price. As you may know, Senator, I stepped aside as 
chairman of the Budget Committee at the beginning of this year, 
and so I wasn't involved in the writing of----
    Senator Bennet. You have been the Budget Committee chairman 
during the rise of the Tea Party. You're a member of the Tea 
Party caucus. You have said over and over again, as other 
people have, that the reason you've come to Washington is to 
reduce our deficit and reduce our debt. I assume you're very 
well aware of the vehicle that is being used to repeal the 
Affordable Care Act. This is not some small piece of 
legislation. This is the Republican budget.
    Dr. Price. Yes, I'm aware of the bill. Yes.
    Senator Bennet. Do you support a budget that increases the 
debt by $10 trillion?
    Dr. Price. What I support is an opportunity to use the 
reconciliation to address the real challenges in the Affordable 
Care Act and to make certain that we put into place at the same 
time a provision that allows us to move the health care system 
in a much better direction----
    Senator Bennet. Do you support the budget that was passed 
by the Senate Republicans to repeal the Affordable Care Act 
that adds $10 trillion of debt to the budget deficit?
    Dr. Price. The reconciliation bill is yet to come. I 
support the process that allows for and provides for the fiscal 
year 2017 reconciliation bill to come forward.
    Senator Bennet. Will you commit today that any replacement 
plan for the Affordable Care Act will not in any way contribute 
to our deficit or our debt?
    Dr. Price. I commit to working with you to make certain 
that that happens.
    Senator Bennet. Will you commit as a member of the Tea 
Party that no replacement for this dreadful Obamacare that 
allegedly created this deficit and debt will add to the deficit 
and debt? Will you commit to that? Can you tell the Tea Party 
you're not going to increase the deficit by repealing the 
Affordable Care Act?
    Dr. Price. There are a lot of contributions to the debt and 
to the deficit.
    Senator Bennet. Really?
    Dr. Price. As you know, Senator.
    Senator Bennet. That's true, and you and I talked about 
that briefly.
    Dr. Price. That's right.
    Senator Bennet. Are you going to allow the repeal of the 
health care bill to be one of those contributors to our deficit 
and to our debt? The CBO has said that repeal of the health 
care law could increase our deficit by up to $353 billion. 
That's what they've said. Rand Paul, Senator Paul, an honest 
man, has gone to the floor and said the first thing we're doing 
is passing a budget that increases it by $10 billion.
    What do you say to the Tea Party about that?
    Dr. Price. What I say to the congressional----
    Senator Bennet. Or more important, the people that live in 
Colorado?
    Dr. Price. What I say to folks in Colorado and across this 
land is that the Congressional Budget Office and the 
conclusions that they reached on that are in a silo. They're 
looking at it as if nothing else happened following the repeal 
of the Affordable Care Act. If you look at the whole 
constellation of things that will occur, I believe, in working 
with every Member of Congress, should I be given the privilege 
of serving as the Secretary, we will make certain that it 
addresses the health care challenges that exist out there that 
are very, very real, and we look forward to working with you 
and committing to working with you on being as fiscally 
responsible as we can possibly be, because the debt and the 
deficit is a real challenge.
    Senator Bennet. With respect, and I have a lot for you, 
with respect, that's what every politician says about the CBO. 
It says the numbers aren't true, and then we just run up the 
debt and run up the debt and run up the debt. Almost the entire 
theory of the case here, I think, from the Republican Party on 
this subject has been that the health care law has increased 
costs, that the health care law has increased our deficit, 
increased our debt, and I would hope that you could take a 
pledge today that would say that nothing that you would 
advocate for or would pass or have the President-elect sign 
into law, would add one dollar to our deficit or our debt.
    Dr. Price. Well, I certainly hope that's the case, and 
again I look forward to working with you to ensure that it is.
    Senator Bennet. Thank you.
    Mr. Chairman, I yield back my time.
    The Chairman. Thanks, Senator Bennet.
    Senator Collins.

                      Statement of Senator Collins

    Senator Collins. Thank you, Mr. Chairman.
    Dr. Price, welcome.
    Dr. Price. Thank you.
    Senator Collins. I, too, very much enjoyed our discussion 
on a wide range of health care issues in my office.
    Many of us have expressed concern about what would happen 
to the millions of Americans who are in the individual market 
of the ACA on the exchanges. There has been remarkably little 
debate on what would happen if Congress took no action with 
regard to the individual market.
    Could you give us your answer as far as what you would see 
happening to the individual market if we do nothing?
    Dr. Price. I appreciate that, and I appreciate the 
opportunity to come visit you. We had a wonderful conversation 
about many, many different areas.
    The American people know this. They appreciate that the 
individual and small group market, where many of the millions, 
as the Chairman pointed out, gain their coverage is breaking in 
many, many ways. We're in a downward spiral in being able to 
provide individuals any opportunity at all. One-third of the 
counties in this Nation have just one insurance provider. There 
are five States that have only one insurance provider. The 
premiums are going up for folks, the deductibles. I get calls 
almost weekly from my fellow former physicians who tell me that 
their patients are making decisions about not getting the kind 
of care that they need because they can't afford the 
deductible.
    If you're an individual out there making $30,000, $40,000, 
$50,000 a year, and your deductible is now $6,000, or $12,000 
for a family, which is not unusual on the exchange, you may 
have an insurance card, it may have a wonderful name of an 
insurance company on it, but you don't have any care because 
you can't afford the deductible. People are denying themselves 
the kind of care that they need, and those are the things we 
ought to be addressing. Again, I hope that in a bipartisan way 
we'll be able to do that.
    Senator Collins. Thank you. I think that's a very important 
point to clarify, that in the individual market we're seeing 
double-digit increases in premiums, higher deductibles, larger 
co-pays, and we're also seeing far fewer choices as more and 
more insurers give up and flee the market. The coops have 
failed dramatically. All 23 of them are in financial trouble. 
Only five are still operating.
    For us to say that everything is going well with Obamacare 
is just not accurate, and that's why I feel that we do need to 
fix the flaws of what is a well-intentioned but deeply 
problematic law.
    I want to clarify another issue on the ACA. There's been 
much debate on whether we should repeal the law with no 
replacement. I think most people reject that idea. As you said, 
we don't want to pull the rug out from under people who are 
relying on the insurance that has been provided through the 
ACA. Another group has advocated repeal with a 2- or 3-year 
delay. I think that approach also doesn't work because it 
creates great anxiety for consumers, and insurers would be 
unable to price their policies if they don't know what the 
rules are going to be.
    It's my understanding that your goal is to quickly pass a 
reform package that would provide access to affordable health 
insurance for all Americans with more choices than we have now. 
Is that accurate?
    Dr. Price. Absolutely. It is vital--we often talk also 
about the 20 million folks that still don't have any coverage 
out there. There are a lot of people that don't, and if we're 
responsible policymakers and administrators of policy, it's 
incumbent upon us to step back and say why is that? What's 
going on that's making that happen for those 20 million who 
don't have coverage in spite of all of these grand things that 
were done?
    I would suggest that it's because the structure of what was 
done actually makes it virtually impossible for many 
individuals to gain that kind of coverage. We, on the other 
hand--I believe it's important that we work together to put 
forward a system that actually allows, again, every single 
American to have the opportunity to purchase the kind of 
coverage that they think is best for themselves and for their 
families.
    Senator Collins. Your goal is actually to have more 
people----
    Dr. Price. Yes.
    Senator Collins. Thank you--covered by insurance.
    I have been baffled over the years by what CMS reimburses 
for and what it fails to reimburse for. Senator Jeanne Shaheen 
and I finally scored a victory of getting CMS to cover 
continuous glucose monitors for individuals with diabetes that 
have been covered by the vast majority of private insurers. 
When those individuals aged into Medicare, they lost that 
coverage. That made no sense whatsoever.
    What I'm finding now is that CMS frequently does not pay 
for services that help to keep people well. There is a large 
practice in my State that has a nurse or a medical assistant 
call individuals with diabetes once a week and check on their 
blood sugar levels, their adherence to their diets and exercise 
regimes, and it's had really positive results. Well, the irony 
is that if diabetes gets out of control and those individuals 
end up having to have amputations or go blind, CMS/Medicare 
will pay for that, but it won't pay for that phone call to 
check on the individual that's helping to control their 
diabetes and keep them well.
    Will you pledge to take a look at those kinds of policies 
and reevaluate what we do pay for?
    Dr. Price. Absolutely. It's imperative that we're 
constantly looking and determining whether or not we're getting 
the outcomes that we want and the processes are either helping 
or obstructing those outcomes.
    Senator Collins. And finally, I want to touch on biomedical 
research, which is a passion of mine. I founded both the 
Diabetes Caucus in 1997, and I also am the founder of the 
Alzheimer's Task Force in the Senate, which Senator Warner is 
the co-chair of.
    Alzheimer's has become our Nation's most expensive disease. 
It costs society $263 billion a year; $150 of that comes from 
Medicare and Medicaid. It's going to bankrupt those programs. 
It's devastating to families and the victims of the disease.
    Diabetes consumes one out of three Medicare dollars.
    If we invest in biomedical research, we have the 
possibility of not only improving lives for Americans and 
curing or coming up with effective treatments for devastating 
diseases, but also actually lowering health care costs. Do you 
support the increases for NIH that we have passed in the last 
year and are on track to pass this year as well?
    Dr. Price. NIH is a treasure for our country and the kinds 
of things that we should be doing to find cures for those 
diseases. One of the core avenues to be able to make that 
happen is through NIH, and I supported the increase.
    Senator Collins. Thank you. That goes along with your 
principle of innovation.
    Dr. Price. Absolutely.
    Senator Collins. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. We've been at this for about 2 hours. I'm 
going to suspend the operation for about 5 minutes, and then 
we'll go to Senator Whitehouse, just so we can take a little 
break.
    The committee is recessed for 5 minutes.
    [Recess.]
    The Chairman. The committee will come to order.
    Senator Whitehouse is next, followed by Senator Young.
    Senator Whitehouse.

                    Statement of Senator Whitehouse

    Senator Whitehouse. Thank you, Chairman.
    Let me ask, first, to put into the record a letter from our 
Governor in Rhode Island, which says that in Rhode Island,

          ``We have actually seen exchange premiums decrease in 
        2 out of the last 3 years, and that this has saved 
        consumers nearly $220 million since 2012.''

    The story on the Affordable Care Act in Rhode Island is 
actually quite a good one.
    The Chairman. We will put it in the record.
    [The information referred to may be found in Additional 
Materials.]
    Senator Whitehouse. I'd also like to put this little 
graphic into the record, which, to explain it briefly, the red 
line along the top is the CBO estimate of where our health care 
costs were going to go back when they were making that estimate 
in 2010; and then at this time, 2016, after the ACA was in 
place, they took a look at the actual experience up to that 
point and then they did a new projection going forward based on 
the Affordable Care Act, and just in the following 10 years, 
this green period, from 2016 to 2026, they're forecasting $2.9 
trillion in Federal health care savings that relate back to the 
Affordable Care Act. This is where that came in.
    We throw this thing out at our peril if you care about 
saving Medicare, the savings to which are a very significant 
part of this $2.9 trillion, and we throw it out right now, 
according to the Republican plan, with nothing to replace it.
    I described that over the weekend at home. It's like being 
asked to jump out of an airplane with no parachute but being 
told, ``Trust us, we'll build the parachute before you hit the 
ground.'' I'm the junior Senator to Jack Reed, who was an Army 
Ranger and actually did jump out of perfectly well-operating 
aircraft. He insisted not on just one parachute but two, a 
spare, and I think the American people are entitled to know 
what they're going to be offered as an alternative.
    There's been some conversation in this hearing about how 
there are Republican ideas floating around, and sure there are 
Republican ideas floating around, but there's no Republican 
bill, there's no Republican plan, there's no Republican 
proposal.
    Our cards are up on the table. It's Obamacare. You want to 
improve it? Make suggestions. We've always been open to that.
    On the other side of the table, there's nothing, and it's 
really hard to negotiate with nothing. I think the Republicans 
have a responsibility to put a plan together.
    We talked about that, Mr. Price, when you and I met in my 
office, and my recollection of our conversation is that you 
told me that you would want to keep letting people stay on 
their parents' policies until they're 26. Is that true?
    Dr. Price. I think that the insurance industry has included 
individuals up to the age of 26 on their parents' policies 
virtually across the board, and I don't see----
    Senator Whitehouse. And you would want to keep that?
    Dr. Price. I don't see any reason why that would change.
    Senator Whitehouse. You would want to keep, you told me, 
the doughnut hole closed to protect seniors against those 
pharmaceutical costs. Is that also true?
    Dr. Price. I think the discussion we had was about 
pharmaceutical costs and making certain we did all we could so 
that seniors were able to afford the drugs that they need.
    Senator Whitehouse. My recollection was more specific than 
that, that you did not want to reopen the doughnut hole for 
seniors. Are you saying now that you're going to consider 
reopening the doughnut hole for seniors?
    Dr. Price. No, that's not what I'm saying at all. I think 
that it's important--you know well that the reopening of the 
doughnut hole would be a legislative activity, not an 
administrative activity.
    Senator Whitehouse. You'll be the Secretary of Health and 
Human Services. You will be doing a lot of work to prepare this 
legislation and to do the technical work behind it for the 
Administration. Are you going to be proposing in that role 
something that reopens the doughnut hole? I've got a lot of 
seniors who want to hear about that, if that's your plan.
    Dr. Price. I'm not aware of any discussions to do that.
    Senator Whitehouse. OK. Then finally, my recollection of 
that meeting and my notes is that you told me you would not 
want to return to insurance company lifetime caps or insurance 
company denial of pre-existing conditions, or insurance 
companies going back and looking in the files for some little 
tiny discrepancy and then throwing somebody off their coverage 
when they come in with a significant claim. Is that true?
    Dr. Price. I think there are always ways that we can 
improve coverage, and those are areas that are existent right 
now, and I think the issues need to be continued.
    Senator Whitehouse. When, as, and if we ever get a 
Republican counter-proposal to Obamacare, you would expect to 
see those things in it?
    Dr. Price. I don't know whether they'd be in it or whether 
they would be silent on it. Again, that's a legislative 
question.
    Senator Whitehouse. You'd leave it in place.
    Dr. Price. It's a legislative question, not an 
administrative question.
    Senator Whitehouse. In one of your budgets you had a 
proposal that would allow States to throw what you called 
``able-bodied people'' off of Medicaid, unless they were 
working or looking for work or in job training. People with 
addiction, behavioral health, mental health issues, are they 
able-bodied in your definition?
    Dr. Price. Well, we weren't as specific as to what the 
definition was. The fact of the matter is----
    Senator Whitehouse. Well, you used words, so I'm asking you 
now, what did you mean when you said ``able-bodied'' in this 
provision?
    Dr. Price. The fact is that there are many, many 
individuals who have worked in this space for a long, long time 
who believe that providing for an opportunity for individuals 
who are able-bodied without children to seek or gain employment 
or to study to gain employment----
    Senator Whitehouse. What do you mean by ``able-bodied'' is 
the question. You just used that term again.
    Dr. Price. That's what would be defined in the regulation 
itself. I don't know the----
    Senator Whitehouse. You're using a term without any idea of 
how you would define it?
    Dr. Price. I think people have an understanding of what 
``able-bodied'' is. It doesn't have the kinds of things that 
you described, I believe.
    Senator Whitehouse. OK. That was the simple answer to my 
question. ``Able-bodied'' does not include people who have 
addiction, mental health and behavioral health issues.
    Dr. Price. Again, it's the work that would be done to 
develop the regulation.
    Senator Whitehouse. I'm asking as you used the word. I'm 
not asking about in some future universe. As you used that term 
in your budget.
    Dr. Price. I think individuals that demonstrated that they 
were, in fact, having challenges that would preclude them from 
being able to seek work or employment or education or the like, 
that they ought to be attended to.
    Senator Whitehouse. I'm a fan of and think they do good 
work at the American Academy of Pediatrics. I'm a fan of and 
think they do good work at the American Lung Association. I'm a 
fan of and think they do good work at the American Public 
Health Association. All of those groups and many others have 
gone very clearly on record that climate change presents 
significant health issues. They signed a declaration on climate 
change and health which stated that the science is clear that 
this is happening.
    You, on the other hand, have said that the carbon pollution 
standards of the Obama administration ``go against all common 
sense,'' and that ``there are errors and obfuscation in the 
allegedly settled science of global warming.'' I'll pursue this 
with you through questions for the record because my time has 
expired, but if you could give a brief answer, because it 
appears to every scientific organization in the country, all 
the legitimate major ones, and to really every American 
university that this actually is pretty darn settled science, 
and that the only people who disagree with it are people who 
have vast financial interests in preventing any work getting 
done.
    It looks to me like, in making this statement, you have 
taken the side of those vast special interests against actually 
settled science. If we can't trust you on science that is as 
settled as climate science, how can we trust you on public 
health science issues, where there's a big special interest on 
the other side?
    Dr. Price. I don't agree with the premise or the 
insinuation, but I will say that the climate is obviously 
changing. It's continuously changing. The question from a 
scientific standpoint is what effect does human behavior and 
human activity have on that, and what we can do to mitigate 
that. I believe that that's a question that needs to be studied 
and evaluated and get the best minds available to make certain 
that we're doing the right thing from a public policy 
standpoint.
    Senator Whitehouse. Start by finding the university that 
thinks the way you do, No. 1.
    The Chairman. OK, we're running out of time.
    Thank you, Senator Whitehouse.
    Senator Young, I believe, is next. I don't see him.
    Senator Roberts.

                      Statement of Senator Roberts

    Senator Roberts. Well, thank you, Mr. Chairman. Thank you 
for holding this anger management hearing.
    [Laughter.]
    I truly hope my colleagues feel better, at least for 1 day, 
after purging themselves of their concern, their frustration, 
and their anger.
    I would like to note that I asked the technician here who 
is running the sound system, the audio system is working. I 
thought maybe Senator Bennet didn't know that. He reminded me 
of my Marine DI back in the good old days where the DI would 
shout, ``I can't hear you.'' I just thought I'd bring that up, 
the audio system is working.
    Take care of yourselves.
    Dr. Price, congratulations on your nomination. Thank you 
for being here today.
    Dr. Price. Thank you.
    Senator Roberts. As many of our colleagues have already 
noted, you will play a most important role, if confirmed, in 
helping to stabilize the individual market while Congress does 
repeal the law and repair the damage it has caused, and enacts 
the reforms we believe, I believe will put our health care 
system back on track.
    My home State of Kansas, we have three insurance carriers 
left, and we feel very fortunate we have three, with each 
individual only having access to two of those, and our premiums 
rose this past year over 30 percent. Down the road it's going 
to be more difficult if we don't do something.
    There's no doubt with regard to uncertainty and angst among 
consumers. I think it's important to make clear that even if 
Congress and the incoming administration were to do nothing, 
let it go, just like in Frozen, let it go, amending or 
repealing parts of the Affordable Care Act, the law is not 
working, and we have to do something to meet that obligation. 
The prices are unaffordable, markets nearly non-existent, with 
few or no options in several States and counties. We are not as 
rural as Wyoming, but we are rural in my State of Kansas.
    I have a concern back in the day when we sat on this 
committee and reviewed the first version of the Affordable Care 
Act. I don't know where that mark is today. It's sitting on a 
shelf somewhere. We went day and night, and day and night, and 
day and night, and I was worried about something I called the 
rationers. I'm talking about the Independent Payment Advisory 
Board, IPAB, the Centers for Medicare and Medicaid Innovation, 
CMMI--that's a wonderful acronym--and the new coverage 
authorities given to the U.S. Preventive Services Task Force, 
and I would also mention the Patient Center Outcomes Research 
Institute, which is called CORI.
    Not many people are aware of these. I even went to the 
floor of the Senate and had four people riding a horse and 
called them the Four Horses of Regulatory Apocalypse. I'm 
worried about it and the provisions which could interrupt the 
doctor/patient relationship, allowing the government to dictate 
what coverage you can receive.
    Can you share some concerns that you have with regards to 
these, what I would call four rationers, with all due respect 
to what they're trying to do, which was with good intent?
    Dr. Price. I appreciate that, Senator. I think that it's 
imperative that as we move forward, that we recognize again 
that the patient ought to be at the center of this, and 
anything that gets in the way of the patient and their families 
and physicians making the decisions about what kind of health 
care they desire, we ought not go down that road.
    For example, the CMMI, the Center for Medicare and Medicaid 
Innovation, I'm a strong, as I mentioned, a strong proponent 
and advocate for innovation, but I've seen in certain instances 
what's coming out of CMMI is a desire to require certain kinds 
of treatment for certain disease entities that may or may not 
be in the best interest of the patient. Because it carries the 
full force of the Federal Government and the payment for those 
services, it means that we're answering the question of who 
decides about what kind of care patients receive by saying that 
the answer to that ought to be Washington, DC, and I simply 
reject that that's where those decisions ought to be made.
    Senator Roberts. I appreciate that answer.
    I have the privilege of being a member of this committee, 
the Finance Committee, especially being the chairman of the 
always powerful Senate Agriculture Committee. I'm particularly 
interested in HHS and, more importantly, FDA's work on food and 
nutrition policy. During the previous administration the FDA 
issued numerous regulations with limited or delayed guidance 
and unrealistic compliance dates. This was the case with the 
implementation of the Food Safety Modernization Act, called 
FSMA, and more recently with the Nutrition Facts Panel 
revision.
    I know we all share the goal of a safe food supply and 
availability of accurate information for consumers, but I'm 
concerned the Administration has not clearly or consistently 
communicated with the food and agriculture industry regarding 
new or changing requirements. Will you commit to working with 
the Secretary of Agriculture and other relevant agencies, not 
to mention the committee I serve on, and similar in the House, 
that your department is issuing science-based guidance and 
taking into consideration other regulatory burdens when 
establishing compliance and dates and other regulatory actions?
    Dr. Price. Yes. I believe that's not only imperative, but 
the science that's relied upon ought to be transparent and 
available to the public so that people can see exactly what was 
the basis for the decisions that were being made.
    Senator Roberts. Under the previous administration, we have 
seen increased activity and regulatory action on nutrition 
policies such as issuing voluntary guidance, yet the same 
administration continued to request additional resources from 
Congress to comply with statutory requirements under the Food 
Safety Modernization Act. I'm concerned that the Administration 
did not prioritize FDA's mission to protect our Nation's food 
supply, instead focusing on nutrition policies.
    If confirmed, can you discuss how you will focus on the 
core FDA duties such as implementing the law the Congress 
passed rather than agenda-driven nutrition policy guidelines?
    Dr. Price. This is really important, Senator, and if I'm 
confirmed and given the privilege of leading, I would work 
specifically with the FDA commissioner to make certain that we 
are relying on science, that it's science that is guiding the 
decisions that we're making, and again that the transparency is 
available for folks so that they can see what kinds of 
decisions are made and how they're being made.
    In addition to working with policymakers, you know best 
what's going on in your State and how it's being affected by 
the rules and regulations that are coming down from Washington 
in so many areas, but certainly in the agricultural arena. We 
ought to be having a dialog with every single individual who 
has an interest to make certain that we're addressing the needs 
appropriately.
    Senator Roberts. I thank you for your response.
    Thank you, Mr. Chairman.
    The Chairman. Thank you, Senator Roberts.
    Senator Baldwin.

                      Statement of Senator Baldwin

    Senator Baldwin. Thank you, Mr. Chairman.
    Welcome, Congressman.
    Dr. Price. Thank you.
    Senator Baldwin. You've already been asked about your 
investments in medical device companies, pharmaceutical 
companies, as part of the prior questioning. For the record, 
have you also received campaign contributions over the years 
from political action committees associated with many of these 
same companies?
    Dr. Price. I don't know, but I assume so, just as many of 
us do.
    Senator Baldwin. OK. In terms of what the American people 
want to know, of course, when you get reviewed for potential 
conflicts of interest and the procedures with the Office of 
Government Ethics, is that in your role you're fighting for 
them and not biased toward the powerful companies that you've 
invested in and that have invested in you. You've taken some 
questions on that, but let me just followup a little bit to ask 
first, do you think the increases in drug prices that we're 
seeing right now, for example the sixfold increase in the cost 
of an EpiPen, is a problem right now for Americans?
    Dr. Price. Oh, as I mentioned, I think there are certain 
areas where drug pricing increases seem to have little basis in 
rational findings. I do think, however, as I mentioned again, I 
think I did, that it's important to appreciate that we've done 
some good things in drug pricing, whether it's in the generic 
arena where the prices have been held down significantly, or in 
the Part D area where prices have----
    Senator Baldwin. Since my time is limited, let me continue 
down this track. You've been asked already, but Trump supports 
Medicare drug negotiation. Will you work to repeal the 
prohibition on Medicare negotiating for better drug prices on 
behalf of the American people if confirmed for this position?
    Dr. Price. Well, I understand that if I'm confirmed and if 
I have the privilege of serving as Secretary, that the boss 
that I have will be the President of the United States.
    Senator Baldwin. Will you work to repeal the prohibition on 
Medicare negotiating drug prices?
    Dr. Price. Following discussion and being informed by the 
individuals within the Department and working with the 
President, and then carrying out his wishes.
    Senator Baldwin. Is that a yes, or was that a no?
    Dr. Price. It depends on that activity. I would hope that--
--
    Senator Baldwin. He stated his position, very recently, in 
fact, that he supports price negotiation so that people on 
Medicare can have the benefit of that. Is that something that 
you would press Congress to do? In other words, repeal the 
prohibition on that negotiation?
    Dr. Price. I think we need to find solutions to the 
challenges of folks gaining access to needed medication, and it 
may be that one of those is changing the way the negotiations--
as you know, the negotiations right now occur for seniors with 
the PBM, with the privacy benefit managers.
    Senator Baldwin. Since I have limited time and you haven't 
said yes or no, you just talked about transparency, would you 
support drug price transparency mandating that any drug company 
that wants to increase prices on their drugs release public 
information on how they set their prices? Because so many of 
these appear to be without justification, as you just 
mentioned.
    Dr. Price. Yes, I think there's a lot of merit in 
transparency in every area, and certainly in this area. I'd 
look forward to exploring, if I'm confirmed, with you the ways 
to be able to make that work.
    Senator Baldwin. Thank you.
    I wanted to go back to the first round of questioning with 
the Chairman, who showed a chart. It seemed like what was 
implicit in the back and forth was that the act of repealing 
the Affordable Care Act would only impact perhaps a very small 
part of the health care industry. You talked about 6 percent 
being covered on the individual market.
    The protections, like coverage on your parents' health 
insurance until you're 26 and mandating that people be covered 
even if they have a pre-existing health condition, things like 
eliminating caps that led so many into medical bankruptcy, 
those apply across the health care system. Repeal in no way 
limits us to a conversation just about a small percentage of 
our population. This is about serious impacts for all of 
America. Would you agree?
    Dr. Price. I think that the discussion about what our 
health policy for financing and delivery of health care to the 
American people is a very, very broad subject, and we need to 
discuss----
    Senator Baldwin. If you repeal the Affordable Care Act, the 
impact is not narrowly confined to Medicaid and the individual 
market. It has impact on every American. Medicare, too. Think 
of accountable care organizations where you're driving so much 
of our innovation. That's not confined to the individual 
market. In fact, it impacts Medicare very, very significantly.
    Let me give one example. We, in our office, when you 
visited--and thank you for your visit--we talked about the 
opioid epidemic. One of the significant issues is access to 
treatment to overcome an addiction. If the Affordable Care Act 
is repealed, there will no longer be a mandate for substance 
abuse treatment being covered. Is that something you agree 
with?
    Dr. Price. Look, the opioid epidemic is rampant and is 
harming families and communities all across this Nation.
    Senator Baldwin. Would you assure that substance abuse 
treatment would be covered under a replacement plan that you 
would propose to the Congress?
    Dr. Price. I think it's absolutely vital that substance 
abuse and other kinds of things are able to be treated.
    Senator Baldwin. You would keep that protection of the 
Affordable Care Act?
    Dr. Price. That's a legislative decision, but I look 
forward to working with you to make certain that we're ensuring 
that individuals are able to get the care they need.
    Senator Baldwin. Then on 26-year-olds' coverage, I want to 
make sure I heard the exchange because it sounded to me like 
you're saying you think insurers are just going to continue to 
do it, so there's no need for there to be an actual mandate 
saying they must. Mind you, with 5.7 million young people 
between the ages of 18 and 26 on their parents' health 
insurance, that's 5.7 million people who aren't in the 
individual market because they're in their first job after high 
school that doesn't have health insurance or in school without 
it. Is it just a wink and a promise, or do you support having 
in law a mandate that 18- to 25-year-olds be able to stay on 
their parents' health insurance?
    Dr. Price. As I say, I think it's been baked into the 
insurance programs that are out there right now. What I 
absolutely am committed to----
    Senator Baldwin. They could change their mind at any time.
    Dr. Price. What I'm absolutely committed to is making 
certain that every single American has access to the kind of 
coverage that they want and has the financial feasibility to be 
able to purchase that coverage.
    The Chairman. Thank you, Senator Baldwin.
    Senator Young.

                       Statement of Senator Young

    Senator Young. Dr. Price, good to see you here today.
    Dr. Price. Thank you.
    Senator Young. I've enjoyed our service together over the 
last 6 years in the House of Representatives, particularly the 
4 years we spent on the Ways and Means Committee. I had an 
opportunity not just to get to know you personally there but to 
observe your quite impressive skill set, your depth of 
knowledge in the area of health care and health policy, your 
commitment, more importantly, to seeking alternative 
perspectives, to trying to identify where bipartisan consensus 
could be realized, and ultimately forging consensus around some 
viable solutions.
    The one that I find most notable is your success on the 
sustainable growth rate, which is something Members of this 
committee are familiar with, but it's a blunt instrument that 
was in place to control health care costs, and without your 
leadership over on the House side I don't think we could have 
moved toward a more value-based purchasing model.
    Dr. Price. Thank you.
    Senator Young. These are skill sets that will serve you 
well over at Health and Human Services, no doubt.
    One area of the Affordable Care Act, speaking of 
bipartisanship, that members of my party, of your party have 
periodically and quite vocally indicated their desire to repeal 
from time to time has been the Center for Medicare and Medicaid 
Innovation, and that's perhaps on account of the one-size-fits-
all prescriptive and mandatory demonstrations that occurred in 
recent years, and you have already indicated that you oppose 
the mandatory nature of demonstration projects.
    I strongly believe, for one, that there's great value in 
innovating and experimenting across all layers of health care. 
Further, I think CMMI is and can continue to be a helpful 
laboratory for health care experimentation with respect to 
delivery models, payment models, and so forth, for Medicare, 
for Medicaid, for the Children's Health Insurance Program, and 
perhaps other areas--save taxpayer money, provide greater 
value, see what doesn't work, scale up what does work. For me 
it's common sense. This is the way scientists operate; they 
start with experiments and then they evaluate, and then they 
scale up.
    I'd like to know your intentions, if you have strong 
convictions in this area. Do you intend to keep this innovation 
center or perhaps develop a new one, a variant of CMMI? Speak 
to this, please.
    Dr. Price. Well, I appreciate that. I am, as I mentioned, a 
strong advocate and supporter of innovation at every single 
level. It's only through innovation that we expand the 
possibilities, especially in the area of health care, for 
increasing the quality of care. I'm a strong proponent of 
innovation.
    The CMMI entity I believe has great possibility and great 
promise to be able to do things that will allow us to find ways 
in which we can change the payment model, ways in which we're 
treating disease and the like that will improve to the 
patient's benefit, and I strongly support that. I have 
adamantly opposed the mandatory nature with which CMMI has 
approached some specific problems, and let me mention two in 
particular, if I may.
    The first is the Comprehensive Joint Replacement, the CJR, 
program, which identified from CMMI 67 or 68 geographic areas 
where if you were a patient and you received a lower extremity 
joint replacement for a variety of problems, then it was 
dictated to your doctor what kind of prosthesis, what kind of 
surgical procedure your doctor could do for you, regardless of 
what's in your best interest. They may be aligned, but they may 
not be aligned. If they're not aligned, then your physician is 
incumbent upon doing what the government says to do.
    The other area that I think was even more egregious was 
covering 75 percent of the Nation in the Medicare Part B drug 
demonstration model, in fact not a demonstration model if it's 
75 percent of the country, and that would stipulate what kind 
of medications your physician could use in an inpatient setting 
in a mandatory way. The problem that I've got with that is that 
really is an experiment. It's a demonstration to see whether or 
not it works. In every single experiment, health care 
experiment or medical experiment or scientific experiment that 
deals with people, real people, we demand, we require that 
there be informed consent for the patient to participate in 
that experiment. You say to the patient we're trying this to 
see if it works better, we'd love to have you join us, we think 
it may inure to your benefit and the benefit of more 
individuals across this land, but if you don't want to do that, 
you don't have to.
    The Federal Government doesn't do that. They require 
individuals to participate, and oftentimes, I suspect most 
often, the patient doesn't even know that it's an experiment 
that's going on.
    If either of these models were put in a small area, a pilot 
project somewhere and we saw that, in fact, they worked, then, 
as you say, you scale them up.
    Senator Young. I thank you for the fulsome response and the 
rationale behind how you've arrived at that position. I look 
forward to working with you to advance the next model of CMMI, 
whatever exactly it might look like.
    I'd be remiss in my remaining 90 seconds if I didn't 
mention Indiana's what we call Healthy Indiana Plan 2.0. Our 
Vice President-elect Pence showed a lot of leadership here, 
worked with our incoming CMS administrator, Seema Verma, to 
develop a model for Medicaid which is unique to the State of 
Indiana. It encourages recipients of Medicare dollars to get 
some ownership over their health. It uses private market 
insurance concepts to prepare Hoosiers for more self-
sufficiency. I happen to believe that it will be replicated in 
other States if we can accommodate that as we continue to work 
on new health care legislation.
    HIP 2.0 is an important proof of concept that Medicaid can 
be more efficient than a one-size-fits-all approach, and I just 
need some assurance from you that your lone star will be State 
flexibility and innovation in the Medicaid space so we can 
continue to accommodate plans like HIP 2.0 as opposed to a one-
size-fits-all approach.
    Dr. Price. I think you're absolutely right. The Medicaid 
program is one where the States know best how to care for, in 
the best way, their Medicaid population, and the greatest 
amount of flexibility that we can give for States to enact 
those kinds of programs. What Indiana has done is really a best 
practice for many other States to follow. I look forward to 
working with you.
    Senator Young. Likewise.
    The Chairman. Thank you, Senator Young.
    Senator Murphy.

                      Statement of Senator Murphy

    Senator Murphy. Thank you, Mr. Chairman.
    Good to see you again, Representative Price.
    Dr. Price. Thank you.
    Senator Murphy. I hope you can understand our frustration 
around trying to divine the nature of this replacement plan. We 
hear you and President Trump praise all of these aspects of the 
Affordable Care Act and lay out goals that sound eerily 
familiar to what we've been living with for the last 6 years. 
You've said that you don't want there to be a gap between the 
repeal and the replacement, that at least as many people will 
have coverage, with the goal of more people having coverage, 
sick people won't face discrimination, young adults will get to 
stay on their plans until age 26, and yet we don't get any 
specifics as to how that's going to occur. It seems as if you 
and the President-elect want to do everything the Affordable 
Care Act does but just do it in a totally different way.
    I'm going to kind of give up on trying to get at the 
specifics of this secret replacement plan and maybe ask you 
about metrics, about how we will measure whether what you 
propose as a replacement is meeting your benchmarks. For 
instance, the number of people covered, the cost of health care 
to individuals, the amount of money out-of-pocket that people 
have to pay. When you're at the end of your 4 years, how will 
you look back on this replacement plan to measure its success? 
To the extent you can give me specifics as to how you're going 
to measure the success of this replacement, I'd appreciate it.
    Dr. Price. Well, I thank you, and you identified some very 
specific areas that I think we need to be looking at from a 
metric standpoint. What is the cost? Is the out-of-pocket cost 
for individuals higher or lower than it was? Right now I would 
suggest that the cost is higher than it was when the program 
began for many of those individuals in the individual and small 
group market. They were promised that the premiums would come 
down. In fact, the premiums have gone up. They were promised 
that they would have access to their doctor. In fact, many of 
them have not had access to their doctor.
    Senator Murphy. I'm talking about from where we are today--
--
    Dr. Price. From where we are today, if you look at the 
things that many of us believe have been harmed by the 
Affordable Care Act, I hope that we're able to turn that around 
and decrease the out-of-pocket costs for individuals, increase 
choices for individuals, increase access to the doctors and the 
providers that the patients want, as opposed to what's happened 
over the past few years.
    Senator Murphy. Increase the number of people who have 
insurance.
    Dr. Price. Increase the--absolutely. As I mentioned, over 
here we still have 20 million individuals without coverage. I 
think as policymakers it's incumbent upon us to say what can we 
do to increase that coverage. The goal is to make certain that 
every single American has that access to coverage that they 
want for themselves and for their families.
    Senator Murphy. I'd just note that those are two different 
things, having coverage and having access to coverage, and I 
think we've gone around on that a number of times.
    I want to come back to this question of some of the 
conflict of interest issues that have been raised, and I raise 
them because I think there's a great concern on behalf of the 
American people that this whole administration is starting to 
look like a bit of a get-rich-quick scheme, that we have a 
president who won't divest himself from his businesses and 
could potentially get rich off of them, we had a Secretary of 
Education last night who has big investments in the education 
space, a Secretary of Labor who could gut worker protections 
and make a lot of money for his industry. I want to walk you 
through another set of facts, another timeline regarding some 
of your interactions with the health care industry and get your 
reaction to it.
    On March 8, 2016, earlier last year, CMS announced a 
demonstration project to lower Medicare reimbursements for Part 
D drugs. That would have decreased incentives for physicians to 
prescribe expensive brand-name medications, and drug companies 
that were affected by this immediately organized a resistance 
campaign. Two days later you announced your opposition to this 
demonstration project. One week later you invested as much as 
$90,000 in a total of six pharmaceutical companies--not five, 
not seven, six. All six, amazingly, made drugs that would have 
been impacted by this demonstration project. There are a lot of 
drug companies that wouldn't have been affected, but you didn't 
invest in any of those. You invested in six specific companies 
that would be harmed by the demonstration project.
    You submitted financial disclosures indicating that you 
knew that you owned these stocks, and then 2 weeks after that 
you became the leader in the U.S. Congress in opposition to 
this demonstration project. You read a letter with 242 Members 
of Congress opposing that demo. I've read those letters. I know 
that's not easy. It takes a lot of work to get 242 people to 
sign on.
    Dr. Price. That's good staff work, Senator.
    Senator Murphy. Then, guess what? Within 2 weeks of you 
taking the lead on opposition to that demonstration project, 
the stock prices for four of those six companies went up. You 
didn't have to buy those stocks, knowing that you were going to 
take a leadership role in the effort to inflate their value.
    As the American public takes a look at that sequence of 
events, tell me how it can possibly be OK that you were 
championing positions on health care issues that have the 
effect of increasing your own personal wealth. That's a damning 
timeline, Representative Price.
    Dr. Price. Well, my opposition to having the Federal 
Government dictate what drugs are available to patients is 
longstanding. It goes back years and years. The fact of the 
matter is--I don't know whether you were here before--but the 
fact of the matter is that I didn't know any of those trades 
were being made. I have a directed account broker, a directed 
account. All of those trades were made without my knowledge, as 
is set up, and the individuals on this panel have the same 
kinds of accounts.
    The reason that you know about them is because I 
appropriately reported them in an above-board and ethical and 
appropriate manner, as required by the House of 
Representatives.
    Senator Murphy. Do you direct your broker around ethical 
guidelines? Do you tell him, for instance, not to invest in 
companies that are directly connected to your advocacy? Because 
it seems like a great deal as a broker. He can just sit back, 
take a look at the positions that you're taking----
    Dr. Price. She, she can sit back.
    Senator Murphy. She can sit back in this case, look at the 
legislative positions you're taking, and invest in companies 
that she thinks are going to increase in value based on your 
legislative activities, and you can claim separation from that 
because you didn't have a conversation.
    Dr. Price. Well, that's a nefarious arrangement that I'm 
really astounded by. The fact of the matter is that I have had 
no conversations with my broker about any political activity at 
all, other than her congratulating me on my election.
    Senator Murphy. Why wouldn't you at least tell her, ``Hey, 
listen, stay clear of any companies that are directly affected 
by my legislative work?''
    Dr. Price. Because the agreement that we have is that she 
provide a diversified portfolio, which is actually what 
virtually every one of you have in your investment 
opportunities, and make certain that in order to protect one's 
assets, that there's a diversified arrangement for purchase of 
stocks. I knew nothing about those purchases.
    Senator Murphy. You couldn't have a diversified portfolio 
while staying clear of the six companies that were directly 
affected by your work on that issue?
    Dr. Price. Well, as I said, I didn't have any knowledge of 
those purchases.
    Senator Murphy. OK.
    Thank you, Mr. Chairman.
    The Chairman. Thanks, Senator Murphy.
    Senator Murkowski.

                     Statement of Senator Murkowski

    Senator Murkowski. Thank you, Mr. Chairman.
    There is added benefit to being one of the last in the 
chain here to ask questions, because it certainly gives me a 
clear idea of where you're coming from, Congressman, on some of 
these issues that are so important to us.
    We haven't had as much conversation about the rural aspects 
of health care which, of course, are very important to me. We 
had a chance last night to hear from the nominee for Education, 
and I pointed out to her, as I have pointed out to you, that 
Alaska is a little bit unique. Sometimes it's really unique, 
and the challenges that we face allow us to be somewhat 
innovative, but we need some flexibility in order to implement 
some of the innovations.
    I had a chance to sit with a group of Alaskans on Saturday 
in Anchorage. They were from the--everyone from the director of 
the Division of Insurance to our commissioner of Health and 
Social Services, our representative of the only provider on the 
individual market, representatives from small rural hospitals, 
doctors, representatives from the tribal health organizations. 
It was a good mix of individuals. Obviously, we got different 
views and opinions about where we go with this replacement of 
the ACA and what that would need to look like to help address 
the needs and issues in a very rural, very frontier, very high 
cost--the highest cost insurance, the highest cost health care 
costs. We're down to one provider on the individual market. 
We've got all the demographics that would tell you that this is 
a difficult place to be operating right now.
    We as a State moved forward with Medicaid expansion a 
couple of years ago. There's some 27,000 Alaskans that now have 
coverage that didn't see that before. There was also good 
discussion about making sure that we're able to retain the 
protections for Alaska Natives that we saw under the Indian 
Health Care Reorganization Act that came as part of the ACA.
    Recognizing that there are certain exemptions that were 
included as part of the ACA, exemptions for Medicaid cost-
sharing provisions, 100 percent Federal match for American 
Indians and Alaska Native Medicaid enrollees when they receive 
their care through an IHS facility, including the tribally 
operated facilities.
    Again, we have seen some very extraordinary collaboration 
that has gone on between our entities with our tribes, our 
tribal health organizations, that have allowed for increased 
efficiency, improved health access. A great deal of the 
discussion was focused on what will happen, what will happen to 
those who have gained access through Medicaid expansion, and 
what can we do to ensure that coverage options are provided for 
those in this new era of health care reform.
    A further question to that is should a block grant approach 
be considered. What efforts, then, would be made to ensure that 
this very unique trust responsibility for American Indians and 
Alaska Natives is continued to be fulfilled? These were 
concerns that were raised in this meeting, and folks had hoped 
that I'd have an opportunity to ask you publicly.
    Dr. Price. Yes. Thanks so much, Senator, I appreciate it. 
We had a wonderful discussion about Alaska, and I learned much 
about your State, your glorious State.
    The Medicaid system is one that is absolutely imperative 
and vital for members of our population who receive their care 
through the Medicaid program, and it's a Federal-State 
partnership, as you well know, and it's one that we absolutely 
must ensure that individuals don't fall through the cracks in 
whatever transition occurs.
    Whether it's retaining the same level of Medicaid 
participation or whether it's providing an option for something 
else that allows them coverage that suits their needs, we are 
committed and adamant that that coverage be able to be 
continued. They have our assurance that we will work with you 
to make certain that that happens.
    Senator Murkowski. What about the concerns that were 
expressed by the tribal health organizations that perhaps if 
there is a block grant approach that is utilized, that that 
could impact some of the assurances and the benefits that the 
tribal health organizations have seen?
    Dr. Price. Yes, and this is in its early stage, obviously, 
and it's a legislative decision that occurs. It's not a 
Department decision that occurs, a legislative decision. We 
would look forward to working with you to, again, ensure that 
individuals, especially in the Indian Health Service, which has 
had some real challenges, we need to make certain that the 
metrics, as was mentioned over here, the metrics that we're 
looking at are actually clinical correlated metrics, that we're 
looking at actually what makes a difference to the people 
receiving the care. It's one of those promises that we have to 
make certain that the Indian Health Service works, and I think 
we can do a lot better at that.
    Senator Murkowski. Well, I look forward to more 
conversation on that.
    Let me ask about some of the efforts that Alaska has made, 
I think relatively innovative, as we have attempted to 
stabilize our individual health care market. The State moved 
forward with some reforms that created a reinsurance program 
for high-cost, high-risk individuals. We've submitted a 1332 
State innovation waiver, and again all with the hope that we're 
going to be able to somehow provide for some level of 
stabilization. What sort of considerations to Federal support 
for high-risk pools or State-based reinsurance programs would 
you consider?
    Dr. Price. I think the whole array of opportunities that 
are available to again make sure that nobody falls through the 
cracks. The 1332 waiver program is one that's just beginning, 
but it's one that I think holds significant promise in making 
certain that we're able to ensure that things like reinsurance, 
things like high-risk pools make it so that individuals do not 
lose their opportunity to gain access to the highest quality 
care.
    Senator Murkowski. Good.
    Then finally, on our small rural hospitals, one of the 
concerns that I heard repeatedly was the level of regulatory 
burden that particularly our smaller rural hospitals are just 
feeling stifled by. In fact, some of the innovative things that 
one of our hospitals down on the peninsula is looking at 
advancing, they kind of feel that it's too risky right now to 
move forward with any level of innovation that they had hoped 
to take on because they're facing some of the regulatory 
burden, but also the uncertainty that they are in right now.
    You can do things administratively early on should you be 
confirmed to this position. Have you looked to what regulatory 
issues could be addressed early on that could help reduce some 
of the regulatory burden, particularly to some of these small 
rural hospitals?
    Dr. Price. Not specifically, Senator, but I share with you 
the concern that you have about the burden of regulatory 
guidelines and regulatory schemes that come out of Washington, 
DC, especially for the rural areas, and it's not just the 
hospital. It's the providers and the docs who are providing the 
care. Most of the folks in the rural areas tend not to have any 
margin at all to be able to cover the cost of this regulation, 
and I've heard from more than a few physicians and other 
providers who, because of the regulatory schemes that have come 
forward, have said they just can't do it anymore. They're 
having to close their doors, and the Indian Health Service is 
one of them. They're having real challenges in terms of being 
able to provide the services. When that happens, then those 
individuals have no care, that's unacceptable to me.
    Senator Murkowski. Thank you. I look forward to working 
with you on this. Thank you.
    The Chairman. Thank you, Senator Murkowski.
    I have remaining Senator Warren, Hassan, and Kaine on the 
Democratic side; Senator Scott, Cassidy, Burr, and Senator 
Isakson has 3 minutes remaining.
    Senator Warren.

                      Statement of Senator Warren

    Senator Warren. Thank you, Mr. Chairman.
    Congressman Price, more than 100 million Americans now 
receive their health care through Medicare and Medicaid 
programs. These are seniors, people with disabilities, middle-
class families who have parents in nursing homes, countless 
numbers of young children, and they all benefit from these 
programs.
    I want to understand the changes to Medicare and Medicaid 
that you have already proposed. The budget that you recently 
authored as chair of the House Budget Committee would have cut 
spending on Medicare by $449 billion over the next decade. Is 
that right?
    Dr. Price. I don't have the numbers right in front of me.
    Senator Warren. I have the numbers.
    Dr. Price. Well, then I assume you're correct.
    Senator Warren. All right. You said you'd cut Medicare by 
$449 billion. Your fiscal year 2017 budget proposal also would 
have cut Medicaid funding that goes to the State governments by 
more than $1 trillion. Is that correct?
    Dr. Price. I think, Senator, the metrics that we used for 
the success of these programs----
    Senator Warren. I'm just asking. That's an easy yes or no. 
Did you propose to cut $1 trillion from Medicaid?
    Dr. Price. What we believe is appropriate----
    Senator Warren. Do you want me to read you the number out 
of this?
    Dr. Price. I'm sure you're correct. What we believe is 
appropriate is to make certain that the individuals receiving 
the care are actually receiving the care.
    Senator Warren. I understand why you think you're right to 
cut it. I'm just asking the question, did you propose to cut 
more than $1 trillion out of Medicaid over the next 10 years?
    Dr. Price. You have the numbers before you.
    Senator Warren. Is that a yes?
    Dr. Price. You have the numbers before you.
    Senator Warren. I'll take it as a yes.
    I'm sure you're aware, during his campaign for president, 
President-elect Trump was very clear about his views on 
Medicare and Medicaid. As Senator Sanders has quoted 
extensively, President-elect Trump said I am not going to cut 
Medicare or Medicaid.
    When President-elect Trump said I am not going to cut 
Medicare or Medicaid, do you believe he was telling the truth?
    Dr. Price. I believe so, yes.
    Senator Warren. OK. Given your record of proposing massive 
cuts to these programs, along with several other members of 
this committee, I sent the President-elect a letter in December 
asking him to clarify his position, and he hasn't responded 
yet, so I was hoping you could clear this up. Can you guarantee 
to this committee that you will safeguard President-elect 
Trump's promise and while you are HHS Secretary you will not 
use your administrative authority to carry out a single dollar 
of cuts to Medicare or Medicaid eligibility or benefits?
    Dr. Price. What the question presumes is that money is the 
metric.
    Senator Warren. Yes, I am asking about money.
    Dr. Price. In my belief, from a scientific standpoint, if 
patients aren't receiving care even though we're providing the 
resources, then it doesn't work for patients.
    Senator Warren. I'm sorry to interrupt, but we're very 
limited on time. The metric is money, and the quote from the 
President-elect of the United States was not a long discourse 
on this. He said he would not cut dollars from this program, so 
that's the question I'm asking you.
    Can you assure this committee that you will not cut one 
dollar from either Medicare or Medicaid should you be confirmed 
to this position?
    Dr. Price. Senator, I believe that the metric ought to be 
the care that the patients are receiving.
    Senator Warren. I'll take that as a no?
    Dr. Price. It's that it's the wrong metric. We ought to be 
putting forth the resources----
    Senator Warren. I'm not asking you whether or not you think 
you have a better metric. I'm asking you a question about 
dollars. Yes or no?
    Dr. Price. What we ought to do is put forward the 
resources----
    Senator Warren. Congressman, these are really simple 
questions. Frankly, the millions of Americans who rely on 
Medicare and Medicaid today are not going to be very reassured 
by your notion that you have some metric other than the dollars 
that they need to provide these services. You might want to 
print out President-elect Trump's statement, ``I am not going 
to cut Medicare or Medicaid,'' and post that above your desk in 
your new office, because Americans will be watching to see if 
you follow through on that promise.
    I also would like to followup on Senator Franken's 
question. I think there was something there that didn't quite 
get answered. As you know, Congressman, the one goal of the 
Affordable Care Act was to push the health care industry to 
provide higher quality care at lower cost, and under the ACA 
Medicare was recently allowed to change the way that it pays 
hospitals for hip and knee replacements to something called a 
bundle, and that means Medicare pays a set price for the care 
associated with hip and knee replacement, and then the 
hospitals, not Congress, will decide the most effective 
implants, reduced second surgeries, how to better fight 
infections, how to spend their money to deliver better service 
at lower cost.
    I supported this change because the research shows that it 
really means you get better care at lower prices. I know the 
policy is controversial because it affects how hospitals are 
paid, which in turn affects how much money the manufacturers of 
these hip and knee replacements can make. One of the companies 
is the company raised by Senator Franken, and that is Zimmer 
Biomet. They're one of the world's leading manufacturers of 
hips and knees, and they make more money if they can charge 
higher prices and sell more of their products. The company 
knows this, and so do the stock analysts.
    On March 17, 2016, you purchased stock in Zimmer Biomet. 
Exactly 6 days after you bought the stock, on March 23, 2016, 
you introduced a bill in the House called the HIP Act that 
would require HHS Secretary to suspend regulations affecting 
the payment for hip and knee replacements. Is that correct?
    Dr. Price. I think the BPCI program--to which I think you 
referred--I'm a strong supporter of because it keeps the 
decisionmaking in the----
    Senator Warren. I'm not asking you about why you support 
it. I'm just asking did you buy the stock, and then did you 
introduce a bill that would be helpful to the companies you 
just bought stock in?
    Dr. Price. The stock was bought by a broker who was making 
those decisions. I wasn't making those decisions.
    Senator Warren. OK. You said you weren't making those 
decisions. Let me just make sure that I understand. These are 
your stock trades, though. They are listed under your name, 
right?
    Dr. Price. They're made on my behalf, yes.
    Senator Warren. OK. Was the stock purchased through an 
index fund?
    Dr. Price. I don't believe so.
    Senator Warren. Through a passively managed mutual fund?
    Dr. Price. No. It's a broker----
    Senator Warren. Through an actively managed mutual fund?
    Dr. Price. It's a broker-directed account.
    Senator Warren. Through a blind trust? Let's just be clear, 
this is not a stock broker, someone you paid to handle the 
paperwork. This is someone who buys stock at your direction. 
This is someone who buys and sells the stock you want them to 
buy and sell.
    Dr. Price. Not true.
    Senator Warren. When you found out that----
    Dr. Price. That's not true, Senator.
    Senator Warren. Because you decide not to tell them--wink, 
wink, nod, nod--and we're all just supposed to believe that?
    Dr. Price. It's what members of this committee, it's the 
manner in which this committee----
    Senator Warren. No, I'm not one of them.
    Dr. Price. I understand that, but it's important to 
appreciate that that's the case.
    Senator Warren. Let me just keep asking you about this. I 
want to understand, when you found out that your broker had 
made this trade without your knowledge, did you reprimand her?
    Dr. Price. What I did was comply----
    Senator Warren. When you found out that she made it, did 
you fire her? Did you sell the stock?
    Dr. Price. What I did was comply with the rules of the 
House in an ethical and legal and above-board manner----
    Senator Warren. I didn't ask about the rules of the House--
--
    Dr. Price [continuing]. And in a transparent way.
    Senator Warren. All right. Let's just stipulate----
    The Chairman. Your time has expired, Senator Warren.
    Senator Warren. I believe Senator Murkowski went over by 2 
minutes. Did I misread the clock here?
    The Chairman. By 2 minutes?
    Senator Warren. I think that's what it was, and I just 
burned another 15 seconds.
    The Chairman. Well, keep burning them and you'll be up to 2 
minutes.
    Senator Warren. OK.
    Your periodic transaction report notes that you were 
notified of this trade on April 4, 2016. Did you take 
additional actions after that date to advance your plan to help 
the company that you now own stock in?
    Dr. Price. I'm offended by the insinuation, Senator.
    Senator Warren. Well, let me just read what you did. You 
may be offended, but here's what you did. Congressional records 
show that after you were personally notified of this trade 
which you said you didn't know about in advance, that you added 
23 out of your bill's 24 co-sponsors; that also after you were 
notified of this stock transaction, you sent a letter to CMS 
calling on them to cease all current and future planned 
mandatory initiatives under the Center for Medicare and 
Medicaid Innovation; and just so there was no misunderstanding 
about who you were trying to help, you specifically mentioned 
hip and knee replacement.
    The Chairman. Your 2 minutes are up, Senator Warren. Thank 
you.
    Who's next? Senator Isakson has 3 minutes..
    Senator Isakson. I wanted to reclaim my remaining 3 minutes 
by just making a point. I respect everybody on this committee 
tremendously. I respect the nominee. It's very important for us 
to all understand that under the disclosure rules that we have 
and the way it operates, any of us could make the mistakes that 
are being alleged. I'm sure Senator Franken had no idea that he 
owned part of Phillip Morris when he made the statement he made 
about tobacco companies. He has a Wisdom Tree Equity Income 
Fund investment disclosed in his disclosure, which owns Phillip 
Morris. It's entirely possible for any of us to have somebody 
make an investment on our behalf and us not know where that 
money is invested because of the very way it works.
    I don't say that to in any way embarrass Mr. Franken but to 
make a point that any one of us who has mutual funds or 
investment managers, people who do that, it's entirely possible 
for us not to know, and to try and imply that somebody is 
obfuscating something or is otherwise denying something that's 
a fact is just not the fair thing to do, and I just wanted to 
make that fact.
    Senator Franken. This is different than mutual funds.
    Senator Isakson. It's an investment in Phillip Morris.
    Senator Warren. My question was about what do you do after 
you have notice?
    The Chairman. Senator Warren, your time has been 
generously--Senator McCain.
    I'm sorry; Senator Hassan.
    Senator Hassan. I'm happy to lead, but I think Senator 
Cassidy was next, and he just came back in.
    The Chairman. He did, but I was going back and forth. I'll 
be glad to--that's generous of you, but----
    Senator Hassan. Well, then, thank you..

                      Statement of Senator Hassan

    Senator Hassan. Congressman Price, thank you for being here 
this morning.
    Mr. Chairman and Ranking Member Murray, thank you for the 
opportunity to participate.
    As you and I discussed, Congressman, we share a concern for 
patients. My husband and I have two kids, and our adult son at 
times has had up to 10 doctors and a couple of dozen 
medications. The Hassan family knows the strengths and the 
weaknesses of our health care system very, very well.
    As Governor, I was pleased to work with members of both 
parties to build on the example that Senator Young talked about 
in Indiana to have a bipartisan New Hampshire-specific Medicaid 
expansion plan that's providing coverage now to over 50,000 
hard-working Granite Staters. I've seen the advantages of the 
Affordable Care Act and the flexibility that the Affordable 
Care Act gives States right up close, and I worked with a 
Republican legislature to pass it. It's that context that I 
bring to this series of questions.
    First of all, as we talked about, opioid overdose deaths 
have been on the rise for several years and have hit New 
Hampshire particularly hard. We have about the second highest 
rate of drug overdose deaths in the country.
    Under the Medicaid expansion program that I just talked 
about, made possible only by the Affordable Care Act, thousands 
of New Hampshire citizens are getting the opportunity to get 
treatment for substance use disorder, and I talked with one of 
them last week, a woman named Ashley who had had an addiction 
for almost a decade. Medicaid expansion gets passed under the 
Affordable Care Act. She got treatment, and she is now in 
recovery. After a year on Medicaid--which, by the way, we've 
done it in a particular way so that it's actually strengthened 
our insurance market in New Hampshire because more insurers 
came in as a result of the way we did Medicaid expansion--she 
is now working, and she just switched over to private insurance 
because she's got employer-
provided insurance.
    You have proposed repealing Medicaid expansion in the 
budget that you proposed. Yes or no, can you guarantee that you 
will make sure that Americans with substance use disorders who 
have gotten insurance through Medicaid expansion, just like 
Ashley did, will not lose their health insurance?
    Dr. Price. I think I enjoyed our conversation as well and 
the subjects that we delved into. I think that it's absolutely 
imperative that we as a nation make certain that every single 
individual have access to the kind of mental health and the 
kind of substance abuse challenges that they have.
    Senator Hassan. Is that a guarantee that you will find 
funds to actually provide the treatment?
    Dr. Price. It's a guarantee that I'm committed to making 
certain that we address that need which is so vital and 
important across this land.
    Senator Hassan. I'm just concerned that you're not going to 
be able to back up that guarantee if the Affordable Care Act is 
repealed, and I'm concerned about the impact that will have on 
States and people like Ashley who need the coverage.
    I also just want to talk about whether you agree that 
people with health insurance should have some very basic 
essential coverage, like checkups at the doctor's office. Do 
you think health insurance coverage should provide for that?
    Dr. Price. I think that, as we mentioned, with choices for 
patients to be able to select the kind of coverage that they 
want instead of somebody else deciding for them, it's so very 
important that we remember that the center of all of these 
discussions is a patient, and the patient knows best what he or 
she needs, and that's the imperative that I would bring to you, 
that I'm committed to making sure that patients have the 
choices available, and if they choose to select that kind of 
coverage, then it ought to be available for them.
    Senator Hassan. Insurance companies don't offer it at all, 
like substance use disorder. An essential benefit under the 
Affordable Care Act now requires private insurers to cover 
substance misuse treatment. They didn't used to do that. They 
also have stopped covering a lot of things until the law 
requires them to.
    So, yes or no, the Empowering Patients First Act would 
repeal the requirements that insurance companies cover 
substance use disorders. Do you think that's still a good 
thing?
    Dr. Price. I think that what's a good thing, again, is to 
keep the patient at the center of all of this and make certain 
that we're providing the kind of options and choices for 
patients so that they can address their clinical and medical 
needs.
    Senator Hassan. See, here's the thing: If insurance 
companies never offer it, they don't have the option. They can 
pay good premium dollars, but it's just not offered, and the 
Affordable Care Act said to the insurance industry, here are 
some basic things you've got to offer so that when a patient 
needs care, the coverage is there and they can get the care. 
Your answer and the Empowering Patients Act would take that 
assurance away. It's not an option if insurance doesn't cover 
it.
    Dr. Price. The good news for you is that as an 
administrator, if I'm privileged to serve in that capacity, 
that I follow the policies that are adopted by the Congress of 
the United States and signed by the President. We look forward 
to working with you to make certain that those kinds of things 
are covered and those patients receive the care that they need.
    Senator Hassan. With respect, there has been lots of 
opportunity to make certain that those things happened, and 
until the Affordable Care Act was passed, it never happened, 
and people didn't get the care they needed. Because of that, a 
lot of people like the Ashleys of the world weren't getting 
better, weren't getting treatment. Providers don't exist to 
treat people if they can't figure out how they're going to get 
reimbursed.
    The most important thing that our treatment community said 
in New Hampshire was Medicaid expansion through the Affordable 
Care Act made it possible for them to stand up a higher volume 
of treatment.
    I look forward to working with you too, but I'm concerned 
about your unwillingness to commit to making sure that 
insurance companies cover these essential benefits.
    I am almost out of time and we haven't even touched on the 
issue of women's health, which is obviously of great concern.
    Let me just ask a couple of questions.
    Yes or no, do you think an employer should be able to fire 
a woman because she uses birth control?
    Dr. Price. No, I don't believe so.
    Senator Hassan. Well, you voted in support of a resolution 
to disapprove the District of Columbia's non-discrimination 
law, the Reproductive Health Non-Discrimination Act, which 
protects women here in D.C. from being fired or penalized 
because of their reproductive health decisions.
    Your vote would have had the effect of allowing employers 
to fire a woman for using birth control or for other decisions 
she makes about her own body and reproductive health. How is 
that vote consistent with the answer you just gave me?
    Dr. Price. Well, again, I think the question was about who 
is paying for that product.
    Senator Hassan. No. The question is whether an employer 
who, let's say, in a self-insured employer-provided health 
insurance plan finds out that a female employee who earned the 
benefit with her hard work is using that benefit to provide 
birth control, to buy birth control, which the benefit 
provides, and then fires her because the employer disapproves 
of the use of birth control.
    Dr. Price. I don't think that's the case.
    Senator Hassan. You don't think that--would you like us to 
provide examples for you?
    Dr. Price. I'd be happy to.
    Senator Hassan. You would be willing to say that employers 
may not--you would support a law, a rule, that employers may 
not discriminate against women for their reproductive health 
decisions?
    Dr. Price. I don't think that employers ought to--that 
employers have the opportunity right now to be able to let 
somebody go based upon their health status or the medications 
that they use.
    Senator Hassan. Why did you vote against the DC provision 
that made clear----
    Dr. Price. I don't think that's what it did.
    Senator Hassan. You don't think that that was your vote?
    Dr. Price. I don't think that's what the bill did.
    Senator Hassan. Thank you. We'll followup on that.
    Dr. Price. Thank you.
    Senator Hassan. Again, I wish I had more time because I 
have about eight more questions. I'll submit them in writing. 
Thank you.
    Dr. Price. Thank you.
    The Chairman. Thank you, Senator Hassan.
    Senator Cassidy.

                      Statement of Senator Cassidy

    Senator Cassidy. Thank you, Mr. Chair. You all seem worn 
out, but I've been gallivanting with high school students, so 
I'm pretty energized.
    The Chairman. Well, good.
    [Laughter.]
    Senator Cassidy. Let me say for the record that when John 
King came for an interview, I wanted to ask a second round and 
you wouldn't let me, I confirmed with staff. I've been wanting 
to say that for 2 days now, and I'm just going to say it. I had 
another set of questions, and you said ``Shut up.''
    [Laughter.]
    The Chairman. Nothing personal.
    Senator Cassidy. Nothing personal.
    [Laughter.]
    Congressman Price, how would HIPAA laws regard now a 
grandfather taking his grandson on house calls? You know what 
I'm saying? Somehow I think your grandfather would have been 
busted, but that's another----
    Dr. Price. Probably.
    Senator Cassidy. Probably.
    I love what you're saying about the patient-physician 
relationship. You and I both worked in hospitals for the 
uninsured, I as a gastroenterologist/liver doctor, and we've 
been talking a lot about Obamacare and the wonderful things 
it's done, but I keep on thinking of my patients at the 
hospital for the uninsured with a $6,000 deductible.
    Dr. Price. That's right.
    Senator Cassidy. I mean, the patients you saw at Grady, not 
those who were on Medicaid but those who were working, they 
don't have $400 in their account.
    Dr. Price. That's right.
    Senator Cassidy. They've got a 6K deductible before they 
can be otherwise cared for.
    And just for the record, if people don't believe me, I put 
it on my Facebook page. A friend of mine from home, his renewal 
for his individual policy for he and his wife, 60 and 61 years 
old, no kids, no health stuff, was $39,000 for a year, with a 
$6,000 deductible. I put it on my Facebook page because no one 
believes--this is like what a family pays for a mortgage, and 
then some, and that was their yearly premium.
    I applaud you for looking for some alternative that's 
affordable. It may be working for New Hampshire, California, 
Massachusetts. God bless you. For States like mine and yours 
and Arizona, people cannot afford $39,000 premiums.
    Did the Empowering Patients Act repeal, explicitly repeal 
the mental health parity laws?
    Dr. Price. I don't believe so.
    Senator Cassidy. Yes, I don't think so either. Mental 
health parity will still apply, and that does cover substance 
abuse. There are those provisions--that law still remains in 
effect.
    Second, we've been talking about does it have to be a 
covered benefit. You're a big believer in health savings 
accounts. I gather health savings accounts can be used to pay 
for doctors' visits and for essential medical services, and 
even colonoscopies if necessary?
    Dr. Price. Absolutely.
    Senator Cassidy. As a gastroenterologist that comes to 
mind, so just to also point that out. When you speak about 
giving the patient power over her health care to allow her to 
choose, when we choose for her, we have a $39,000 premium. When 
we allow her to choose, she has something which is affordable 
and she becomes a more activated and informed consumer, and 
there's a lot of academic literature to look at that, and I 
applaud it.
    Dr. Price. Absolutely.
    Senator Cassidy. We don't agree with each other entirely 
but substantially, and I applaud you for that.
    Franken always calls me a Luddite--different issue--because 
I am skeptical about--he calls me many things, but a Luddite 
among them, because I am skeptical about electronic health 
records and their negative impact upon productivity. Again, he 
thinks I'm just some guy who calls a mouse a little furry thing 
when most people have moved beyond that a little.
    I see that M.D. Anderson just laid off 5 percent of their 
staff. They're blaming it on financial losses related to 
decreased productivity, again directly attributable to 
implementation of the EHR. Your department is going to be 
involved with meaningful use and such like that, and I often 
find that an orthopedic surgeon asking somebody about their 
smoking history is not really a good use of the orthopedic 
surgeon's time. Not that it isn't important, but nonetheless 
he's not the person to implement the cessation program. It 
should be their internist or--you see what I'm saying.
    Dr. Price. Mm-hmm.
    Senator Cassidy. What thoughts do you have? What can we do 
about this time and productivity sump that has become the 
electronic medical record and meaningful use, keeping that 
which is positive but hopefully doing something better for the 
patient and for the physician?
    Dr. Price. Yes. Thanks, Senator. The electronic medical 
record and electronic health records are so important because 
they, from an innovative standpoint, allow the patient the 
opportunity to have their health history with them at all times 
and be able to allow whatever physician or other provider 
access to that. We in the Federal Government I think have a 
role in that, but that role ought to be interoperability to 
make certain that different systems can talk to each other so 
that it inures to the benefit of the patient.
    I've had more than one physician tell me that the final 
regulations and rules related to meaningful use were the final 
straw for them.
    Senator Cassidy. They quit, they retired.
    Dr. Price. They quit, and they've got no more gray hair 
than you or I have. When that happens, we lose incredible 
intellectual capital in our society that can care for people.
    Senator Cassidy. What can we do about that? What practical 
things can we do?
    Dr. Price. I think the thing that's absolutely imperative 
is to find out what things ought to be determined and checked 
and the metrics that are used, that they actually correlate 
with the quality of care that's being provided, as opposed to 
so many things that are being required right now of the 
physician or the provider that make it so that they're wasting 
their time documenting these things so that it fits into some 
matrix somewhere but it doesn't result in a higher quality of 
care or outcomes for that patient.
    If we truly worked with those providing the care to say 
what is it that we could ask you to measure that would really 
correlate with the outcome and the quality of care being 
provided, I suspect there are some very specific things that we 
could use.
    Senator Cassidy. It's interesting because you're 
emphasizing the patient-physician relationship. My wife is a 
retired breast cancer surgeon, and she used to say that really 
she cared for the husband as much as the wife because the 
husband would be the one who was crying, but she would be the 
one telling them, looking them in the eye, ``There's hope, this 
is not a death sentence. There is hope.'' I can only imagine if 
she were now in practice typing up, ``There is hope.'' It's a 
little bit of a different feel for the patient and her spouse.
    Dr. Price. Yes. We've turned many physicians and other 
providers into data entry clerks, and it detracts, as you said, 
from their productivity, but it detracts greatly from their 
ability to provide quality care.
    Senator Cassidy. Let me ask as well, one of our big 
challenges, how do we come up with expensive medicines that are 
only used by a very few? How do we socialize that cost? Think 
of antibiotics. We just had some gorilla, some germ out there, 
bacteria, that's apparently resistant to everything, or we can 
come up with gene therapy for a very few, very expensive to 
develop. How do we pay for that? I just want your thoughts. I 
don't know if you have an answer. I care deeply about those, 
and so do you, with these rare diseases but devastating. How do 
we care for them and socialize that cost?
    Dr. Price. I talked earlier with Senator Hatch during his 
time about rare diseases and about the Orphan Drug Act and the 
like that revolutionized the ability or the incentives for 
bringing to market drugs that address rare disease, and it's so 
incredibly important. The incentivization from an FDA 
standpoint is important, incentivization to make certain that 
if individuals or companies are able to come up with things 
that cure diseases, that they are appropriately compensated.
    Senator Cassidy. In the era of personalized medicine where 
it might be an N of 1, or an N of 1,000, it's still very small, 
but the cure could be 1 million; anything specific about that?
    Dr. Price. We are entering a brave new world that is so 
exciting from a scientific standpoint to be able to provide 
this kind of personalized health care service to folks, that 
we'll be able to cure things that we never dreamed about 
curing, and the challenges about how we afford to make that 
available to our society are real, and I think we need to get 
the best minds together to figure out how to make that happen, 
and I look forward to working with you to do so.
    Senator Cassidy. I'll close by saying this, and I have a 
perspective that my colleagues cannot, because I know 
orthopedic surgeons are the ones that are called at 3 in the 
morning when there's a car wreck and someone so busted up 
there's no one else to fix them, but if they don't fix them, 
they die. They kiss their wife goodbye, they climb out of bed, 
they drive to the hospital, they're up all night, and then they 
see their clinic schedule the next day. They make rounds in the 
evening. They get home at midnight and kiss their wife 
goodnight before they go to bed.
    Price, you're the exact kind of person to have this job. 
Thank you, and I yield back.
    Dr. Price. Thank you, Senator.
    The Chairman. Thank you, Senator Cassidy.
    Senator Kaine.

                       Statement of Senator Kaine

    Senator Kaine. Thank you to the committee leadership, and 
thank you, Congressman Price, for your visit the other day in 
the office.
    An observation, and then a few questions. Forgive me. I was 
at another hearing, so I might be a little repetitive, but I'll 
try to move quickly.
    My worry as a Virginian is your position about a whole 
range of programs that are basically about access and coverage, 
sort of the safety net that provides coverage to millions of 
people. You proposed turning Medicaid into a block grant 
program. That's exciting a lot of controversy in Virginia right 
now in our legislature, both Democrats and Republicans, and you 
have repeatedly voted against the CHIP program for kids, at one 
point calling it socialized medicine. That's a combined, 
Medicaid and CHIP, about 800,000 Virginians.
    You've proposed a restructuring of Medicare that CBO found 
would increase out-of-pocket costs for seniors. That's about 
1.3 million Virginians.
    You support repeal of the Affordable Care Act. There's 
about half-a-million Virginians on the exchanges and hundreds 
of thousands of others that are otherwise benefited.
    You want to defund Planned Parenthood. Tens of thousands of 
Virginians use Planned Parenthood as their primary health care 
provider.
    These are the basic programs that provide health care 
coverage for millions of Virginians. There's some overlap 
there, but it would be millions, and tens of millions of 
Americans, and many of them have very limited means. There's a 
sort of consistency to your position in some ways across all 
these programs that I view as critical to the health safety 
net.
    I know that Senators Franken and Murray used the 
Hippocratic maxim, First Do No Harm, in comments before I came, 
and I think, and I would hope you would agree, that as we 
approach the discussion of the health care system--access, 
coverage, cost, quality--that the President and Congress should 
strive to do no harm. Would you agree with me?
    Dr. Price. Absolutely.
    Senator Kaine. We shouldn't harm people by reducing the 
number of people who have health coverage or reducing the 
quality of the insurance coverage they have. That's what we 
should strive for, right?
    Dr. Price. I think it's important to appreciate that there 
are challenges in these programs currently. One out of every 
three physicians who ought to be able to see Medicaid patients 
across this country doesn't see Medicaid patients. If we're 
honest and sincere about addressing these problems, we ought to 
step back and say why is that? What are we doing wrong? One out 
of every eight physicians who are eligible to see seniors no 
longer sees Medicare patients. If you're a new Medicare patient 
trying to find a new physician that sees new Medicare patients, 
it's almost impossible anywhere in this country.
    Senator Kaine. I am all with you on fixing challenges and 
going forward, more coverage, more affordable, better for 
health care providers----
    Dr. Price. That's what we're trying to do. That's what my 
proposals have tried to do.
    Senator Kaine. That is important. We shouldn't harm people 
by doing things that would increase their costs, correct?
    Dr. Price. I think we need to drive down the cost for 
everybody.
    Senator Kaine. Right. We shouldn't harm people by creating 
an anxiety about the most important thing in their lives, their 
health care and the health care of their families. We shouldn't 
be doing that in Congress, should we?
    Dr. Price. One of my goals in this entire debate--and I 
appreciate you bringing this up--is to lower the temperature 
about what we're talking about, because this is real stuff for 
folks. These are their lives and their health.
    Senator Kaine. Can we lower the temperature and rush at the 
same time?
    Dr. Price. I think we can move apace but lower the 
temperature and provide stability to folks out there. People 
need to know that no rug is going to be pulled out from under 
them.
    Senator Kaine. I'll join you in stability, and I'll join 
you in lower temperature. I don't think lowering the 
temperature is consistent with rushing. In fact, my experience 
in going around Virginia is huge amounts of fear. We shouldn't 
harm the American economy--health care is the biggest sector of 
the American economy, one-sixth of it--by injecting uncertainty 
into it. We should again try to fix the problems that you've 
identified or those that I might identify and do it in a way 
that provides some stability and certainty. Shouldn't that be 
our goal?
    Dr. Price. Certainty is incredibly important. I'm reminded 
of the fact that the Congressional Budget Office has told us 
that the ACA has actually decreased the workforce by the 
equivalent of 2 million FTEs. There are challenges we have 
throughout, and I hope that what we're able to do is work 
together to solve those challenges.
    Senator Kaine. Do you agree with the President-elect that 
the replacement for the Affordable Care Act must ensure that 
there's insurance for everybody?
    Dr. Price. I have stated here and always that it's 
incredibly important that we have a system that allows for 
every single American to have access to the kind of coverage 
that they need and desire.
    Senator Kaine. He stated in the same interview a couple of 
days ago that we should negotiate with pharmaceutical companies 
under Medicare Part D to try to bring down prescription drug 
costs. Do you support that position of the President-elect?
    Dr. Price. I think that the cost of drugs is in many 
instances a real challenge for folks, and we need to do all 
that we can to make certain that we bring those costs down.
    Senator Kaine. Here is kind of an offbeat question. It's 
kind of a coincidence based on today. I was at a hearing with 
Nikki Haley, Governor Haley, who is nominated to be U.N. 
Ambassador, right before I came in. She played a really 
significant role in moving her State away from use of the 
Confederate Battle Flag in any official capacity.
    When you were a member of the Georgia legislature, you 
fought pretty hard to keep the Confederate Battle Flag as part 
of the Georgia State flag, and you sponsored resolutions to 
make April Confederate History Heritage Month in Georgia and 
``urging schools to commemorate the time of southern 
independence.''
    I'd like to introduce that resolution for the record, Mr. 
Chair.
    [The information referred to may be found in Additional 
Materials.]
    Senator Kaine. I read the resolution with interest because 
it defrays commemorating the time of southern independence, and 
I pulled it up, and I note that the resolution that 
commemorated the time of southern independence mentions nothing 
about slavery. Why did you support that resolution, and do you 
still support it today?
    Dr. Price. I haven't thought about that in a long time, 
Senator, but I'm happy to look at that and go back and try to 
refresh my memory about that time.
    Senator Kaine. Setting the resolution aside, what is 
laudatory about the time of southern independence?
    Dr. Price. Well, I think every heritage has things that are 
good about it. Every heritage has things that are harmful about 
it. I'm happy to answer a specific question. I think slavery 
was an abomination.
    Senator Kaine. Do you think a resolution about Confederate 
History Month that completely omits any reference to slavery 
kind of meets the basic standards of fair and balanced?
    Dr. Price. I don't know that it presumed to be 
comprehensive. What I do know is that the work that I did as 
the first Republican Senate Majority Leader in the history of 
the State of Georgia was to make certain that we came forward 
with a flag that did not have the Confederate Battle Flag on 
it, that addressed all of the concerns of the State and was 
adopted and supported by the State, and we did so in a 
bipartisan way, and I was privileged to work with now Atlanta 
Mayor Kasim Reed when he was in the Georgia Senate at that time 
to make certain that we were able to do so.
    Senator Kaine. You're aware that there's an Office of 
Minority Health----
    Dr. Price. Absolutely.
    Senator Kaine [continuing]. At HHS that was created in the 
Affordable Care Act, reauthorized in the Affordable Care Act?
    Dr. Price. Yes.
    Senator Kaine. If the ACA is repealed, unless it's 
separately reauthorized, that office would also expire?
    Dr. Price. Again, that's a legislative question. If I'm 
privileged to serve and be confirmed and be Secretary of Health 
and Human Services, I look forward to making certain that we 
use the resources available to us and the agencies available to 
us within the Department to make certain that every single 
American has the highest quality health care available.
    Senator Kaine. Why did you use the phrase ``socialized 
medicine'' to explain your vote against the CHIP program?
    Dr. Price. I don't know that I recall that conversation or 
that quote, but I'm happy to go back and look at it.
    Senator Kaine. OK. Thank you.
    Thank you, Mr. Chair.
    The Chairman. Thank you, Senator Kaine.
    Senator Scott.

                       Statement of Senator Scott

    Senator Scott. Thank you, Mr. Chairman.
    Dr. Price.
    Dr. Price. Senator.
    Senator Scott. Good to see you here today.
    Dr. Price. Likewise.
    Senator Scott. I'm hoping for much success for you. I hear 
that you were at Emory University?
    Dr. Price. I was.
    Senator Scott. Medical School?
    Dr. Price. No, I did my residency at Emory University.
    Senator Scott. OK. My nephew is just in his first year of 
medical school at Emory. I hope that he gets a quality 
education.
    Dr. Price. He will, and he's got an exciting road ahead.
    Senator Scott. Excellent, excellent.
    Well, I did have the privilege of serving with you in the 
House and enjoyed our relationship, our friendship, and look 
forward to seeing your success as the Secretary of HHS. I have 
a couple of questions that are State specific to South 
Carolina.
    We have over 20 health centers in South Carolina, with 
about 165 service sites, serving over 350,000 patients in 
almost every county in the State. Every county in South 
Carolina is either partially or completely designated as 
medically underserved by HRSA. As rural hospitals continue to 
close, these centers have addressed a need for many communities 
in my State. They work together with partners in the community 
to address impacts on health like food deserts and lack of 
transportation to preventive health services, which can save 
costs in the long run.
    A diabetic who does not take their medications because they 
cannot afford it or who has no way of picking up what will 
inevitably be a long run to the emergency room, what role do 
you think community health centers can play, particularly in 
rural and medically underserved areas?
    Dr. Price. Thank you, Senator. Community health centers are 
a vital part of our health care delivery system right now. They 
fill a void in so many areas. As you mentioned, across your 
State and across mine and literally across the country, I think 
there are 13,000 that are the entry point and oftentimes the 
area of health care for so many individuals, and we need to do 
all that we can to strengthen them, to make certain that the 
providers, the docs and other providers that are within 
community health centers are of the highest quality, that 
they're providing the highest quality care, and that they're 
able to access resources, intellectual resources and clinical 
resources that allow them to broaden that care.
    Senator Scott. A decade ago in South Carolina, emergency 
rooms were full of people waiting for psychiatric exams so they 
could either be admitted or discharged. After implementation of 
the statewide tele-psychiatry network, wait times have been cut 
from 4 days down to about 10 hours. The costs have been cut by 
almost two-thirds. What do you see as the future of 
telemedicine, particularly to address access issues? What 
barriers can we anticipate as well?
    Dr. Price. Telemedicine is one of those exciting 
innovations that will, I believe, allow for individuals, 
especially in rural and underserved areas, access to that 
intellectual capital and resources from a clinical standpoint 
to make decisions on patients that are before them without 
being able to save resources and save patients in so many ways. 
We, in the State of Georgia, have a stroke program that's kind 
of a spoke and wheel program where at the Medical College of 
Georgia there's a neurologist that works with telemedicine and 
has a network of clinics and hospitals around the State where 
if somebody comes in with symptoms of a stroke, that physician 
is able to literally see that patient in real time and 
determine whether or not they need medication, whether or not 
they're having a stroke, whether they can be treated in the 
community, or whether they have to be transferred to the 
academic center.
    In the past, it was a call on the ground, no ability to be 
able to talk with somebody who might have greater resources or 
knowledge, and all of those patients tried to get to the 
academic center, a huge waste of money and not having patients 
at the center of that decision. Telemedicine is absolutely 
vital, and I think we need to accentuate the ability to use 
telemedicine.
    As you well know right now, oftentimes telemedicine and 
tele-health is not paid for, it's not compensated. People eat 
those--the clinicians eat those costs. They assume those costs 
that help the patient, yes, but make it so it's much more 
difficult for them to be able to provide the quality care 
necessary.
    Senator Scott. Thank you. Another interesting topic that 
you should be fairly familiar with from a minority perspective. 
South Carolina has a high percentage of African Americans. As 
you probably know, breast cancer deaths are approximately 1\1/
2\ times higher in African American women. Prostate cancer 
deaths are approximately 2\1/2\ times higher in African 
American men, and new diagnoses are twice as high.
    I would love to hear your perspective on addressing some of 
the health disparities in communities of color specifically.
    Dr. Price. This is really an important area, Senator, and I 
appreciate you bringing it up, because I think so often what we 
do in this and other areas is to say, ``OK, we're going to set 
up this facility here or this agency here and we've taken care 
of the problem.'' What I don't think we do is look at what's 
happening on the ground, the metrics, as well as we could or 
should. We ought to be defining specifically whether or not 
we're actually improving the lives and health for individuals 
in challenged communities. If we're not, then we need to step 
back honestly and sincerely and say what can we do to make 
certain that it works.
    I learned a couple of months ago, I had the privilege of 
being at a clinic in Atlanta, and I learned that there's a zip 
code in Atlanta, within this metropolitan area of Atlanta that 
has incredible disparities in terms of their health outcomes 
and their health status, higher mortality, higher rates of 
diabetes, higher rates of stroke, higher rates of myocardial 
infarctions, and they're surrounded by incredible health care 
facilities. When we see those kinds of things, we need to drill 
down into those areas to see what's going on, why is that 
happening, and address the real challenge on the ground, as 
opposed to saying, ``OK, we've taken care of it because now we 
have an agency that's addressed to take care of that.'' I think 
we need to do better metrics and better accountability for 
what's going on.
    Senator Scott. I'm sure that you guys have talked at some 
length about rare diseases.
    Dr. Price. We have.
    Senator Scott. Sickle cell being one of the more important 
ones in the African American population. I would love to 
perhaps submit some questions for the record to get your 
insight and your perspective on how we tackle so many of those 
diseases moving forward.
    Dr. Price. Look forward to that, Senator. Thank you.
    Senator Scott. Thank you.
    The Chairman. Thank you, Senator Scott.
    Senator Murray.
    Senator Murray. Thank you, Mr. Chairman.
    Congressman Price, I did want to clarify your response to 
one of my previous questions. You admitted to me in our meeting 
that you, in your own words, talked with Congressman Collins 
about Innate Immuno. This inspired you to, in your own words, 
study the company and then purchase its stock, and you did so 
without a broker. Yes or no?
    Dr. Price. No.
    Senator Murray. Without a broker.
    Dr. Price. I did not.
    Senator Murray. You told me that you did this one on your 
own with the broker, yes?
    Dr. Price. No, I did it through a broker. I directed the 
broker to purchase the stock, but I did it through a broker.
    Senator Murray. You directed the broker to purchase 
particularly that stock.
    Dr. Price. That's correct.
    Senator Murray. Yes.
    Well, Mr. Chairman, those answers really commit me to 
underscore the need for a full and independent investigation, 
and I would like to ask consent to enter into the record an 
article from Kaiser Health News that notes that Congressman 
Price was offered a lower stock price for sophisticated 
investors. I think that's an important part of the record.
    The Chairman. It will be included.
    [The information referred to may be found in Additional 
Material.]
    Senator Murray. Representative Price, if you are confirmed 
as Secretary of Health and Human Services, you will be in 
charge of our Nation's family planning programs and policies. 
You have said that you don't think cost is an issue for women 
in buying birth control and stated, ``Bring me one woman who 
has been left behind. Bring me one. There is not one.'' You did 
say that, correct?
    Dr. Price. I think what I said and what I meant was that 
when I had patients in my office who were unable to afford 
medication, we did everything we could to make certain that 
they got that medication. What I meant to capture in that 
conversation was that if there are individuals who are unable 
to afford that medication or any medication, that there are 
avenues within the health care system that physicians and 
others take to make certain that individuals receive the 
medication that they need.
    Senator Murray. Well, let me tell you about my constituent 
Shannon. Shannon has endometriosis. It's a common health 
condition impacting women. And she said,

          ``No co-pay birth control is an essential tool 
        helping women like me with endometriosis who otherwise 
        would have to live with chronic pain.''

    No co-pay birth control was extremely important to her. 
Women are really deeply concerned about the impact this 
election could have on their access to health care that they 
need. I have heard from many of them. According to Planned 
Parenthood, demand for IUDs, which is a form of long-lasting 
contraception, is up 900 percent since the election.
    I want to ask you, will you commit to ensuring all 18 FDA-
approved methods of contraception continue to be covered so 
that women do not have to go back to paying extra costs for 
birth control?
    Dr. Price. What I will commit to and assure is that women 
and all Americans need to know that we believe strongly that 
every single American ought to have access to the kind of 
coverage and care that they desire and want, and that's our 
commitment, and that runs across the board.
    Senator Murray. Well, let me be clear. Birth control is an 
essential part of women's health care, and if you are 
confirmed, I will be holding you accountable for that.
    I also wanted to ask you, I'm deeply concerned about the 
impact your policies would have on women, obviously, and in 
particular women who often faced barriers to access in the 
health care they need. According to HHS data, since the ACA 
became law, the percentage of black women who report not having 
a regular doctor dropped by nearly 30 percent, while that 
measure for Latinas fell by almost 25 percent. Your health care 
repeal bill and your budget proposal to cut a trillion dollars 
from Medicaid would disproportionately hurt women of color, 
further compounding disparities in access to health care and 
undoing progress that was made in the Affordable Care Act.
    Are you committed to ensuring that women of color maintain 
access to quality, affordable health care?
    Dr. Price. Senator, I appreciate it. I don't agree with the 
premise. The program that I support and that I believe the 
President-elect supports is to make certain that every 
individual has access to the kind of coverage that they want. 
Nobody wants individuals to not have the opportunity to see the 
doctors that they want, to get the kind of care that they want 
at a price that's affordable and that's of the highest quality. 
That's what we believe in, and I hope that we'll be able to 
work together to achieve that goal.
    Senator Murray. Well, the Office of Minority Health was 
reauthorized as part of the ACA. Will you commit to maintaining 
and supporting this office and its work?
    Dr. Price. I will commit to being certain that minorities 
in this country are treated in a way that makes absolutely 
certain that they have access to the highest quality care.
    Senator Murray. You will not commit to the Office of 
Minority Health being maintained?
    Dr. Price. I think it's important that we think about the 
patient at the center of all this. Our commitment, my 
commitment to you is to make certain that minority patients and 
all patients in this country have access to the highest quality 
care.
    Senator Murray. In particular you won't commit to the 
Office of Minority Health?
    Dr. Price. Look, there are different ways to handle things. 
I can't commit to you to do something in a department that, No. 
1, I'm not in, I haven't gotten there yet----
    Senator Murray. Well, you will be.
    Dr. Price. Let me put forward a possible position that I 
might find myself in. The individuals within the Department 
come to me and they say we've got a great idea for being able 
to find greater efficiencies within the Department itself, and 
it results in merging this agency and that agency, and we'll 
call it something else. We will address the issues----
    Senator Murray. I just have a minute left, and I hear you 
that you're not committed. OK.
    Dr. Price [continuing]. In a way that is responsive to 
patients.
    Senator Murray. Let me just ask one final question. Are you 
aware that black, Latina, American Indian, Alaska Natives are 
almost twice as likely as white people to be covered under 
Medicaid? Do you think it's responsible to propose cutting 
trillions of dollars of funding without a credible alternative 
to replace it for those people?
    Dr. Price. Again, I disagree with the premise. The solution 
that we have would ensure that every single American, 
regardless of their health status and regardless of their 
economic status, have the ability, financial feasibility to 
purchase the kind of coverage that they want.
    Senator Murray. Well, I have a few seconds left, Mr. 
Chairman. As you can see, we have members here who also have 
additional questions. I am deeply troubled by a number of 
responses. We have a lot of families who are very, very, very 
concerned since this election with what will happen to them 
personally. We have outlined some of those, and I hope that, 
Congressman Price, as we will have a significant number of 
questions from our colleagues, that you will fully submit them 
for the record.
    Dr. Price. Thank you.
    The Chairman. Thank you, Senator Murray.
    Dr. Price, I want to thank you for being here. I only have 
a few comments. I don't have additional questions.
    I was reflecting back on Sylvia Burwell's appearance before 
this committee and how impressed I was with her appearance. I 
think you've done as well.
    I've also been impressed with her performance in the job 
because while I disagree with a number of the policies she's 
taken, she's gone out of her way to adopt the same tone that 
I've heard from you today, which is to try to accept and work 
with people with different points of view and see if we can 
come to a consensus. I thank you for that, and I'm impressed 
with your beginning, and I appreciate your being here today.
    Based upon the figures I have, you've just endured the most 
extensive questioning of any Secretary of Health and Human 
Services since 1993. Because of the round of questioning, 
Secretary Burwell was in the hearing for 2 hours and 10 
minutes, Sebelius for 2 hours and 28 minutes, Daschle for 2 
hours and 10 minutes, Leavitt less than 2 hours. I don't have 
it for two others. You've been here nearly 4 hours, and next 
Tuesday you'll go before the Finance Committee, which will vote 
on whether you go forward to the President.
    I'm very hopeful that your tone will help us come to a 
conclusion and a consensus in this very important area of 
providing concrete, practical alternatives to give Americans 
access to health care they can afford.
    I was reflecting last night on the hearing, and today. 
They've been pretty testy. We often have strong opinions here 
because we have differences of opinion, but I think that's a 
reflection of, No. 1, the election over the past year, which 
became very uncivil, more so than I liked, and Republicans can 
take our share of the blame for that; but also this issue which 
for 6 years we've been going at it like the Hatfields and the 
McCoys in West Virginia, until almost we've forgotten who 
killed who in the first place, and we're not absolutely clear 
what we're fighting about.
    It would take a bedside manner such as you have to lower 
the temperature, as Senator Kaine suggested. He was among 12 
Democrats who wrote a letter suggesting they were willing to 
work with Republicans as we go forward. I think it will take a 
little while to lower that temperature just because we spent 6 
years as the Hatfields and the McCoys, but I'm committed to 
trying. That's the way we usually work in the committee on very 
contentious issues, and I'd like to get away from the testiness 
of last night and today and back toward the way we've learned 
to work.
    A couple of other things. I hope those watching were 
reassured by what they heard from you. What I heard from you--I 
believe I'm correct about this--is that while we intend to 
repair the damage of Obamacare, and that would eventually mean 
repealing parts of it, major parts of it, that that won't 
become effective until there are practical, concrete 
alternatives in place to give Americans access to health care. 
In other words, you said we don't want to pull the rug out from 
anybody, and I'm sure that's a shared view.
    You've talked some about the importance of March the 1st. 
One thing we have to work together on is what do we do about 
the individual market and the fact that in a third of the 
counties there's already just one insurer for people with 
Obamacare subsidies, and we don't want to get into a situation 
later this year or in 2018 where there's--as I said, it's like 
having a bus ticket in a town with no buses. We may have to do 
some things on both sides of the aisle that we wouldn't 
normally do during this transition period to make sure that 
insurers are willing to sell into the market so these 11 
million people continue to buy insurance, hopefully for more 
than one person.
    I think it's also become clear that the timing that we've 
talked about has yet to be resolved, really, and the sequencing 
is as important almost as the policy. I mean, how do we get 
from where we are to where we eventually hope to go? The way I 
think about it is that we go to work immediately on what I call 
a collapsing bridge, repair it--that's the individual market--
make sure that people aren't hurt by it, and then work together 
to build new bridges, and then close the old bridge only when 
we have new bridges up.
    I think we can make most of the decisions about the 
``replacement'' or replacements or the new systems, new 
bridges, in a relatively short period of time. We've been 
working on this for years. We have our opinions. We ought to be 
able to sit in a room and come to a conclusion.
    In my opinion, then, it will take several years to actually 
implement those decisions because in many cases we'll be 
transferring responsibilities to States and consumers. We'll 
want to do that after talking with Governors and insurance 
commissioners, do it on a schedule that States can accept. 
Their legislatures sometimes only meet every 2 years. Making 
decisions promptly, making them together if we possibly can, 
and then implementing it step by step and carefully so that 
people are able to have access to lower cost insurance is what 
I hope I heard today.
    One other thing. Senator Cassidy, Senator Whitehouse, 
several members of this committee, maybe all of us worked very 
hard--I know Senator Murray did as well--on trying to deal with 
the electronic health care records and meaningful use. In 
Vanderbilt, which was an early adopter of the electronic health 
care records, they said stage 1 was very helpful, stage 2 they 
could deal with, and stage 3 was terrifying. I had hoped that 
we could delay stage 3. I thought that maybe it could be as 
simple as saying to the physicians and providers of the world,

          ``Look, if you're a doc and you're spending 50 
        percent of your time filling out forms, then either 
        you're doing something wrong or we're doing something 
        wrong, and let's work together for the next couple of 
        years to see if we can get that down to a manageable 
        level and create an environment where physicians and 
        providers can spend their time talking instead of 
        typing.''

    You've got a bipartisan consensus here to work on that, at 
least we had last year when we passed the Cures bill, which had 
a number of provisions in it. We had six hearings on the 
subject, and I invite you to work with us if you're confirmed 
to complete that.
    If Senators wish to ask additional questions of our 
nominee, questions for the record are due by the close of 
business on Friday, January 20. For all other matters, the 
hearing record will remain open for 10 days. Members may submit 
additional information for the record within that time.
    The next meeting of our committee will be in executive 
session on January 24 at 10 a.m., which has already been 
noticed.
    Thank you for being here today.
    The committee will stand adjourned.
    Dr. Price. Thank you, Mr. Chairman.
    [Additional Material follows.]

                          ADDITIONAL MATERIAL
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

              [Kaiser Health News (KHN), January 13, 2017]

 Trump's HHS Nominee Got a Sweetheart Deal From a Foreign Biotech Firm

                   (By Jay Hancock and Rachel Bluth)

    When tiny Australian biotech firm Innate Immunotherapeutics needed 
to raise money last summer, it didn't issue stock on the open market. 
Instead, it offered a sweetheart deal to ``sophisticated U.S. 
investors,'' company documents show.
    It sold nearly $1 million in discounted shares to two American 
Congressmen sitting on House committees with the potential power to 
advance the company's interests, according to company records and 
congressional filings. They paid 18 cents a share for a stake in a 
company that was rapidly escalating in value, rising to more than 90 
cents as the company promoted an aggressive plan to sell to a major 
pharmaceutical company. Analysts said the stock price could go to $2.
    One of the beneficiaries was Rep. Tom Price, a Georgia Republican 
poised to become secretary of the Department of Health and Human 
Services, which regulates pharmaceuticals. Price told HHS ethics 
officials Thursday that if appointed, he will divest himself of the 
Australian stock as well as stock in about 40 other companies that 
could pose conflicts. He said he would sell within 90 days of 
appointment and abstain from any decisionmaking about companies in 
which he or his family has had an interest.
    He has already seen about a 400-percent paper gain in his 
investment in Innate Immuno, stock trading records show.
    The other and more substantial August investor was Rep. Chris 
Collins, a Republican from up-state New York, who along with family 
members owns about 20 percent of the foreign company. A key supporter 
of the President-elect, Collins sits on a key health subcommittee.
    The outlines of the stock deal, first reported by the Wall Street 
Journal, resurrected concerns about powerful public officials gaining 
investment opportunities unavailable to the public, including from 
companies whose profits might be influenced by political decisions.
    A review of corporate documents raises a more unusual aspect of the 
deal. Innate Immuno is a foreign company which, in documents and 
presentations, is explicit about a business strategy targeting the U.S. 
market, where the amount that can be charged for a new drug is 
generally far higher than in other countries.
    Innate Immuno has hinged its strategy on winning a preliminary 
green light for a new multiple sclerosis drug, known as MIS416, from 
the HHS's Food and Drug Administration. It says in its private 
placement offering documents that money raised in the United States 
will help it finance the FDA approval process, which can take years. 
Innate Immuno CEO Simon Wilkinson could not be reached for comment.
    Price's financial disclosures show that he acquired his first small 
stake in Innate Immuno in January 2015, investing about $5,000. He made 
two more small purchases in the company that year, declaring a small 
loss on the stock in his 2015 financial disclosure.
    His largest purchase was on August 31, 2016, valued at between 
$50,000 and $100,000, his disclosures show.
    Government ethics experts said this week that Price's stake in 
Innate Immuno as it tries to develop a blockbuster drug would clash 
with his public duties, making divestiture mandatory.
    While ethics rules for Congress are relatively relaxed, ``the 
minute you go to the executive branch, it's a lot stricter,'' said 
Richard Painter, a University of Minnesota law professor who was 
President George W. Bush's chief ethics lawyer.
    ``Dr. Price takes his obligation to uphold the public trust very 
seriously,'' said Phil Blando, a spokesman for the Trump transition. He 
has ``complied fully with all applicable laws and ethics rules 
governing his personal finances.''
    Innate Immuno told investors it would seek ``investigational new 
drug'' status from the FDA, which could shorten the approval process. 
The FDA would not confirm this week whether the company has filed an 
application.
    The drug is in a small clinical trial in New Zealand due to end in 
April. MS drugs are especially expensive for patients, costing $5,000 a 
month or more.
    Positive trial results could set the stage for Innate Immuno's 
stock to reach $2, said Australian stock analysts. In that scenario, 
Price's investment of between $50,000 and $100,000 would be worth 
between $555,000 and $1.1 million. House financial disclosures require 
reporting of ranges of value but not specific amounts.
    ``You could easily picture a drug that is in the billions of 
dollars in revenues, but that's assuming the [trial] data is there,'' 
said David Blake, an analyst at Bioshares, a newsletter covering 
Australian life sciences stocks. ``It's really got to deliver.''
    A physician who chairs the House Budget Committee, Price also sits 
on the House Ways and Means Committee and the Congressional Health Care 
Caucus. He has a history of contacting the FDA on behalf of industry 
campaign donors.
    His ownership of Innate Immuno while serving in the House creates 
its own appearance of a conflict of interest, ethics authorities said.
    ``There is an appearance problem . . . to have Members of Congress 
buying and selling stocks that are affected by the work of the 
committees they sit on,'' Painter said. ``It could be perfectly legal, 
but it looks terrible and shows lack of judgment.''
    Price's Innate Immuno stake is one of more than 40 companies he 
identifies as potential conflicts with the HHS job, including stock in 
Pfizer, Eli Lilly and Bristol Myers Squibb.
    Collins, who sits on Innate Immuno's board, has been a major 
shareholder in the company since 2011 and has gradually increased his 
family's holdings to about 20 percent, corporate documents show. His 
investment in the private placement last summer was worth $720,000, 
according to regulatory documents.
    ``Congressman Collins has followed all ethical guidelines related 
to his personal finances during his time in the House and will continue 
to do so,'' said spokesman Michael McAdams.
    All told, including Price, Collins and other U.S. investors, the 
sale raised $1.8 million. In addition to funding the FDA approval 
process, the company said it would use the money to finance the 
clinical trial and develop potential manufacturing for the drug.
    All U.S. investors in the August deal received a 12 percent 
discount to the stock's market price at the time, which is not unusual 
in private placements, said Stuart Glazebrook, a biotech analyst for 
Gordon Capital Research, a securities research company in Melbourne, 
Australia.
    For small companies, private issues can be more efficient than 
selling new public shares, he said. Selling at less than the market 
price raises odds of attracting investors, he said.
    ``It's an incentive,'' he said. ``It's like Amazon offering 20 
percent off today only if you commit today.''
    Ethics rules for FDA officials are especially strict, said Joshua 
Sharfstein, a former agency deputy commissioner.
    ``For the agency's leaders, even holding onto a single share of 
stock in a regulated company is prohibited,'' he said.
    A decade ago FDA Commissioner Lester Crawford resigned and pleaded 
guilty to two criminal misdemeanors after being charged with concealing 
stock ownership in food and drug companies the agency regulated.
    Innate Immuno executives have talked openly about selling the 
company to one of a number of pharmaceutical company suitors if its 
clinical trial is successful. Many small pharmaceutical companies with 
hot drugs go that route, reaping shareholders millions in quick 
profits.
    The larger company would have the deep pockets to invest in more 
clinical trials that might be needed to obtain regulatory approval, 
analysts said.

    Note: Christina Jewett contributed to the reporting.
               Petitions Opposing Tom Price's Nomination
    Enclosed are samples from 14 separate petitions totaling 510,715 
signatures* the committee has received voicing their opposition to 
Representative Tom Price's nomination for Secretary of Health and Human 
Services. The list of petitions includes:
---------------------------------------------------------------------------
    * Below are the listings of those petitions. Due to the high cost 
of printing the petitions referred to are being retained in committee 
files.

    National Council of Jewish Women (395 signatures)
    All Above All (8,773 signatures)
    American Federation of Teachers (23,862 signatures)
    Physicians for a National Health Program (2,010 signatures)
    UltraViolet (26,817 signatures)

    Condensed petitions:

    Planned Parenthood Action Fund (82,959 signatures)
    MoveOn (24,546 signatures)
    Public Citizen (19,816 signatures)
    CREDO (269,858 signatures)
    National Physicians Alliance (1,450 signatures)
    National Women's Law Center (NWLC) (13,075 signatures)
    Make It Work Action (2,708 signatures)
    Moms Rising (19,557 signatures)
    NARAL (16,899 signatures)
                                 ______
                                 
                                       U.S. Senate,
                                 Washington, DC 20510-6300,
                                                  January 18, 2017.
Hon. Lamar Alexander, Chairman,
Senate HELP Committee,
428 Dirksen Senate Office Building,
Washington, DC 20510.

    Dear Chairman Alexander: As concerns grow about potential ethical 
violations by Congressman Price, and in light of your apparent 
unwillingness to delay his hearing to allow time for said concerns to 
be fully investigated, we write to request that all committee members 
be afforded the opportunity to ask all reasonable questions at today's 
hearing on Congressman Price's nomination to be Secretary of the 
Department of Health and Human Services (HHS). This has proved 
increasingly difficult as multiple hearings of controversial nominees 
have been scheduled at the same time. Today's schedule features four 
simultaneous hearings including the hearing for Scott Pruitt to lead 
the Environmental Protection Agency.
    As we made clear at yesterday's hearing of Elisabeth DeVos to be 
Secretary of Education, we object in the strongest terms to your 
decision to allow only a single 5-minute round of questions from 
committee members. As you know, nomination hearings are a critical 
opportunity for members to obtain vital information about a nominee's 
qualifications, views, and intentions.
    If confirmed, nominees like Ms. DeVos and Representative Price will 
have tremendous responsibility and will exert significant influence 
over Americans' daily lives. Nominations of such importance require 
more than a ``check the box'' hearing.
    At yesterday's hearing, you stated that your decision to limit 
questions to one 5-minute round was consistent with the precedent set 
by prior nomination hearings. We do not agree. We have found no example 
where a request by a Member of the committee to pose additional 
questions to a nominee was denied, much less a blanket denial to each 
of us. Additionally we have determined that Secretaries Shalala and 
Leavitt and Senator Daschle's HHS nominations hearings were multiple 
rounds, while at several additional cabinet level nominations hearings 
members were offered 10-minute rounds for questions.
    We appreciate your respect for the work of this committee, and are 
confident you agree that the Senate has a critical role to play in 
providing the President with advice and consent on his nominees. 
Accordingly, we hope you recognize that Senators must have the 
opportunity to engage in a robust exchange with each of the nominees 
before this committee, consistent with precedent.
            Sincerely,

                                              Patty Murray,
                                                      U.S. Senator.

                                      Robert P. Casey, Jr.,
                                                      U.S. Senator.

                                         Michael F. Bennet,
                                                      U.S. Senator.

                                             Tammy Baldwin,
                                                      U.S. Senator.

                                          Elizabeth Warren,
                                                      U.S. Senator.

                                      Margaret Wood Hassan,
                                                      U.S. Senator.

                                           Bernard Sanders,
                                                      U.S. Senator.

                                                Al Franken,
                                                      U.S. Senator.

                                        Sheldon Whitehouse,
                                                      U.S. Senator.

                                     Christopher S. Murphy,
                                                      U.S. Senator.

                                                 Tim Kaine,
                                                      U.S. Senator.

  State of Rhode Island and Providence Plantations,
                                 Providence, RI 02903-1196,
                                                   January 6, 2017.

Hon. Kevin McCarthy, Majority Leader,
U.S. House of Representatives,
H-107, U.S. Capitol Building,
Washington, DC 20515.

    Dear Leader McCarthy: The Affordable Care Act (ACA) is working in 
Rhode Island. Since 2011, when Rhode Island began the work of ACA 
implementation, our uninsured population has dropped from nearly 12 
percent to under 4.5 percent, one of the lowest rates in the country. 
Nearly 110,000 Rhode Islanders now have access to affordable, life-
saving care through the Medicaid expansion or our State health 
insurance exchange.
    By fully leveraging the flexibility and resources available to us 
under the ACA, Rhode Island has developed a more competitive 
environment for health insurance and positioned itself to make the 
health care system more efficient and affordable. We have been 
successful controlling Medicaid costs without reducing benefits or 
eligibility. Unlike some States which have seen dramatic premium growth 
on the exchange, we have actually seen exchange premiums decrease in 2 
out of the last 3 years. In fact, some consumers are seeing a decrease 
of as much as 5 percent as they compare plans and enroll for 2017. Our 
aggressive rate review process, strengthened by ACA funding, has saved 
consumers nearly $220 million since 2012.
    Our progress toward full insurance has enabled Rhode Island to set 
its sights on a full-scale health system transformation that would not 
have been possible prior to the ACA. We have been working to modernize 
our payment and delivery systems by focusing on the value, not volume, 
of care and services delivered to Rhode Islanders. There remains a lot 
of work to do, and the ACA is not perfect. It is clear, however, that 
these reforms could not be successful without the framework provided by 
the ACA.
    Although the ACA has been successful in Rhode Island, it is clear 
that it could be improved. I would be open to discussing modifications 
to the law. However, I would urge that you and your colleagues grant 
the utmost priority to the following principles as you consider any 
changes to the ACA:

    <bullet> Maintain the existing coverage gains States have realized 
under the ACA. We cannot allow the newly covered to lose access to 
care.
    <bullet> Avoid transferring costs to States. Any such shifts would 
be unaffordable and unworkable for the States. Likewise, we must avoid 
increasing the burden of uncompensated care for our hospitals.
    <bullet> Preserve the stability of the health insurance market. Any 
destabilizing changes to the financing structure or market structure 
could result in rate shock and insurer flight from the individual 
market.
    <bullet> Continue to allow States the freedom to experiment and 
adopt reforms which are appropriate to their environment. In Rhode 
Island, the ACA model has proven successful, and we must be given the 
discretion to retain the pieces which work in Rhode Island.

    Finally, I urge you to retain the critical public health 
investments included in the ACA. Federal support for public health and 
prevention infrastructure has been critical to improving the health of 
our most vulnerable populations and reducing rates of obesity, 
diabetes, heart disease, stroke, tobacco use, and other conditions. 
Dollars spent on prevention not only improve health, but they also help 
reduce utilization of more expensive forms of care.
    Thank you for inviting me to provide you with feedback as you 
consider the value of the ACA and the progress that has been made over 
the past several years. I welcome the opportunity to discuss any of 
these matters further with you and your colleagues.

            Sincerely,
                                          Gina M. Raimondo,
                                                          Governor.
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                         Letters of Opposition
             American Civil Liberties Union (ACLU),
                                      Washington, DC 20005,
                                                   January 6, 2017.
Hon. Lamar Alexander, Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

Hon. Patty Murray, Ranking Member,
Committee on Health, Education, Labor and Pensions,
U.S. Senate,
Washington, DC 20510.

    Re:  Confirmation Hearings Should Cover the Nominees' Commitment to 
Banning Taxpayer Funds from Being Used to Discriminate

    Dear Chairman Alexander, Ranking Member Murray, and members of the 
HELP Committee: As the committee considers the nominations of Betsy 
DeVos to serve as Secretary of Education, Tom Price to serve as 
Secretary of Health and Human Services, and Andrew Puzder to serve as 
Secretary of Labor over the coming weeks, the American Civil Liberties 
Union urges robust questioning regarding their commitment to ensuring 
that taxpayer dollars are never used to fund discrimination.
    Freedom of religion and belief is a core American value. Religious 
liberty protects the right to both believe and act on religious 
beliefs, but it does not authorize actions that discriminate against or 
harm others. These three nominees, if confirmed, will oversee a wide 
range of programs that impact millions of Americans' education, health 
care, and employment, and it is critical to determine where they stand 
on this principle--and to emphasize to the nominees the importance of 
this fundamental civil rights principle.
    Both Mrs. DeVos' and Mr. Price's track records raise serious 
concerns. Mrs. DeVos, who is being considered to oversee the Nation's 
public education system, has a long history of advocating for the use 
of public dollars to support private schools, including those that 
engage in discrimination and lack the protections of our Nation's civil 
rights laws. Mr. Price, who could not only set the national health 
policy agenda if confirmed, but also have authority to administer 
health care programs affecting nearly all Americans, has supported 
numerous policies during his congressional career that would enable 
discrimination against women and members of the LGBT community. In the 
114th Congress, for example, he co-sponsored the so-called ``First 
Amendment Defense Act,'' legislation that could permit sweeping, 
taxpayer-funded discrimination against LGBT people, single mothers, and 
unmarried couples. He also voted for the Conscience Protection Act and 
cosponsored the Health Care Conscience Rights Act, bills that would 
discriminate against women seeking abortion care under the guise of 
protecting religious liberty, and voted to block D.C.'s non-
discrimination law that prohibits workplace discrimination based on 
employees' personal reproductive health care decisions.
    Mr. Puzder, if confirmed, would head a Department tasked with 
enforcing President Obama's historic 2014 Executive order to prohibit 
businesses that contract with the Federal Government from engaging in 
discrimination on the basis of sexual orientation and gender identity. 
These nondiscrimination requirements are built on protections that have 
been in place since the Administration of President Lyndon Johnson and 
have been enforced by every administration 'Democratic and Republican--
since. Given his outspoken opposition to protections for individuals in 
the workplace, Mr. Puzder should be asked about his commitment to 
faithfully enforce these nondiscrimination protections.
    The Departments of Education, Health and Human Services, and Labor 
all dispense significant sums in the form of Federal grants and 
contracts. There is a bipartisan tradition in this country of 
prohibiting taxpayer-funded discrimination, including by recipients of 
Federal grants and contracts. To permit the recipients of these 
taxpayer dollars--including those that are religiously affiliated--to 
engage in discrimination based on religion or religious tenets would 
significantly undermine our Nation's commitment to civil rights.
    We urge you to robustly question these three nominees about their 
commitment to this civil rights principle, and make clear, if 
confirmed, you will hold them accountable for safeguarding policies 
that prohibit taxpayer-funded discrimination.
            Sincerely,

                                            Karin Johanson,
                                                          Director.

                                              Ian Thompson,
                                        Legislative Representative.

                                          Georgeanne Usova,
                                               Legislative Counsel.

                               Advocates for Youth,
                                      Washington, DC 20036,
                                                  January 16, 2017.

Hon. Lamar Alexander, Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

Hon. Patty Murray, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

    Dear Chairman Alexander and Ranking Member Murray: Advocates for 
Youth (Advocates) is a national nonprofit organization that partners 
with youth leaders, adult allies, and youth-serving organizations to 
advocate for policies and champion programs that recognize young 
people's rights to honest sexual health information; accessible, 
confidential, and affordable sexual health services; and the resources 
and opportunities necessary to create health equity for all youth. We 
write in strong opposition to Representative Tom Price's nomination to 
serve as our Nation's Secretary of Health and Human Services.
    The mission of the Department of Health and Human Services (HHS) is 
``to enhance and protect the health and well-being of all Americans.'' 
\1\ Representative Price's record indicates that he would not serve the 
stated mission of HHS.
---------------------------------------------------------------------------
    \1\ U.S. Dept. of Health and Human Services. ``About Us.'' 
Retrieved 12 January 17, from http://www.hhs.gov/about/index.html#.
---------------------------------------------------------------------------
    During his 11 years in Congress, Representative Price has 
consistently championed policies that would undermine the health and 
well-being of women and young people. He has worked to weaken the same 
programs that he has been nominated to oversee--programs that tens of 
millions of people rely on to protect the health of their families. His 
record should disqualify him for the office of HHS Secretary.
    Specifically, we are deeply concerned about the Congressman's 
opposition to the Affordable Care Act (ACA); his commitment to 
undermining Medicaid, Medicare and other key parts of our Nation's 
social safety net; his extreme opposition to abortion care and access 
to contraception; and his complete disregard for the needs of the LGBTQ 
community.
    The Affordable Care Act has improved the lives of tens of millions 
of people. It has enabled 6.1 million previously uninsured young people 
(ages 19 to 25) to gain access to affordable, comprehensive health care 
coverage.\2\ Young people need access to a full range of sexual and 
reproductive health care services. The ACA has made critical healthcare 
services more accessible to young people, including screenings for 
sexually transmitted infections (STIs) and HIV, contraceptive care, 
pregnancy-related care, HPV immunizations, and gender-affirming 
healthcare for transgender youth, among other services. Since young 
people ages 15 to 24 are more likely to experience unintended 
pregnancies and STIs than most other age groups,\3\ increased access to 
these services has made a real difference in many young people's lives. 
After the implementation of the ACA, young people are significantly 
more likely to receive a routine examination including preventive care 
services.\4\
---------------------------------------------------------------------------
    \2\ U.S. Dept. of Health and Human Services, Office of the Asst. 
Secretary for Planning and Evaluation. (2016, March). Health Insurance 
Coverage and the Affordable Care Auk 2010-2016. Retrieved 12 January 
2017, from https://aspe.hhs.gov/sites/default/files/pdf/18755/ACA2010-
2016.pdf.
    \3\ Centers for Disease Control and Prevention. Sexually 
Transmitted Disease Surveillance 2012. Atlanta: U.S. Department of 
Health and Human Services; 2013. Finer LB and Zolna MR, Shifts in 
intended and unintended pregnancies in the United States, 2001-2008, 
American Journal of Public Health, 2014, 104(S1): S44-S48.
    \4\ Lau JS, et al. ``Improvement in Preventive Care of Young Adults 
after the Affordable Care Act.'' JAMA Pediatrics, October 27. 2014.
---------------------------------------------------------------------------
    The ACA represents a tremendous step forward for young people's 
health. Millions now have the peace of mind of knowing that if they or 
their family members have a health emergency they will be able to 
afford care. Fifty-five million women have benefited from the ACA's 
coverage of preventive services, including well-woman visits, screening 
for intimate partner violence, counseling, and breast feeding support, 
among others.\5\
---------------------------------------------------------------------------
    \5\ U.S. Dept. of Health and Human Services. (2015, May). The 
Affordable Care Act is Improving Access to Preventive Services for 
Millions of Americans. Retrieved 12 January 2017, from https://
aspe.hhs.gov/pdf-report/affordable-care-act-improving-acess-preventive-
services-millions-
americans.
---------------------------------------------------------------------------
    If confirmed, Rep. Price would roll back these important gains for 
women and all young people and thereby strip beneficiaries of important 
protections concerning access to coverage and care. His record on these 
issues is clear. Rep. Price has voted over 60 times to repeal the 
ACA.\6\
---------------------------------------------------------------------------
    \6\ Planned Parenthood Federation of America. (2016, November). Tom 
Price. Trump's Pick to Lead HHS, Would Take Away Millions of Women's 
Health Care. Retrieved 12 January 2017, from https://
www.plannedparenthoodaction.org/blog/tom-price-trumps-pick-to-lead-hhs-
would-take-away-millions-of-womens-access-to-health-care.
---------------------------------------------------------------------------
    Rep. Price has also targeted low-income people by seeking to cut 
funding for Medicaid and to eviscerate the program through the use of 
block grants and per capita caps.\7\ Millions of young people rely on 
Medicaid for care throughout their lives--from reproductive and 
maternal health services to other lifesaving care. Block granting or 
capping Medicaid would devastatingly undermine the critical role that 
Medicaid plays in supporting the health and well-being of millions of 
people in this country.
---------------------------------------------------------------------------
    \7\ Ibid.
---------------------------------------------------------------------------
    Finally, Rep. Price's extreme record on reproductive health care 
alone should disqualify him for the job. Rep. Price has co-sponsored 
legislation that would outlaw abortion, stem cell research, forms of 
contraception, and in vitro fertilization.\8\ He has vigorously opposed 
women's constitutionally recognized right to abortion care, voting to: 
deny abortion coverage for women with private health insurance,\9\ ban 
abortion care as early as 20 weeks,\10\ and deny low-income women 
coverage for abortion care.\11\
---------------------------------------------------------------------------
    \8\ The Right to Life Act, H.R. 552 (2 February 2005).
    \9\ Stupak amendment to the Health Care for America Act, H.R. 3962, 
(7 November 2009); Camp motion to recommit Health Care and Education 
Reconciliation Act, H.R. 4872, (21 March 2010); No Taxpayer Funding for 
Abortion Act, H.R. 3, (4 May 2011); Protect Life Act, H.R. 358, (13 
October 2011); No Taxpayer Funding for Abortion Act, H.R. 7, (28 
January 2014); No Taxpayer Funding for Abortion Act, H.R. 7, (22 
January 2015).
    \10\ Pain-Capable'' Unborn Child Protection Act, H.R. 3808, (31 
July 2012); ``Pain-Capable'' Unborn Child Protection Act, H.R. 1797, 
(18 June 2013); Motion to recommit the ``Pain-Capable'' Unborn Child 
Protection Act, H.R. 36, (13 May 2015); ``Pain-Capable'' Unborn Child 
Protection Act, H.R. 36, (13 May 2015).
    \11\ No Taxpayer Funding for Abortion Act, H.R. 3, (4 May 2011); No 
Taxpayer Funding for Abortion Act, H.R. 7, (28 January 2014); No 
Taxpayer Funding for Abortion Act, H.R. 7, (22 January 2015).
---------------------------------------------------------------------------
    Rep. Price is a proven opponent of access to sexual and 
reproductive healthcare, no matter the public health impact. He has 
repeatedly voted to defund Planned Parent hood,\12\ which provides 
essential preventive health services like cancer screenings, birth 
control, STI testing, and HIV testing to 2.5 million people annually--a 
program that particularly benefits young people and low income people. 
Defunding Planned Parenthood will have a disproportionate impact on 
communities that historically face systemic barriers to care and 
negatively affect the state of sexuality education in this country, as 
Planned Parenthood Health Centers are the largest provider of sex 
education in the country.\13\
---------------------------------------------------------------------------
    \12\ Pence amendment to fiscal year 2008 Labor, Health and Human 
Services, and Education Appropriations Act, H.R. 3043, (19 July 2007); 
Pence amendment to fiscal year 2010 Labor, Health and Human Services, 
and Education Appropriations Act, H.R. 3293, (24 July 2009); Pence 
amendment to fiscal year 2011 Continuing Resolution, H.R. 1, (18 
February 2011); fiscal year 2011 Continuing Resolution H.R. 1, (19 
February 2011); Enrollment resolution to fiscal year 2011 Continuing 
Resolution, H. Con. Res. 36, (14 April 2011); Defund Planned Parenthood 
Act, H.R. 3134, (18 September 2015); Women's Public Health and Safety 
Act, H.R. 3495, (29 September 2015); fiscal year 2016 Continuing 
Resolution, H. Con. 79, (30 September 2015); Restoring Americans' 
Healthcare Freedom Reconciliation Act, H.R. 3762, (23 October 2015); 
H.R. 3762, (6 January 2016); Veto override of H.R. 3762, (2 February 
2016).
    \13\ Planned Parenthood Federation of America. (2016). The Urgent 
Need for Planned Parenthood Health Centers. Retrieved 13 January 2017, 
from https://www.plannedparenthood.org/files/4314/8183/5009/
20161207_Defunding_fs_d01_1.pdf.
---------------------------------------------------------------------------
    The Secretary of HHS oversees health care policy, health care 
research and as well as allocates resources to important agencies like 
the CDC, FDA, and NIH. The person who takes this role has an important 
impact on all Americans. Rep. Tom Price would clearly take our health 
care system backward and is not the right choice for this important 
position. We urge you to reject this nominee.
            Sincerely,

                                              Diana Rhodes,
                                         Director of Public Policy.

                                                    AFSCME,
                                 Washington, DC 20036-5687,
                                                 December 22, 2016.

Hon. Lamar Alexander, Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

Hon. Patty Murray, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

    Dear Senators: On behalf of the 1.6 million members of the American 
Federation of State, County and Municipal Employees (AFSCME), I write 
to urge you to oppose the confirmation of Rep. Tom Price to serve as 
Secretary of the Department of Health and Human Services. We also wish 
to convey our very strong opposition to the effort to repeal the 
Affordable Care Act and restructure and cut funding for Medicare and 
Medicaid, proposals that Rep. Price champions.
    Rep. Price is the wrong choice to lead the Federal agency charged 
with protecting the health and well-being of all Americans. His budget 
and health care proposals demonstrate that he does not understand the 
challenges of ordinary Americans. In fact, he has supported and 
sponsored budgets that prioritize the wealthy and profitable 
corporations at the expense of working families, seniors, people with 
disabilities and the poor.
    Rep. Price supports the repeal of the Affordable Care Act, which 
would take health care coverage away from 30 million people. His 
proposal for replacing the ACA would provide limited help to those who 
buy insurance on their own, gut regulations that make coverage 
meaningful and drive up costs. He would even restore the ability of 
insurance companies to discriminate against many with pre-existing 
conditions.
    Rep. Price would turn Medicare into a voucher that would fail to 
keep pace with the growth in health costs. Over time, seniors and 
people with disabilities would face steeper and steeper costs to 
purchase less and less adequate coverage. His proposal to restructure 
Medicaid would shift costs to States and force cuts in enrollment and 
services and likely cuts in other State services to compensate for lost 
Federal funding.
    In November, Rep. Price unveiled a new proposal to change the 
congressional budget process. The proposal calls for automatic across-
the-board cuts in Federal spending to meet deficit targets. Deficit 
reduction, not job creation or poverty reduction, would be the top 
priority of the Federal Government under this scheme. His plan is so 
radical it would impose automatic cuts in Social Security benefits. 
Yet, the plan is designed to allow cuts in Social Security and all 
other programs to take effect without a vote, presumably intended to 
shield Members of Congress from the consequences of a harmful and 
deeply unpopular action.
    Leading HHS is a critical job. It should be held by an individual 
who is committed to policies that will make the lives of ordinary 
Americans better. Rep. Price fails this test and should be rejected by 
the Senate.
            Sincerely,

                                                Scott Frey,
                            Director of Federal Government Affairs.

                      Feminist Majority Foundation,
                                          January 16, 2017.

Hon. Lamar Alexander, Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

Hon. Patty Murray, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

    Dear Chairman Alexander and Ranking Member Murray: The Feminist 
Majority Foundation writes in strong opposition to Representative Tom 
Price's nomination to serve as the Secretary of the U.S. Department of 
Health and Human Services. His extreme opposition to Medicaid, 
Medicare, Affordable Care Act, the provision of abortion care, and the 
increased access to birth control disqualify him for this nomination.
    The agencies and programs of HHS are vital to the health and well-
being of women and their families. During his tenure in the House of 
Representatives, Representative Price has been a leading advocate 
against the Affordable Care Act and has voted against it over 60 times. 
He has been a leading voice in Congress to dramatically reduce Medicaid 
coverage and would end Medicare as we know it. He has been an advocate 
against the very programs that he has been nominated to lead--programs 
that tens of millions of people desperately need for health care.
    The Affordable Care Act has improved the lives of tens of millions 
of people. Thirty-two million people now have health care coverage 
either through the health insurance exchanges of ACA or the expansion 
of Medicaid provided by the ACA. Fifty-five million women have 
benefited from the ACA's preventive care package services without co-
pays or deductibles, including well-woman visits, a variety of birth 
control options and counseling, vaccinations, and breast feeding 
support. Fifty-two million people with pre-existing conditions can now 
have comprehensive health insurance coverage. Of course, millions of 
young people until the age of 26 have coverage through their 
parent(s)'s health insurance.
    Rep. Price's record shows all of these life-saving features of ACA 
would be in jeopardy if his policies were implemented. His opposition 
to ACA is not the only threat to millions of people's health care. His 
appointment would be a serious threat to Medicare and Medicaid. 
Medicare has provided life-saving care to millions of older people--the 
majority of whom are women--and people with disabilities, who otherwise 
could not afford it. Instead of working to strengthen this critically 
needed program, Rep. Price has advocated unrealistic privatization 
plans that would end Medicare as we know it. What insurance companies 
would insure the elderly as completely as Medicare does at a reasonable 
rate that, for example, the average elderly woman who survives on 
Social Security annual income ($13,150 in 2014) could afford? As the 
person ages under Medicare, what insurance company would continue to 
provide full coverage at affordable premiums? What's more American 
workers have paid into Medicare all their working lives and have earned 
this coverage.
    Rep. Price's policies for drastically cutting Medicaid funding 
through inadequate block grant funding and per capita caps and changing 
it from a guaranteed program as needed for eligible persons to a 
limited block grant program is especially harmful to low-income women 
and families. Millions of women need Medicaid for reproductive health 
services including family planning and healthy pregnancies. Today some 
two-thirds of nursing homes costs are paid through Medicaid. The 
current Medicaid Federal payments are guaranteed on an ``as-needed'' 
basis to eligible low-come, elderly, disabled and/or children. Block 
granting or in other words capping Federal Medicaid payments to States 
would be devastating not only to the millions of eligible persons but 
also to hospitals, nursing homes, and would undermine the entire 
medical system of the Nation.
    Especially frightening to women and impacting men's health and 
well-being is Rep. Price's extreme opposition to abortion and family 
planning including co-sponsoring legislation to outlaw abortion, stem 
cell research, some forms of contraception, and in vitro fertilization. 
He even opposes private health insurance coverage of abortion. He has 
supported measures to totally defund Planned Parenthood which provides 
not only excellent, low-cost reproductive health care to women but also 
cancer screenings, STI and HIV testing as well as other health care 
needs. Recklessly he has voted to eliminate title X funding, the 
national family program which was founded with bipartisan support in 
1970 and has helped millions of women with what would be otherwise 
unaffordable and essential reproductive health care.
    Women and men cannot go back to a day of back alley and unsafe 
abortions, and a day without the ability to control their own 
reproductive lives. Older people, disabled people, low-income people, 
and children cannot go back to a day without any access to affordable 
health care. We urge you to vote no on the confirmation of 
Representative Tom Price for Secretary of the U.S. Department of Health 
and Human Services.
            For Women's Equality,

                                             Eleanor Smeal,
                                                         President.

                             Human Rights Campaign
                                          January 17, 2017.
Hon. Lamar Alexander, Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

Hon. Patty Murray, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

    Dear Chairman Alexander and Ranking Member Murray: Systemic 
discrimination, a lack of insurance, and increased rates of poverty and 
homelessness compound already stark health disparities within the LGBTQ 
community. In recent years we have witnessed the Department of Health 
and Human Services meet these challenges head on with a commitment to 
research, public education, and civil rights. LGBTQ people nationwide 
have come to depend upon the critical programs and leadership provided 
by HHS. We are standing at a crossroads in the fight for LGBTQ equality 
in healthcare. We cannot afford a Secretary like Representative Tom 
Price, whose anti-equality voting record and harmful rhetoric foster 
stigma and fear of LGBTQ people--compounding existing healthcare 
disparities.
    Over the past two decades, Representative Price has spent his 
career dedicated to an agenda that undermines the health and well-being 
of the entire LGBTQ community. Partnering with anti-LGBTQ 
organizations, Representative Price has vocally opposed legislation 
that would protect our community not only from discrimination, but also 
from acts of violence. He has also dedicated the past 7 years to 
systematically undermining the Affordable Care Act--one of the most 
significant tools this country has ever had to combat health 
disparities in our community. Perhaps most troubling is his belief that 
LGBTQ people, equality, and same-sex relationships have negative public 
health and economic implications for the Nation.
    While marriage equality is now the established law of the land, 
LGBTQ families still face the real fears of being turned away from 
care, denied the right to visit a child or spouse, or treated unfairly 
by doctors or other providers. These families deserve a Secretary who 
will actively work to ensure that discrimination has no place in 
federally funded healthcare programs and that every patient is treated 
with equal dignity regardless of their sexual orientation or gender 
identity. Instead of providing this security, Representative Price has 
a public record of demeaning and marginalizing LGBTQ people. His 
harmful, misguided, and flatly erroneous ideology categorically 
dismisses LGBTQ equality, the needs of our families, and the impact of 
marginalization and discrimination on healthcare outcomes.
    The healthcare disparities and challenges we are facing are real, 
but they are not impossible. It is essential that the next Secretary 
exhibit a true commitment to meeting these challenges with policies 
based on science and research, a dedication to ensuring equal access to 
healthcare, and a vision for compassionate leadership. Representative 
Price's record shows that he's clearly not up to the job.
            Sincerely,
                                              Chad Griffin,
                                                         President.

                                          Immunize,
                                          January 17, 2017.

Hon. Lamar Alexander, Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

Hon. Patty Murray, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

Hon. Orrin G. Hatch, Chairman,
Committee on Finance,
U.S. Senate,
Washington, DC 20510.

Hon. Ron Wyden, Ranking Member,
Committee on Finance,
U.S. Senate,
Washington, DC 20510.

    Dear Chairman Alexander, Chairman Hatch, Ranking Member Murray, and 
Ranking Member Wyden: Vaccines are one of the greatest success stories 
in public health and are among the most cost-effective ways to prevent 
disease. Indeed, we know that for each dollar invested in the U.S. 
childhood immunization program, there are over $10 of societal savings 
and $3 in direct medical savings. Moreover, it is estimated that the 
benefits which will be accrued from the Vaccines For Children Program 
for children born over the first 20 years of the program will prevent 
322 million illnesses, 21 million hospitalizations, 732,000 deaths, and 
nearly $1.4 trillion in societal costs.
    While immunization rates remain high for children, pockets of 
undervaccinated communities remain at risk of deadly vaccine-
preventable diseases. Immunization rates for adolescents and adults 
remain woefully low, leaving them vulnerable to diseases including 
several deadly cancers, and to serving as vectors for the transmission 
of deadly diseases, such as pertussis to young children. It has been 
reported that the United States spends nearly $27 billion annually 
treating four vaccine-preventable diseases that afflict adults over 50 
years of age: influenza, pertussis, pneumococcal disease and shingles.
    Costly outbreaks of vaccine preventable diseases continue to 
challenge the Nation's public health system. In the past 3 years 904 
Americans were diagnosed with highly contagious measles, 4,625 cases of 
mumps were detected and pertussis (which is particularly deadly to 
infants) was diagnosed in more than 67,000 people. In addition, each 
year, more than 200,000 individuals are hospitalized and 3,000--49,000 
deaths occur from influenza-related complications.
    As the nominee for the Secretary of Health and Human Services it is 
our hope that Chairman Tom Price will support our Nation's public 
health infrastructure by fostering investments in the science and 
technology that informs our national immunization policy, providing a 
safety net to uninsured poor adults for vaccine purchases, monitoring 
the safety of vaccines, educating providers and performing community 
outreach, and conducting surveillance, laboratory testing, and 
epidemiology to respond to disease outbreaks.
    As you work through the confirmation process, we urge you to ensure 
that Chairman Price is committed to protecting the citizens of this 
Nation from vaccine preventable diseases.
            Sincerely,

Alliance for Aging Research, American Academy of Family Physicians, 
    American Academy of Pediatrics, American Association for Dental 
    Research, American Association of Colleges of Pharmacy, American 
    College of Osteopathic Pediatricians, American College of 
    Preventive Medicine, American Congress of Obstetricians and 
    Gynecologists, American Immunization Registry Association, American 
    Pharmacists Association, American Public Health Association, 
    American Sexual Health Association, American Sexually Transmitted 
    Diseases Association, American Society for Colposcopy and Cervical 
    Pathology, American Society for Reproductive Medicine, American 
    Society of Tropical Medicine & Hygiene, Arizona Partnership for 
    Immunization, Association for Professionals in Infection Control 
    and Epidemiology, Association of Immunization Managers, Association 
    of Public Health Laboratories, Autism Science Foundation, Boost 
    Oregon, California Academy of Family Physicians, California 
    Immunization Coalition, Center for Vaccine Awareness and Research--
    Texas Children's Hospital, Center for Vaccine Ethics and Policy/
    GE2P2 Global Foundation Central Oklahoma Immunization Coalition, 
    Cervivor, Columbia County Immunization Coalition--Wisconsin, 
    Commissioned Officers Association of the U.S. Public Health 
    Service, Inc., Coulee Region Immunization Coalition--Wisconsin, 
    Emily Stillman Foundation, EverThrive Illinois, Every Child By 
    Two--Carter/Bumpers Champions for Immunization, Families Fighting 
    Flu, FIND--Switzerland, Gerontological Society of America, Green 
    County Health Department--Wisconsin, Gregg County Health 
    Department--Texas, Head and Neck Cancer Alliance, Hep B United, 
    Hepatitis B Foundation, Immunization Action Coalition, Immunization 
    Action Coalition of Washington, Immunization Coalition of 
    Washington, DC, Immunization Collaboration of Tarrant County--
    Texas, Immunize Kansas Coalition, Immunize Nevada, Immunization 
    Partnership--Texas, Indiana Immunization Coalition, Infectious 
    Diseases Society of America, International AIDS Vaccine Initiative, 
    International Vaccine Institute, Iowa County Health Department, 
    Kelsey-Seybold Clinic, LA BioMed/South LA Health Projects, Langlade 
    County Immunization Coalition--Wisconsin, March of Dimes, 
    Massachusetts Chapter of the American Academy of Pediatrics, 
    Meningitis Angels, Mid America Immunization Coalition, Minnesota 
    Chapter of the American Academy of Pediatrics, Minnesota Childhood 
    Immunization Coalition, National Association of County and City 
    Health Officials, National Association of Pediatric Nurse 
    Practitioners, National Association of School Nurses, National 
    Consumers League, National Foundation for Infectious Diseases, 
    National Meningitis Association, National Network of Public Health 
    Institutes, National Recreation and Park Association, Novavax, 
    Ocean State Immunization Collaborative, Ohio State Univ. 
    Comprehensive Cancer Center/James Cancer Hospital & Solove Research 
    Institute, PATH, Pediatric Infectious Diseases Society, Pierce 
    County Immunization Coalition--Washington, Public Health--Seattle & 
    King County, Sabin Vaccine Institute, San Diego Immunization 
    Coalition, Sheboygan County Immunization Coalition--Wisconsin, 
    Society for Adolescent Health and Medicine, Society for Maternal-
    Fetal Medicine, Southeast Minnesota Immunization Connection, 
    Southern Wisconsin Immunization Consortium, TB Alliance, Team 
    Maureen/Cervical Cancer-Free MA, Research Institute, Trust for 
    America's Health, Vaccinate California, Vaccine Education Center at 
    the Children's Hospital of Philadelphia, VillageReach, Voices for 
    Vaccines, Walgreens, Washington Chapter of the American Academy of 
    Pediatrics, Washington Global Health Alliance, Washtenaw County 
    Public Health, West Virginia Immunization Network.

                              Main Street Alliance,
                                          January 17, 2017.

Hon. Lamar Alexander, Chairman,
Committee on Health, Education, Labor, and Pension,
U.S. Senate,
835 Hart Senate Office Building,
Washington, DC 20510.

Hon. Patty Murray, Ranking Member,
Committee on Health, Education, Labor, and Pension,
U.S. Senate,
648 Dirksen Senate Office Building,
Washington, DC 20510.

Hon. Orrin G. Hatch, Chairman,
Committee on Finance,
U.S. Senate,
104 Hart Senate Office Building,
Washington, DC 20510.

Hon. Ron Wyden, Ranking Member,
Committee on Finance,
U.S. Senate,
221 Dirksen Senate Office Building,
Washington, DC 20510.

    Dear Chairman Hatch, Chairman Alexander, Ranking Member Wyden, and 
Ranking Member Murray: The Main Street Alliance writes to oppose the 
confirmation of Representative Tom Price to serve as Secretary of the 
Department of Health and Human Services (HHS). We also wish to express 
opposition to the harmful efforts to repeal the Affordable Care Act, 
privatizing Medicare and block-granting Medicaid.
    The Main Street Alliance is a national network of small business 
owners who engage on local, State, and national policy issues of 
concern to small businesses, their employees, and their community. 
Access to safe and affordable health coverage is a longstanding 
priority for small business owners in our network. HHS-administered 
programs, such as the ACA, Medicaid, and Medicare, have provided much-
needed relief to small business owners, who have long struggled to 
obtain affordable, quality coverage in the private market. Since the 
implementation of the ACA, the uninsured rate for employees in small 
businesses has dropped--fallen from 27.4 percent to a historic low of 
19.6 percent--and one in five marketplace enrollees are small business 
owners or sole proprietors. Similarly, Medicare and Medicaid have 
ensured that our most vulnerable business owners--often without a 
company pension or retirement--have a basic measure of health security.
    Unfortunately, Representative Price's record on these programs is 
dismal. Representative Price is a proponent of radical proposals to cut 
billions from Medicare, converting it to a voucher which would lose 
value over time and shift more and more costs onto seniors and people 
with disabilities. He also supports increasing the age of Medicare 
eligibility from 65 to 67, which would increase the number of older 
adults--many of whom are small business retirees--without health care 
coverage. Furthermore, Representative Price supports the repeal of the 
Affordable Care Act (ACA), a plan that would cause 30 million people to 
lose their coverage by 2019, including over 4 million business owners; 
collapse the individual market; and cause premiums for small business 
owners to skyrocket.
    Beyond the direct health and financial costs to small business 
owners, Representative Price's plan to dismantle the current health 
care system would syphon billions of dollars out of local economies, 
starve State funding, and under-resource vital programs that small 
businesses rely on. The economic ripple effects of repealing the ACA 
and cutting Medicaid would be far-reaching. Nearly 3 million jobs would 
be lost, and gross State products would fall by $1.5 trillion between 
2019 and 2023, business output would drop $2.6 trillion. As evident 
from the Great Recession, the ensuing contracting economy would 
disproportionately harm small business growth.
    Simply put, Representative Price's policy agenda would cripple 
small business owners. For these reasons, I ask that you oppose the 
nomination of Representative Tom Price for Secretary of Health and 
Human Services. If you need additional information, please contact 
Michelle Sternthal at <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="5a373339323f36363f1a373b3334292e283f3f2e3b3636333b34393f7435283d">[email&#160;protected]</a> or (202) 263-
4529.
            Sincerely,
                                         Amanda Ballantyne,
                                                 National Director.

                                    MomsRising.org,
                                          January 17, 2016.

Hon. Lamar Alexander, Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
428 Dirksen Office Building,
Washington, DC 20510.

Hon. Patty Member, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
428 Dirksen Office Building,
Washington, DC 20510.

    Dear Chairman Alexander and Ranking Member Murray and members of 
the Senate Committee on Health, Education, Labor, and Pensions: 
MomsRising is an on-the-ground and online grassroots organization of 
more than a million people, including people from every State in our 
Nation, who are working to increase family economic security, decrease 
discrimination against women and moms, and to build a nation where 
businesses and families can thrive. As such, we and our members across 
the country were dismayed by President-Elect Trump's nomination of 
Representative Tom Price as Secretary of Health and Human Services 
because Representative Tom Price has said he would act to roll back 
health care coverage gains made through the Affordable Care Act and 
would weaken programs like Medicaid, which are essential to the health 
of families.
    Therefore we strongly urge you to reject the nomination of 
Representative Tom Price for Secretary of Health and Human Services.
    Since the passage of the Affordable Care Act (ACA), we have seen 
the largest reduction in the uninsured in four decades. This reduction 
lifts our economy and our families. In fact, about 16.4 million 
previously uninsured people have gained access to health coverage.\1\ 
In addition, millions more have benefited from such positive and 
popular improvements as financial protections for those facing severe 
illness, no longer being discriminated against for pre-existing 
conditions, parents being able to keep their adult children on their 
plan until they are 26, and preventative care, such as well-visits, 
vaccinations, and mammograms, being covered free of charge.
---------------------------------------------------------------------------
    \1\ Health and Human Services. ``The Affordable Care Act is 
Working.'' https://www.hhs.gov/healthcare/facts-and-features/fact-
sheets/aca-is-working/index.html?language=es.
---------------------------------------------------------------------------
    Representative Price opposes the ACA and would support scraping the 
law altogether, leaving 30 million people, including 4 million 
children, without health insurance.\2\ Instead he has proposed a 
program that is far weaker, and leaves many struggling families out. 
Representative Price wants to offer a weak replacement, which guts 
access to health insurance and eliminates the essential health benefits 
package--allowing insurers to determine whether or not things like 
maternity care should be covered.\3\
---------------------------------------------------------------------------
    \2\ Linda J. Blumberg, Matthew Buettgens and John Holahan. 
``Implications of Partial Repeal of the ACA through Reconciliation.'' 
Urban Institute, December 6, 2016. http://www.urban.org/research/
publication/implications-partial-repeal-aca-through-reconciliation; 
http://www.urban
.org/research/publication/implications-partial-repeal-aca-through-
reconciliation; http://www.
urban.org/research/publication/implications-partial-repeal-aca-through-
reconciliation.
    \3\ Sarah Kliff. ``By picking Tom Price to lead HHS, Trump shows 
he's absolutely serious about dismantling Obamacare.'' Vox, November 
28, 2016. http://www.vox.com/2016/11/28/13772342/trump-tom-price-
obamacare; http://www.vox.com/2016/11/28/13772342/trump-tom-price-
obamacare. http://www.vox.com/2016/11/28/13772342/trump-tom-price-
obamacare.
---------------------------------------------------------------------------
    This would hurt moms like Amy who writes:

          ``Our daughter Addie was diagnosed with Type 1 diabetes at 
        age 6--an autoimmune disease for which there is no cure, but 
        does have very expensive treatments. When my husband lost his 
        job a few years ago, prior to the Affordable MomsRising.org 
        Care Act, no one would insure us--at any cost. We were denied 
        coverage because of Addie's Type 1 diagnosis. Thanks to the 
        Affordable Care Act, we no longer have to worry about being 
        denied coverage and I can sleep at night knowing that Addie 
        will always have access to her life saving medications--or will 
        she? ''

    While the ACA is not perfect, it has allowed millions of families 
to afford health insurance for the first time. Rather than getting rid 
of the entire program, which would inevitably hurt the health and well-
being of our families and economy, we support building upon the ACA and 
making improvements to it.
    In addition to his opposition to the ACA, Representative Price has 
spent his years in Congress casting votes and proposing legislation 
that opposes Medicaid. Medicaid is a vital health service to millions 
of low-income children, pregnant women, people with disabilities and 
chronic illnesses, and the elderly--including the 70 percent of all 
nursing home residents.\4\
---------------------------------------------------------------------------
    \4\ FamiliesUSA. ``Our Work: Medicaid.'' http://familiesusa.org/
issues/medicaid.
---------------------------------------------------------------------------
    Medicaid is also a boost to our families and our economy. A study 
by the National Bureau of Economic Research found that investments in 
Medicaid strengthen our economy because children who are covered by 
Medicaid insurance receive a boost in their future earnings for 
decades, and in return pay more taxes and pump more money back into 
their local economies.\5\
---------------------------------------------------------------------------
    \5\ National Bureau of Economic Research ``Medicaid as an 
Investment in Children: What is the Long-Term Impact on Tax Receipts? 
'' http://www.nber.org/papers/w20835.
---------------------------------------------------------------------------
    We have heard from hundreds of moms who have families that have 
been kept afloat from Medicaid. Moms like Kelly who writes:

          ``My son Andrew was born premature, 29 weeks, weighing only 1 
        pound 6 ounces. He was in the hospital for 3 months. He had 
        multiple surgeries. My husband and I were both working when my 
        son came early but we were not able to manage the financial 
        burdens that followed. If it wasn't for Medicaid stepping in to 
        pay for his surgeries and NICU he may not have lived.''

    And Lisbeth:

          ``When my mother was diagnosed with Alzheimer's we used her 
        entire Social Security and pension, plus my father's VA pension 
        and Medicaid to cover the cost of a skilled nursing facility. 
        My mother was a nurse for over 30 years and dedicated her life 
        to taking care of others. In turn, she and our whole family 
        relied on Medicaid to take care of her.''

    While Medicaid was helping to bring better health, and literally 
saving the lives, of millions of families, Representative Price has 
proposed budgets that would significantly reduce funding for Medicaid, 
shifting the burden of cost to States, leading to fewer benefits and a 
reduction in the number of people covered.\6\
---------------------------------------------------------------------------
    \6\ New York Times Editorial Board. ``Tom Price, Radical Choice for 
Health Secretary.'' November 30, 2016. https://www.nytimes.com/2016/11/
30/opinion/tom-price-a-radical-choice-for-health-secretary.html.
---------------------------------------------------------------------------
    We need a health secretary who actually shows concern for our 
families' health. It is our fear that if our elected officials were to 
follow Representative Price's lead, we would see millions of people 
without health insurance and a nation that is sicker and less 
productive.
    It is for these reasons that MomsRising members across the country 
oppose Representative Tom Price for Secretary of Health and Human 
Services--and urge your committee to do the same and reject his 
nomination.
            Sincerely,

                                   Kristin Rowe-Finkbeiner,
                             Executive Director/CEO and Co-Founder.

                          NARAL Pro-Choice America,
                                          January 11, 2017.

Hon. Lamar Alexander, Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate.

Hon. Patty Murray, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate.

    Dear Chairman Alexander and Ranking Member Murray: On behalf of 
NARAL Pro-Choice America's one-million member activists, I write to 
express strong opposition to the nomination of Rep. Tom Price for 
secretary for the U.S. Department of Health and Human Services (HHS). 
Given his long record of hostility toward reproductive rights and 
access to basic health-care services, Rep. Price has demonstrated that 
he is not fit to carry out the responsibilities of this position.
    The mission of HHS is ``to enhance the health and well-being of 
Americans by providing for effective health and human services and by 
fostering sound, sustained advances in the sciences underlying 
medicine, public health, and social services.'' \1\ This charge 
inherently includes enhancing the health and well-being of women--and a 
central part of women's health care is reproductive-health care.
---------------------------------------------------------------------------
    \1\ The Department of Health and Human Services website at https://
www.hhs.gov/about/strategic-plan/introduction/index.html# (January 5, 
2017).
---------------------------------------------------------------------------
    However, during his 12 years in the House of Representatives, Rep. 
Price has firmly established his opposition to reproductive-health care 
and the work of many of HHS's agencies and programs by casting 46 anti-
reproductive-health votes.\2\ For example, throughout his tenure in 
Congress, Rep. Price has continuously worked to undermine women's 
access to contraception. He repeatedly voted to defund Planned 
Parenthood health centers\3\ and voted to eliminate the title X family 
planning program. Planned Parenthood and other title X providers not 
only furnish millions of women with birth control, but also deliver 
reproductive-health services ranging from STD testing to breast-cancer 
screenings to millions of men and women.\4\ Ensuring the provision of 
these health services is an integral component of the department's 
work.
---------------------------------------------------------------------------
    \2\ NARAL Pro-Choice America, Congressional Record on Choice, 2005-
16.
    \3\ Pence amendment to fiscal year 2008 Labor, Health and Human 
Services, and Education Appropriations Act, H.R. 3043, 7/19/07; Pence 
amendment to fiscal year 2010 Labor, Health and Human Services, and 
Education Appropriations Act, H.R. 3293, 7/24/09; Pence amendment to 
fiscal year 2011 Continuing Resolution, H.R. 1, 2/18/11; fiscal year 
2011 Continuing Resolution, H.R. 1, 2/19/11; Enrollment resolution to 
fiscal year 2011 Continuing Resolution, H. Con. Res. 36, 4/14/11; 
Defund Planned Parenthood Act, H.R. 3134, 9/18/15; Women's Public 
Health and Safety Act, H.R. 3495, 9/29/15; fiscal year 2016 Continuing 
Resolution, H. Con. 79, 9/30/15; Restoring Americans' Healthcare 
Freedom Reconciliation Act, H.R. 3762, 10/23/15; H.R. 3762, 1/6/16; 
Veto override of H.R. 3762, 2/2/16.
    \4\ Fiscal year 2011 Continuing Resolution, H.R. 1, 2/19/11.
---------------------------------------------------------------------------
    Rep. Price also vehemently opposes the Affordable Care Act 
(ACA),\5\ which has been transformational in improving women's access 
to basic health care by ensuring coverage and affordability of 
maternity care, family planning services, and other reproductive-health 
services. Rep. Price has authored legislation and repeatedly voted to 
repeal the ACA, and has particularly targeted the contraceptive-
coverage policy,\6\ despite its broad popularity and positive impact on 
women's lives.
---------------------------------------------------------------------------
    \5\ Empowering Patients First Act, H.R. 2300, 114th Cong. (2015); 
Press Release, Price Statement on Obamacare Repeal, Feb. 3, 2016, 
available at https://tomprice.house.gov/press-release/price-statement-
obamacare-repeal (last visited Dec. 5, 2016).
    \6\ Brief Amicus Curiae of 207 Members of Congress in Support of 
Petitioners, David Zubik, et al. v. Sylvia Burwell, Secretary of et 
al., 2015 WL 39475865 (U.S.).
---------------------------------------------------------------------------
    Moreover, Rep. Price opposes a woman's constitutional right to 
legal abortion, cosponsoring so-called ``personhood'' legislation that 
would--if it went into effect--make abortion illegal nationwide in 
almost all cases, and ban some of the most common forms of 
contraception, along with stem-cell research and in vitro 
fertilization.\7\ Many of these health services and research areas fall 
within HHS' jurisdiction; Rep. Price's position puts him directly at 
odds with these activities--not to mention far outside the mainstream 
of American public opinion.
---------------------------------------------------------------------------
    \7\ H.R. 552, 2/2/05.
---------------------------------------------------------------------------
    All told, someone who opposes so much of the department's work 
simply cannot successfully fulfill its mission. Rep. Price's extreme 
opposition to reproductive rights and health make him unfit for the 
position of secretary of HHS. I urge you to oppose Rep. Price for this 
office.
            Sincerely,
                                            Ilyse G. Hogue,
                                                         President.

          National Center for Transgender Equality,
                                      Washington, DC 20036,
                                                 December 24, 2016.

Hon. Lamar Alexander, Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

Hon. Patty Murray, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

    Dear Senators: On behalf of the more than one million transgender 
Americans, the National Center for Transgender Equality writes to 
express our strong opposition to the confirmation of Congressman Tom 
Price to serve as Secretary of the Department of Health and Human 
Services (HHS). We also wish to convey our deep opposition to the 
effort to repeal the core elements of the Affordable Care Act, 
privatize Medicare and cap Medicaid funding to the States.
    HHS's mission is to ``enhance and protect the health and well-being 
of all Americans.'' Rep. Price's record stands in stark contrast to 
this mission. His repeated efforts to strip health insurance from 
millions of people and eliminate consumer protections in health care 
represent not only an attack on the very programs he has been nominated 
to oversee, but also an attack on some of the Nation's most vulnerable 
people. Efforts to cut billions and limit eligibility for Medicare and 
Medicaid at the expense of poor, disabled, and elderly Americans are of 
particular concern to NCTE. In 2015 NCTE conducted a national survey of 
nearly 28,000 transgender adults, which found that transgender 
Americans are twice as likely to live in poverty, making them 
particularly vulnerable to such radical cutbacks.
    Price's long history of extremely divisive views and comments 
toward lesbian, gay, bisexual, and transgender people, immigrants and 
their children, and other communities--including his past statements 
that efforts to provide equal opportunity for LGBT people would harm 
public health because of their ``outside the norm'' ``lifestyles''--
indicate he will not work to protect ``all Americans.'' Price has voted 
to permit refusing services to domestic violence victims because they 
are LGBT, and sought to ban the most common forms of contraception.
    Price's views are far from the mainstream, and we consider him to 
be unfit to lead an agency that has such a profound impact on the 
health and well-being of every person and family in the Nation. We urge 
you to reject his confirmation.

            Sincerely,
                                             Mara Keisling,
                                                Executive Director.

           National Council of Jewish Women (NCJW),
                                          January 20, 2017.

Hon. Lamar Alexander, Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

Hon. Patty Murray, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

    Dear Chairman Alexander and Ranking Member Murray: On behalf of the 
National Council of Jewish Women (NCJW), and its 90,000 members and 
supporters nationwide, I write to share serious concerns about the 
nomination of Representative Tom Price (R-GA) to be the next Secretary 
of Health and Human Services (HHS). NCJW is a grassroots organization 
of volunteers and advocates who turn progressive ideals into action. 
Inspired by Jewish values, NCJW strives for social justice by improving 
the quality of life for women, children, and families and by 
safeguarding individual rights and freedoms.
    Rep. Price's record shows he opposes several values that are 
fundamental to the diverse constituency that NCJW represents and 
serves. NCJW is firmly committed to pursing justice, breaking down 
barriers that threaten our neighbor's moral autonomy, health, economic 
security, or well-being particularly for those who face structural 
obstacles to exercising those basic rights. We believe each of us is of 
equal worth. Everyone person deserves the ability to care for their 
bodies, health, and families per their own faith, regardless of income, 
gender, age, race, or other factors. Guided by these values, NCJW 
further believes that each of us deserves access to quality, 
comprehensive health care without risking other basic needs; the 
ability to make personal decisions without interference; respect for 
religious liberty; as well as dignity and compassion.
    NCJW urges you to reject Rep. Price's confirmation to the critical 
cabinet post of Secretary of the U.S. Department of Health and Human 
Services. His leadership could threaten the health and well-being of 
millions, most harming those struggling to make ends meet, 
disproportionately including women, people of color, and others already 
experiencing barriers to health care.
    Throughout his career, Rep. Price has demonstrated contempt for the 
majority consensus that we all deserve access to affordable, quality 
health coverage, regardless of gender, income, race, or other factors. 
Championing legislation to dismantle the Affordable Care Act (ACA), 
Rep. Price drafted a proposal that would leave individuals without 
affordable, quality coverage. Experts from the Center on Budget and 
Policy Priorities estimated his ACA replacement plan could alarmingly 
take away insurance or access to care from millions who have gained it 
thanks to the health reform law. Further, the Congressman has led 
efforts to gut social safety net programs, including Medicaid and 
Medicare. For example, Price-supported proposals to institute deeply 
harmful cuts to Medicaid would force States to eliminate critical 
health benefits or reduce program eligibility; individuals and families 
would be forced to choose between their health, financial future, or 
other essentials. Such efforts would most harm the health and economic 
security of individuals struggling to get by, falling hardest on women 
and women of color.
    Rep. Price is also dangerously out of touch with women's health 
needs. He expressed troubling skepticism about women facing barriers to 
contraception, wrongly declaring that ``not one'' woman has experienced 
such obstacles--despite clear data to the contrary. Research shows that 
more than half of women between 18-34 years old, including Latina and 
African American women, faced cost barriers to prescription birth 
control; thanks to the ACA, 55 million women have gained affordable 
access to the birth control that works best for them. Rep. Price has 
further cosponsored legislation to bar access to comprehensive 
reproductive health care and coverage, supporting measures to push safe 
abortion out of reach. Making abortion more difficult to access can 
have far-reaching consequences on a woman and her family. Yet Rep. 
Price maintains support for policies such as bans on abortion coverage 
that make this critical health care harder to obtain, especially 
harming individuals struggling to make ends meet.
    Relatedly, Price has led bills to restrict access to comprehensive 
care while imposing a single religious viewpoint on everyone. For 
instance, he sponsored a proposal to enshrine into law one faith 
perspective about when life begins as well as a bill to permit doctors, 
insurers, and other health entities to use religion to discriminate by 
denying care or coverage that doesn't align with their faith. As a 
Jewish organization, NCJW cherishes our country's foundational right to 
religious liberty. We respect each person's right to hold their own 
religious beliefs and to make personal decisions about their health 
accordingly. We ask no less for ourselves. Backing these measures--
which could outlaw several forms of birth control and other key 
services--indicates Price would not only place a woman's health in 
jeopardy by denying care, but defy our Nation's bedrock principle of 
religious liberty. His leadership could let politicians interfere in an 
individual's ability to make personal health decisions according to 
their own beliefs and values.
    Also of deep concern is Rep. Price's opposition to the principle 
that we all deserve fair treatment under the law--a belief that could 
leave people without protection from health system discrimination. The 
Congressman has consistently worked against efforts to make existing 
law more inclusive. Rejecting values that affirm compassion and the 
dignity of all people, he voted against the Matthew Shepherd and James 
Byrd. Jr Hate Crimes Prevention Act and opposed reauthorization of the 
Violence Against Women Act. Given this record, Rep. Price's HHS 
leadership could mean women, immigrants, people who are lesbian, gay, 
bisexual, transgender, gender-nonconforming, or queer (LGBTQ), and 
others experiencing barriers to health and safety might be refused 
health care, safety, or related services simply because of their 
gender, sexual orientation, immigration status or other factors.
    The cabinet member who leads the Department of Health and Human 
Services must be committed to advancing access to affordable, quality 
health care for all, and the basic ideals that we each deserve dignity, 
fair treatment, compassion, and respect to make our own personal, 
faith-informed decisions about our health and future--regardless of 
income, gender, race, or any other factor. Rep. Price's record shows he 
rejects these values and commitments.
    NCJW fears Rep. Price would threaten the health and well-being of 
individuals and families nationwide and thus respectfully urges you to 
reject his confirmation as HHS Secretary.
            Sincerely,
                                          Nancy K. Kaufman,
                             CEO, National Council of Jewish Women.

        National Institute for Reproductive Health,
                                                  January 16, 2017.

Hon. Lamar Alexander, Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

Hon. Patty Murray, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

    Dear Chairman Alexander and Ranking Member Murray: The National 
Institute for Reproductive Health is a non-profit advocacy organization 
working across the country to increase access to reproductive health 
care and seeks to preserve women's right to affordable and accessible 
abortion and contraception as part of the comprehensive range of health 
services that each person needs and deserves. We write in opposition to 
Representative Tom Price's nomination to serve as our Nation's 
Secretary of Health and Human Services.
    The mission of the Department of Health and Human Services (HHS) is 
``to enhance and protect the health and well-being of all Americans.'' 
\1\ Representative Price's record indicates that he would not serve the 
stated mission of HHS.
---------------------------------------------------------------------------
    \1\ U.S. Dept. of Health and Human Services. ``About Us.'' 
Retrieved 12 January 17, from https://www.hhs.gov/about/index.html#.
---------------------------------------------------------------------------
    During his 11 years in Congress, Representative Price has 
consistently championed policies that would undermine the health and 
well-being of women. He has worked to weaken the same programs that he 
has been nominated to oversee--programs that tens of millions of 
people--and disproportionately women--rely on to protect their health 
and the health and well-being of their families. His record should 
disqualify him for the office of HHS Secretary.
    Specifically, we are deeply concerned about the Congressman's 
extreme opposition to abortion care and access to contraception; his 
opposition to the Affordable Care Act (ACA); and his commitment to 
undermining Medicaid, Medicare and other key parts of our Nation's 
social safety net.
    Rep. Price's extreme record on reproductive health care alone 
should disqualify him for the job. Rep. Price has co-sponsored 
legislation that would outlaw abortion, stem cell research, forms of 
contraception, and in vitro fertilization.\2\ He has vigorously opposed 
women's constitutionally recognized right to abortion care, voting 
repeatedly and consistently to: deny abortion coverage for women with 
private health insurance,\3\ withhold such coverage from low-income 
women,\4\ and ban abortion care nationwide as early as 20 weeks.\5\ He 
has voted multiple times in favor of the Select Panel to investigate 
abortion providers, a partisan witch-hunt that has harassed and 
endangered researchers and abortion providers.\6\
---------------------------------------------------------------------------
    \2\ The Right to Life Act, H.R. 552 (2 February 2005).
    \3\ Stupak amendment to the Health Care for America Act, H.R. 3962, 
(7 November 2009); Camp motion to recommit Health Care and Education 
Reconciliation Act, H.R. 4872, (21 March 2010); No Taxpayer Funding for 
Abortion Act, H.R. 3, (4 May 2011); Protect Life Act, H.R. 358, (13 
October 2011); No Taxpayer Funding for Abortion Act, H.R. 7, (28 
January 2014); No Taxpayer Funding for Abortion Act, H.R. 7, (22 
January 2015).
    \4\ No Taxpayer Funding for Abortion Act, H.R.  3, (4 May 2011); No 
Taxpayer Funding for Abortion Act, H.R. 7, (28 January 2014); No 
Taxpayer Funding for Abortion Act, H.R. 7, (22 January 2015).
    \5\ ``Pain-Capable'' Unborn Child Protection Act, H.R. 3808, (31 
July 2012); ``Pain-Capable'' Unborn Child Protection Act, H.R. 1797, 
(18 June 2013); Motion to recommit the ``Pain-Capable'' Unborn Child 
Protection Act, H.R. 36, (13 May 2015); ``Pain-Capable'' Unborn Child 
Protection Act, H.R. 36, (13 May 2015).
    \6\ H.Res. 461, (7 October 2015); H.Res. 933, (1 December 2016).
---------------------------------------------------------------------------
    Rep. Price is a proven opponent of access to family planning 
services, no matter the public health impact. He has repeatedly voted 
to defund Planned Parenthood,\7\ which provides essential preventive 
health services like cancer screenings, birth control, STI testing, and 
HIV testing to 2.5 million people annually. Defunding Planned 
Parenthood and barring Federal funds for family planning services to 
any health entity that also provides abortion will have a 
disproportionate impact on communities that historically face systemic 
barriers to care--people of color, people living in rural areas, and 
people with low incomes.\8\ He has also voted to eliminate title X, our 
Nation's family planning program, which provides millions of people 
with basic health care services.\9\
---------------------------------------------------------------------------
    \7\ Pence amendment to fiscal year 2008 Labor, Health and Human 
Services, and Education Appropriations Act, H.R. 3043, (19 July 2007); 
Pence amendment to fiscal year 2010 Labor, Health and Human Services, 
and Education Appropriations Act, H.R. 3293, (24 July 2009); Pence 
amendment to fiscal year 2011 Continuing Resolution, H.R. 1, (18 
February 2011); fiscal year 2011 Continuing Resolution, H.R. 1, (19 
February 2011); Enrollment resolution to fiscal year 2011 Continuing 
Resolution, H.Con.Res. 36, (14 April 2011); Defund Planned Parenthood 
Act, H.R. 3134, (18 September 2015); Women's Public Health and Safety 
Act, H.R. 3495, (29 September 2015); Fiscal year 2016 Continuing 
Resolution, H.Con. 79, (30 September 2015); Restoring Americans' 
Healthcare Freedom Reconciliation Act, H.R. 3762, (23 October 2015); 
H.R. 3762, (6 January 2016); Veto override of H.R. 3762, (2 February 
2016).
    \8\ Planned Parenthood Federation of America. (2016). The Urgent 
Need for Planned Parenthood Health Centers. Retrieved 13 January 2017, 
from https//www.plannedparenthood.org/files/4314/8183/5009/
20161207_Defunding_fs_d01_1.pdf.
    \9\ Fiscal year 2011 Continuing Resolution, H.R. 1, (19 February 
2011).
---------------------------------------------------------------------------
    In addition to specifically targeting women's access to abortion 
and contraception, Rep. Price has made clear his opposition to 
affordable health care for everyone. The Affordable Care Act has 
improved the lives of tens of millions of people. It has enabled nearly 
9.5 million previously uninsured women to gain access to affordable, 
comprehensive health care coverage.\10\ Millions now have the peace of 
mind of knowing that if they or their family members have a health 
emergency they will be able to afford care. Fifty-five million women 
have benefited from the ACA's coverage of preventive services, 
including well-woman visits, screening for domestic violence, 
contraceptive methods and counseling, and breastfeeding support, among 
others.\11\
---------------------------------------------------------------------------
    \10\ U.S. Dept. of Health and Human Services, Office of the Asst. 
Secretary for Planning and Evaluation. (2016, March). Health Insurance 
Coverage and the Affordable Care Act, 2010-2016. Retrieved 12 January 
2017, from https://aspe.hhs.gov/sites/default/files/pdf/187551/ACA2010-
2016.pdf.
    \11\ U.S. Dept. of Health and Human Services. (2015, May). The 
Affordable Care Act is Improving Access to Preventive Services for 
Millions of Americans. Retrieved 12 January 2017, from 
https:..aspe.hhs.gov/pdf-report/affordable-care-act-improving-access-
preventive-services-millions-americans.
---------------------------------------------------------------------------
    If confirmed, Rep. Price would roll back these important gains for 
women and families and strip beneficiaries of important protections 
concerning access to coverage and care. His record on these issues is 
clear. Rep. Price has voted over 60 times to repeal the ACA.\12\
---------------------------------------------------------------------------
    \12\ Planned Parenthood Federation of America. (2016, November). 
Tom Price, Trump's Pick to Lead HHS, Would Take Away Millions of 
Women's Health Care. Retrieved 12 January 2017, from https://
www.plannedparenthoodaction.org/blog/tom-price-trumps-pick-to-lead-hhs-
would-take-away-millions-of-womens-access-to-health-care.
---------------------------------------------------------------------------
    Rep. Price's opposition to affordable health care extends beyond 
the ACA. His appointment represents a serious threat to Medicaid and 
Medicare. Rep. Price has specifically targeted low-income women and 
families by seeking to cut funding for Medicaid and to eviscerate the 
program through the use of block grants and per capita caps.\13\ 
Millions of women rely on Medicaid for care throughout their lives--
from reproductive and maternal health services to nursing home care. 
Block granting or capping Medicaid would devastatingly undermine the 
critical role that Medicaid plays in supporting the health and well-
being of millions of people in this country.
---------------------------------------------------------------------------
    \13\ Ibid.
---------------------------------------------------------------------------
    In addition to his attacks on Medicaid, Rep. Price has sought to 
severely undermine the Medicare safety net, which has delivered life-
saving health care and coverage to millions of older adults--the 
majority of whom are women--and people with disabilities, who otherwise 
could not afford it. Instead of working to strengthen this vital 
American institution, as the next HHS Secretary should, Rep. Price 
would weaken Medicare through privatization.\14\
---------------------------------------------------------------------------
    \14\ A Better Way Our Vision for a More Confident America--Health 
Care. (22 June 2016). Retrieved 13 January 2017, from http://
abetterway.speaker.gov/_assets/pdf/ABetterWay-HealthCare-
PolicyPaper.pdf; Rep. Tom Price. (22 June 2016). A Better Way to Fix 
Health Care [Press Release]. Retrieved 13 January 2017, from https://
tomprice.house.gov/press-release/better-way-fix-health-care.
---------------------------------------------------------------------------
    Rep. Tom Price would clearly take our health care system backward. 
We urge you to reject this nominee.
            Sincerely,

                                             Andrea Miller,
                                                         President.

 National Latina Institute For Reproductive Health,
                                          January 16, 2017.

U.S. Senate,
Committee on Health, Education, Labor, and Pensions,
428 Senate Dirksen Office Building,
Washington, DC 20510.

    Dear Member of the Senate Committee on Health, Education, Labor, 
and Pensions: National Latina Institute for Reproductive Health [NLIRH] 
writes to express its strong opposition to the confirmation of Tom 
Price as Secretary of Health and Human Services. NLIRH is the only 
national reproductive justice organization dedicated to building Latina 
power to advance health, dignity, and justice for 28 million Latinas, 
their families, and communities in the United States through leadership 
development, community mobilization, policy advocacy, and strategic 
communications. The Secretary of Health and Human Services is the 
Nation's most senior official tasked with enhancing and protecting the 
health and well-being of all communities in the United States. Mr. 
Price's record is entirely inconsistent with the mandate of the U.S. 
Department of Health and Human Services (HHS).
    Mr. Price has consistently attacked the Affordable Care Act (ACA), 
landmark legislation that has improved access to healthcare for the 
Latinos/a community in the United States. In the 114th Congress, Mr. 
Price introduced the Empowering Patients First Act, which if passed, 
would have repealed the ACA and replaced it with a plan that would harm 
those who are struggling to make ends meet and those who are ill.\1\ 
Due to the ACA, over 4 million Latinos/as were able to gain 
coverage.\2\ In fact, 71 percent of Latino/a registered voters before 
the 2016 election said that the ACA is working well and should remain 
as it is or that it is working well and can be improved by decreasing 
out-of-pocket costs.\3\ The ACA has opened the door to meaningful 
access to affordable, quality, culturally competent health coverage and 
care, including reproductive healthcare, for Latinos/as. The gains 
communities of color have made under the ACA will be reversed if Mr. 
Price is confirmed.
---------------------------------------------------------------------------
    \1\ Empowering Patients First Act, H.R. 2300, 114th Cong. (2015).
    \2\ U.S. Department of Health and Human Services. The ACA is 
Working for the Latino Community. July 21, 2016. http://www.hhs.gov/
healthcare/facts-and-features/fact-sheets/aca-working-latino-community/
index.html?language=es.
    \3\ National Council of La Raza and Latino Decisions. Press 
Briefing: The Views of Latinos on the Economy, Health Care, and the 
2016 Election. October 27, 2016. http://publications.nclr.org/
bitstream/handle/123456789/1641/
theviewsoflatinosontheeconomyhealthcareand
2016election.pdf?sequence=l&isAllowed=y.
---------------------------------------------------------------------------
    Mr. Price's record reflects xenophobic sentiments. Mr Price is a 
member of the Association of American Physicians and Surgeons 
(AAPS).\4\ In 2005, the namesake journal of this organization published 
an article advocating for rescinding the citizenship of individuals 
born in the United States whose parents are foreign-born.\5\ Mr. Price 
has also cosponsored H.R. 1940. the Birthright Citizenship Act of 2007, 
in the 110th Congress which would deny citizenship to some who are born 
here in the United States of immigrant parents.\6\ His support of anti-
immigrant legislation will impact the ability of HHS to engage in 
health issues concerning immigrant communities in this country.
---------------------------------------------------------------------------
    \4\ John Commins, AAPS Membership May be Liability for Price, Says 
Group's Leader, Health Media Leaders, Dec. 7, 2016. http://
www.healthleadersmedia.com/physician-leaders/aaps-membership-may-be-
liability-price-says-groups-leader#.
    \5\ Madeleine Pelner Cosman, Illegal Aliens and American Medicine, 
Journal of American Physicians and Surgeons, 10(1); 9, 2005. Available 
at: http://www.jpands.org/vol10no1/cosman.pdf.
    \6\ Birthright Citizenship Act of 2007, H.R. 1940, 110th Cong. 
(2007).
---------------------------------------------------------------------------
    Mr. Price's hostile views regarding the LGBTQ community would 
undermine the important work that the ACA has achieved in advancing the 
health and dignity of LGBTQ individuals. Under the Obama 
administration, the ACA's nondiscrimination provision has been 
interpreted to include protections on the basis of gender identity.\7\ 
Additionally, in 2015, preventive services under the ACA were clarified 
so that transgender persons would have access to these services 
regardless of their gender identity, sex assigned at birth, or recorded 
gender.\8\ Mr. Price has voted against legislation that would ban 
employment discrimination on the basis of sexual orientation\9\ and 
legislation that would fight hate crimes.\10\ Recently, he called the 
Obama administration's guidelines allowing transgender students to use 
the bathroom that aligns with their gender identity as ``absurd.'' \11\ 
If confirmed, the important gains in health equity for the LGBTQ 
community will dissipate, leading to severe health disparities.
---------------------------------------------------------------------------
    \7\ Nondiscrimination in Health Programs and Activities, 81 Fed. 
Reg. 31375 45 CFR 92 (May 18, 2016).
    \8\ U.S. Department of Health and Human Services, Advancing LGBT 
Health and Well-being: 2016 Report of the HHS LGBT Policy Coordinating 
Committee, Dec. 6, 2016, https://www.hhs.gov/programs/topic-sites/lgbt/
reports/health-objectives-2016.html.
    \9\ Employment Non-Discrimination Act of 2007, H.R. 3685, 110th 
Cong. (2007).
    \10\ Local Law Enforcement Hate Crimes Prevention Act of 2009, H.R. 
1913, 111th Cong. (2009).
    \11\ Matt Hennie, Transgender Bathroom Backlash Grows in Georgia, 
Project Q Atlanta, May 16, 2016, http://www.projectq.us/atlanta/
transgender_bathroom_backlash_grows_in_
georgia?gid=17800.
---------------------------------------------------------------------------
    Mr. Price has consistently supported efforts to undermine a woman's 
ability to make personal, reproductive healthcare decisions. As a 
member of the House of Representatives, he has cast anti-choice votes 
on access to abortion care and coverage and other reproductive health 
issues.\12\ His support of anti-choice legislation only further harms 
women of color who face multiple challenges in accessing quality, 
affordable reproductive health services. For example, due to barriers 
to healthcare, Latinas face the highest rates of cervical cancer 
incidence and Black women face the highest cervical cancer mortality 
rates.\13\ His objection to the contraceptive coverage benefit on the 
grounds of religious liberty\14\ ignores the fact that women of color 
had previously struggled to afford this care.\15\ Mr. Price will 
undoubtedly continue to support anti-choice policies as head of HHS.
---------------------------------------------------------------------------
    \12\ NARAL Pro-Choice America, Congressional Record on Choice, 
2005-16.
    \13\ Centers for Disease Control and Prevention. Cervical Cancer 
Rates by Race and Ethnicity. August 20, 2015. The U.S. Department of 
Health and Human Services. Available at http://www.cdc.gov/cancer/
cervical/statistics/race.htm.
    \14\ Olga Khazan, Tom Price: ``Not One'' Woman Struggled to Afford 
Birth Control, The Atlantic, Nov. 29, 2016. http://www.theatlantic.com/
health/archive/2016/11/tom-price-not-one-woman-cant-afford-birth-
contro1/509003/.
    \15\ Planned Parenthood Federation of America. Survey: Nearly Three 
in Four Voters in America Support Fully Covering Prescription Birth 
Control. https://www.plannedparenthood.org/about-us/newsroom/press-
releases/survey-nearly-three-four-voters-america-support-fully-covering
-prescription-birth-control. Accessed on December 12, 2016.
---------------------------------------------------------------------------
    As Secretary of HHS, Mr. Price would undermine and reverse the 
gains this country has made in advancing access to quality, affordable 
health care, including reproductive health care, for communities of 
color, LGBTQ communities, and women of color. If confirmed, the 
policies Mr. Price pursues will severely harm Latinas and their 
families.
    Accordingly, we strongly encourage the committee to oppose the 
confirmation of Mr. Price as Secretary of HHS.
            Sincerely,

                                    Jessica Gonzalez-Rojas,
                     Executive Director, National Latina Institute 
                                           for Reproductive Health.

                National Network of Abortion Funds,
                                          January 16, 2017.

Hon. Lamar Alexander, Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

Hon. Patty Murray, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

    Dear Chairman Alexander and Ranking Member Murray: The National 
Network of Abortion Funds builds power with members to remove financial 
and logistical barriers to abortion access by centering people who have 
abortions and organizing at the intersections of racial, economic, and 
reproductive justice. We envision a world where every reproductive 
decision, including abortion, takes place in thriving communities that 
are safe, peaceful, and affordable. We envision a world where all 
people have the power and resources to care for and affirm their 
bodies, identities, and health for themselves and their families--in 
all areas of their lives. As we shift the conversation about abortion, 
it will become a real option, accessible without shame or judgment.
    We write in strong opposition to Representative Tom Price's 
nomination to serve as our Nation's Secretary of Health and Human 
Services.
    The mission of the Department of Health and Human Services (HHS) is 
``to enhance and protect the health and well-being of all Americans.'' 
\1\ Representative Price's record indicates that he would not serve the 
stated mission of HHS.
---------------------------------------------------------------------------
    \1\ U.S. Dept. of Health and Human Services. ``About Us.'' 
Retrieved 12 January 17, from https://www.hhs.gov/about/index.html#.
---------------------------------------------------------------------------
    During his 11 years in Congress, Representative Price has 
consistently championed policies that would undermine the health and 
well-being of women. He has worked to weaken the same programs that he 
has been nominated to oversee--programs that tens of millions of people 
rely on to protect the health of their families. His record should 
disqualify him for the office of HHS Secretary.
    Specifically, we are deeply concerned about the Congressman's 
opposition to the Affordable Care Act (ACA); his commitment to 
undermining Medicaid, Medicare and other key parts of our Nation's 
social safety net; and his extreme opposition to abortion care and 
access to contraception.
    The Affordable Care Act has improved the lives of tens of millions 
of people. It has enabled nearly 9.5 million previously uninsured women 
to gain access to affordable, comprehensive health care coverage.\2\ 
Millions now have the peace of mind of knowing that if they or their 
family members have a health emergency they will be able to afford 
care. Fifty-five million women have benefited from the ACA's coverage 
of preventive services, including well-woman visits, screening for 
domestic violence, contraceptive methods and counseling, and breast 
feeding support, among others.\3\
---------------------------------------------------------------------------
    \2\ U.S. Dept. of Health and Human Services, Office of the Asst. 
Secretary for Planning and Evaluation. (2016, March). Health Insurance 
Coverage and the Affordable Care Act, 2010-2016. Retrieved 12 January 
2017, from https://aspe.hhs.gov/sites/default/files/pdf/187551/ACA2010-
2016.pdf.
    \3\ U.S. Dept. of Health and Human. Services. (2015, May). The 
Affordable Care Act is Improving Access to Preventive Services for 
Millions of Americans. Retrieved 12 January 2017, from https://
aspe.hhs.gov/pdf-report/affordable-care-act-improving-access-
preventive-services-millions-americaas.
---------------------------------------------------------------------------
    If confirmed, Rep. Price would roll back these important gains for 
women and families and strip beneficiaries of important protections 
concerning access to coverage and care. His record on these issues is 
clear. Rep. Price has voted over 60 times to repeal the ACA.\4\
---------------------------------------------------------------------------
    \4\ Classed Parenthood Federation of America. (2016, November). Tom 
Price, Trump's Pick to Lead HHS, Would Take Away Millions of Women's 
Health Care. Retrieved 12 January 2017, from https://
www.plannedparenthoodaction.org/blog/tom-price-trumps-pick-to-lead-hhs-
would-take-away-millions-of-womens-access-to-health-care.
---------------------------------------------------------------------------
    Rep. Price's opposition to affordable health care extends beyond 
the ACA. His appointment represents a serious threat to Medicare and 
Medicaid. Medicare has delivered life-saving health care and coverage 
to millions of older adults--the majority of whom are women--and people 
with disabilities, who otherwise could not afford it. Instead of 
working to strengthen this vital American institution, as the next HHS 
Secretary should, Rep. Price would weaken Medicare through 
privatization.\5\
---------------------------------------------------------------------------
    \5\ A Better Way: Our Vision for a More Confident America--Health 
Care. (22 June 2016). Retrieved 13 January 2017, from http://
abetterway.speaker.gov/_assets/pdf/ABetterWay-HealthCare-
PolicyPaper.pdf; Rep. Tom Price. (22 June 2016). A Better Way to Fix 
Health Care (Press Release]. Retrieved 13 January 2017, from https://
tomprice.house.gov/press-release/better-way-fix-health-care.
---------------------------------------------------------------------------
    In addition to his attacks on Medicare, Rep. Price has also 
targeted low-income women and families by seeking to cut funding for 
Medicaid and to eviscerate the program through the use of block grants 
and per capita caps.\6\ Millions of women rely on Medicaid for care 
throughout their lives--from reproductive and maternal health services 
to nursing home care. Block granting or capping Medicaid would 
devastatingly undermine the critical role that Medicaid plays in 
supporting the health and well-being of millions of people in this 
country.
---------------------------------------------------------------------------
    \6\ Ibid.
---------------------------------------------------------------------------
    Finally, Rep. Price's extreme record on reproductive health care 
alone should disqualify him for the job. Rep. Price has co-sponsored 
legislation that would outlaw abortion, stem cell research, forms of 
contraception, and in vitro fertilization.\7\ He has vigorously opposed 
women's constitutionally recognized right to abortion care, voting to: 
deny abortion coverage for women with private health insurance,\8\ ban 
abortion care as early as 20 weeks,\9\ and deny low-income women 
coverage for abortion care.\10\ He has voted multiple times in favor of 
the Select Panel to investigate abortion providers, a partisan witch-
hunt that has harassed and endangered researchers and abortion 
providers.\11\
---------------------------------------------------------------------------
    \7\ The Right to Life Act, H.R. 552 (2 February 2005).
    \8\ Stupak amendment to the Health Care for America Act, H.R. 3962, 
(7 November 2009); Camp motion to recommit Health Care and Education 
Reconciliation Act, H.R. 4872, (21 March 2010); No Taxpayer Funding for 
Abortion Act, H.R. 3, (4 May 2011); Protect Life Act, H.R. 358, (13 
October 2011); No Taxpayer Funding for Abortion Act, H.R. 7, (28 
January 2014); No Taxpayer Funding for Abortion Act, H.R. 7, (22 
January 2015).
    \9\ ``Pain-Capable'' Unborn. Child Protection Act, H.R. 3808, (31 
July 2012); ``Pain-Capable'' Unborn Child Protection Act, H.R. 1797, 
(18 June 2013); Motion to recommit the ``Pain-Capable'' Unborn Child 
Protection Act, H.R. 36, (13 May 2015); ``Pain-Capable'' Unborn Child 
Protection Act, H.R. 36, (13 May 2015).
    \10\ No Taxpayer Funding for Abortion Act, H.R. 3, (4 May 2011); No 
Taxpayer Funding for Abortion. Act, H.R. 7, (28 January 2014); No 
Taxpayer Funding for Abortion Act, H.R. 7, (22 January 2015).
    \11\ H.Res. 461, (7 October 2015); H.Res. 933, (1 December 2016).
---------------------------------------------------------------------------
    Rep. Price is a proven opponent of access to family planning 
services, no matter the public health impact. He has repeatedly voted 
to defund Planned Parenthood,\12\ which provides essential preventive 
health services like cancer screenings, birth control, STI testing, and 
HIV testing to 2.5 million people annually. Defunding Planned 
Parenthood will have a disproportionate impact on communities that 
historically face systemic barriers to care--people of color, people 
living in rural areas, and people with low incomes.\13\ He has also 
voted to eliminate title X, our Nation's family planning program, which 
provides millions of people with basic health care services.\14\
---------------------------------------------------------------------------
    \12\ Pence amendment to fiscal year 2008 Labor, Health and Human 
Services, and Education Appropriations Act, H.R. 3043, (19 July 2007); 
Pence amendment to fiscal year 2010 Labor, Health and Human Services, 
and Education Appropriations Act, E.R. 3293, (24 July 2009); Pence 
amendment to fiscal year 2011 Continuing Resolution, H.R. 1, (18 
February 2011); fiscal year 2011 Continuing Resolution, H.R. 1, (19 
February 2011); Enrollment resolution to fiscal year 2011 Continuing 
Resolution, H. Con. Res. 36, (14 April 2011); Defund Planned Parenthood 
Act, H.R. 3134, (18 September 2015); Women's Public Health and Safety 
Act, H.R. 3495, (29 September 2015); fiscal year 2016 Continuing 
Resolution, H. Con. 79, (30 September 2015); Restoring Americans' 
Healthcare Freedom Reconciliation Act, H.R. 3762, (23 October 2015); 
H.R. 3762, (6 January 2016); Veto override of H.R. 3762, (2 February 
2016).
    \13\ Planned Parenthood Federation of America. (2116). The Urgent 
Need for Planned Parenthood Health Centers. Retrieved 13 January 2017, 
from https://www.plannedparenthood.org/files/4314/8183/5009/
20161207_Defunding_fs_d01_1.pdf.
    \14\ Fiscal year 2011 Continuing Resolution, H.R. 1, (19 February 
2011).
---------------------------------------------------------------------------
    Rep. Tom Price would clearly take our health care system backward. 
We urge you to reject this nominee.

             National Organization for Women (NOW),
                                      Washington, DC 20005,
                                                  January 17, 2017.

Hon. Lamar Alexander, Chairman,
Senate HELP Committee,
428 Dirksen Senate Office Building,
Washington, DC 20510.

Hon. Patty Murray, Ranking Member,
Senate HELP Committee,
428 Dirksen Senate Office Building,
Washington, DC 20510.

    Dear Chairman Alexander, Ranking Member Murray and committee 
members: On behalf of the National Organization for Women (NOW), the 
largest grassroots feminist activist organization in the United States 
with hundreds of chapters in every State and the District of Columbia 
and hundreds of thousands of members and contributing supporters, we 
wish to state our strong opposition to the confirmation of Rep. Tom 
Price as Secretary of the Department of Health and Human Services.
    First, we are deeply concerned by reports that have recently 
surfaced about Rep. Price's alleged introduction of legislation 
beneficial to a company shortly after he acquired stock in that same 
company. Because these reports raise serious questions whether Rep. 
Price may have violated the law, no hearing should even be taking place 
until all the facts are established and made public.
    Beyond his alleged potential conflicts of interest, Rep. Price's 
record of promoting anti-woman policies, including repeal of the 
Affordable Care Act and defunding Planned Parenthood, should disqualify 
him from this critically important position. Rep. Price's opposition to 
one of the most common medical procedures undergone by women--
abortion--is a special problem. Women's access to legal and safe 
abortion care as well as their ability to obtain affordable 
contraception under the Affordable Care Act, through the Planned 
Parenthood network and other providers, is a vital part of the U.S. 
health care delivery system. Shamefully, Rep. Price appears ready to 
dismantle that network.
    Rep. Price's views on reproductive health are far out of the 
mainstream and would endanger women's lives, halt stem cell research 
into effective treatments for serious diseases, ban abortion at 20 
weeks, prohibit private insurance coverage of abortion care; deny low-
income women coverage for abortion care and prohibit the use of certain 
forms of contraception and in vitro fertilization. As an indication of 
Rep. Price's willingness to abuse elective office, he has voted several 
times to continue the McCarthyesque House Select Investigative Panel, a 
``witch hunt'' led by Republican members which has harassed and 
endangered the safety of women's health care providers and researchers, 
making unsubstantiated and/or simply false claims of wrongdoing against 
them. Rep. Price has stood by as the Panel took actions in 
contravention of House rules.
    Equally concerning is Rep. Price's support for converting Medicare 
to a private voucher system and converting Medicaid to a block-granted 
program with per capita limitations on spending. These moves would 
result in reduced access to health care services and higher out-of-
pocket expenses for seniors, lower income adults and their children as 
well as for persons with disabilities.
    In Rep. Price's efforts to draft an Affordable Care Act replacement 
(and Rep. Paul Ryan's elaboration on Price's proposal) we see a 
suggested plan that would place a higher burden on low- and moderate-
income individuals and families to pay for their health insurance; an 
expansion of Health Savings Accounts which are a boon for Wall Street 
and wealthier persons; a very limited provision for insurance coverage 
of persons with pre-existing health conditions; and, a proposal for 
high risk pools for persons who are not able to get affordable health 
insurance on the private market which we have already seen fail in many 
States due to under-funding. The proposal limits the amount of money 
that companies can deduct from their taxes to discourage them from 
providing ``overly generous'' insurance coverage. In sum, this is a 
plan that would narrow and make far more costly health insurance 
coverage for the vast majority of the public, especially negatively 
affecting current ACA beneficiaries and others who have had difficulty 
paying for health insurance. Not only would these cruel measures fall 
most harshly on the most vulnerable, they would leave the country with 
a system that covers fewer of us while costing more.
    For all of the foregoing reasons, Rep. Price must not be confirmed 
as Secretary of Health and Human Services.
            Sincerely,

                                              Terry O'Neil,
                                                         President.

         National Partnership For Women & Families,
                                              Washington, DC 20009,
                                                  January 13, 2017.

Hon. Lamar Alexander, Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

Hon. Patty Murray, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

    Dear Chairman Alexander and Ranking Member Murray: The National 
Partnership for Women & Families is a nonprofit, nonpartisan 
organization that has fought for decades to strengthen our health care 
system and advance the rights and well-being of women. On behalf of 
women across the country who are the health care decisionmakers for 
themselves and their families, we write in opposition to Representative 
Tom Price's nomination to serve as our Nation's Secretary of Health and 
Human Services.
    The mission of the Department of Health and Human Services (HHS) is 
``to enhance and protect the health and well-being of all Americans.'' 
\1\ We do not believe Representative Price intends to serve the stated 
mission of HHS.
---------------------------------------------------------------------------
    \1\ U.S. Dept of Health and Human Services. ``About Us.'' Retrieved 
12 January 17, from https://www.hhs.gov/about/index.html#.
---------------------------------------------------------------------------
    During his 11 years in Congress, Representative Price has 
consistently championed policies that would undermine the health and 
well-being of women and families. He has worked to weaken the same 
programs that he has been nominated to oversee--programs that tens of 
millions of people rely on to protect the health of their families. It 
is a record that should disqualify him for the office of HHS Secretary.
    Specifically, we are extremely concerned about the Congressman's 
opposition to the Affordable Care Act (ACA); his determination to make 
devastating changes to Medicaid, Medicare and other key parts of our 
Nation's social safety net; and his radical opposition to abortion care 
and access to contraception. Given these concerns, we strongly oppose 
Rep. Price's nomination to oversee implementation of these programs--
programs that are critical to the health and economic security of 
millions of women and their families.
    Since its passage, the Affordable Care Act has indisputably 
improved the lives of tens of millions of people. It has enabled 
millions of previously uninsured women to gain access to affordable, 
comprehensive health care coverage.\2\ Millions of women now have the 
peace of mind of knowing that if they or their family members have a 
health emergency or are due for a wellness check-up, they will be able 
to afford care. Fifty-five million women have also benefited from the 
ACA's coverage of preventive services, including well-woman visits, 
screening for domestic violence, contraceptive methods and counseling, 
and breast feeding support, among others.\3\
---------------------------------------------------------------------------
    \2\ U.S. Dept. of Health and Human Services, Office of the Asst. 
Secretary for Planning and Evaluation. (2016, March). Health Insurance 
Coverage and the Affordable Core Act, 2010-2016. Retrieved 12 January 
2017, from https://aspe.hhs.gov/sites/default/files/pdf/187551/ACA2010-
2016.pdf.
    \3\ U.S. Dept of Health and Human Services. (2015, May). The 
Affordable Care Act is Improving Access to Preventive Services for 
Millions of Americans. Retrieved 12 January 2017, from https://
aspe.hhs.gov/pdf-report/affordable-care-act-improving-access-
preventive-services-millions
-Americans.
---------------------------------------------------------------------------
    Before the ACA, insurance companies could legally deny coverage to 
women because they had survived breast cancer or given birth by 
cesarean section, or had required medical treatment due to domestic 
violence. The ACA put an end to these unethical practices.
    If confirmed, Rep. Price would roll back these important gains for 
women and families and strip beneficiaries of important protections 
that have enhanced access to coverage and care. His record on these 
issues is clear. Rep. Price has voted over 60 times to repeal the 
ACA.\4\ In his zeal to dismantle the law, Rep. Price has even supported 
measures that would again allow insurance companies to reject people 
with pre-existing conditions.\5\
---------------------------------------------------------------------------
    \4\ Planned Parenthood Federation of America. (2016, November). Tom 
Price, Trump's Pick to Lead HHS, Would Take Away Millions of Women's 
Health Care. Retrieved 12 January 2017, from https://
www.plannedparenthoodaction.org/blog/tom-price-trump-pick-to-lead-hhs-
wouId-take-away-millions-of-womens-access-to-health-care.
    \5\ Zachary Bernstein. (2012, May). GA Rep. Price: Opening Health 
Insurance to People With Pre-Existing Conditions Is A ``Terrible 
Idea.'' ThinkProgress. Retrieved 12 January 2017, from https://
thinkprogress.org/ga-rep-price-opening-health-insurance-to-people-with-
pre-existing-conditions-is-a-terrible-idea-125a58acd050#.1yyao56rf.
---------------------------------------------------------------------------
    Rep. Price's opposition to affordable health care extends beyond 
the ACA. His appointment represents a serious threat to Medicare and 
Medicaid. In 2008, Rep. Price wrote ``nothing has had a greater 
negative impact on health care in this country than governmental and 
regulatory intrusion, primarily through Medicare.'' \6\ In fact, the 
opposite is true. Medicare has delivered life-saving health care and 
coverage to millions of older adults--the majority of whom are women--
and people with disabilities, who otherwise could not afford it. 
Medicare is also instrumental in driving the delivery system and 
payment reforms necessary to improve care in the doctor's office and in 
the hospital.
---------------------------------------------------------------------------
    \6\ Rep. Tom Price. (2008, June). Reform of the American Health 
Care System is Still Achievable. Human Events. Retrieved 12 January 
2017, from http://humanevents.com/2008/06/24/reform-of-the-american-
health-care-system-is-still-achievable/.
---------------------------------------------------------------------------
    Instead of working to strengthen this vital American institution, 
as the next HHS Secretary should, Rep. Price would weaken Medicare 
through privatization. Rep. Price supports restructuring Medicare by 
moving the program toward private coverage that would transfer costs to 
patients and make quality health coverage unaffordable for many 
Medicare enrollees on fixed incomes.\7\
---------------------------------------------------------------------------
    \7\ A Better Way: Our Vision for a More Confident America--Health 
Care. (22 June 2016). Retrieved 13 January 2017, from http://
abetterway-speaker.gov/_assets/pdf/ABetterWay-HealthCare-
PolicyPaper.pdf; Rep. Tom Price. (22 June 2016). A Better Way to Fix 
Health Care [Press Release). Retrieved 13 January 2017, from https://
tomprice.house.gov/press-release/better-way-fix-health-care.
---------------------------------------------------------------------------
    In addition to his attacks on Medicare, Rep. Price has also 
targeted low-income women and families by seeking to cut funding for 
Medicaid and to eviscerate the program through the use of block grants 
and per capita caps.\8\ Millions of women rely on Medicaid for care 
throughout their lives--from reproductive and maternal health services 
to nursing home care. Block granting or capping Medicaid would cut 
funding for health coverage for underserved populations and allow 
States to limit enrollment and benefits, undermining the critical role 
that Medicaid plays in supporting the health and well-being of millions 
of people in America.
---------------------------------------------------------------------------
    \8\ Ibid.
---------------------------------------------------------------------------
    Finally, Rep. Price's radical record on women's health and 
reproductive health care alone should disqualify him for the job of 
America's top public health and family planning official. Rep. Price 
has co-sponsored legislation that would outlaw abortion, stem cell 
research, some forms of contraception and in vitro fertilization.\9\ He 
has vigorously opposed women's constitutionally recognized right to 
abortion care, repeatedly voting to deny abortion coverage for women 
with private health insurance,\10\ ban abortion care as early as 20 
weeks\11\ and deny low-income women coverage for abortion care.\12\
---------------------------------------------------------------------------
    \9\ The Right to Life Act, H.R. 552 (2 February 2005).
    \10\ Stupak amendment to the Health Care for America Act, H.R. 
3962, (7 November 2009); Camp motion to recommit Health Care and 
Education Reconciliation Act, H.R. 4872, (21 March 2010); No Taxpayer 
Funding for Abortion Act, H.R. 3, (4 May 2011); Protect Life Act, H.R. 
358, (13 October 2011); No Taxpayer Funding for Abortion Act, H.R. 7, 
(28 January 2014); No Taxpayer Funding for Abortion Act, H.R. 7, (22 
January 2015).
    \11\ ``Pain-Capable'' Unborn Child Protection Act, H.R. 3808, (31 
July 2012); ``Pain-Capable'' Unborn Child Protection Act, H.R. 1797, 
(18 June 2013); Motion to recommit the ``Pain-Capable'' Unborn Child 
Protection Act, H.R. 36, (13 May 2015); ``Pain-Capable'' Unborn Child 
Protection Act, H.R. 36, (13 May 2015).
    \12\ No Taxpayer Funding for Abortion Act, H.R. 3, (4 May 2011); No 
Taxpayer Funding for Abortion Act, H.R. 7, (28 January 2014); No 
Taxpayer Funding for Abortion Act, H.R. 7, (22 January 2015).
---------------------------------------------------------------------------
    Recently, he voted multiple times in favor of the Select Panel to 
investigate abortion providers, a partisan witch-hunt that has harassed 
and endangered researchers and abortion providers.\13\
---------------------------------------------------------------------------
    \13\ H.Res.461, (7 October 2015); H.Res.933, (1 December 2016).
---------------------------------------------------------------------------
    Rep. Price is also a proven opponent of access to family planning 
services, no matter the public health impact. He has repeatedly voted 
to defund Planned Parenthood,\14\ which provides essential preventive 
health services like cancer screenings, birth control, STI testing, and 
HIV testing to 2.5 million people annually. Defunding Planned 
Parenthood will have a disproportionate impact on communities that 
historically face systemic barriers to care--people of color, people 
living in rural areas, and people with low incomes.\15\ He has also 
voted to eliminate title X, our Nation's family planning program.\16\
---------------------------------------------------------------------------
    \14\ Pence amendment to fiscal year 2008 Labor, Health and Human 
Services, and Education Appropriations Act, H.R. 3043, (19 July 2007); 
Pence amendment to fiscal year 2010 Labor, Health and Human Services, 
and Education Appropriations Act, H.R. 3293, (24 July 2009); Pence 
amendment to fiscal year 2011 Continuing Resolution, H.R. 11, (18 
February 2011); Fiscal year 2011 Continuing Resolution, H.R. 1, (19 
February 2011); Enrollment resolution to fiscal year 2011 Continuing 
Resolution, H. Con. Res. 36, (14 April 2011); Defund Planned Parenthood 
Act, H.R. 3134, (18 September 2015); Women's Public Health and Safety 
Act, H.R. 3495, (29 September 2015); fiscal year 2016 Continuing 
Resolution, H. Con. 79, (30 September 2015); Restoring Americans' 
Healthcare Freedom Reconciliation Act, H.R. 3762, (23 October 2015); 
H.R. 3762, (6 January 2016); Veto override of H.R. 3762, (2 February 
2016).
    \15\ Planned Parenthood Federation of America. (2016). The Urgent 
Need for Planned Parenthood Health Centers. Retrieved 13 January 2017, 
from https://www.plannedparenthood.org/files/4314/8183/5009/
20161207_Defunding_fs_d01_1.pdf.
    \16\ Fiscal year 2011 Continuing Resolution, H.R. 1, (19 February 
2011).
---------------------------------------------------------------------------
    Rep. Price once claimed that ``there's not one'' woman who lacks 
access to contraception.\17\ Yet independent researchers have found 
that some 20 million women would not be able to afford contraception 
without financial assistance.\18\ A person so willfully blind to facts 
and opposed to women's health should not be overseeing our Nation's 
essential public health programs, including family planning efforts, 
Medicare, Medicaid and the ACA.
---------------------------------------------------------------------------
    \17\ Scott Keyes & Travis Waldron. (2012, February) House 
Republican Leader Price: ``There's Not One Woman'' Who Doesn't Have 
Access To Birth Control. ThinkProgress. Retrieved 5 January 2017, from 
https://think progress.org/house-republican-leader-pice-theres-not-one-
woman-who-doesn't-have-access-to-birth-control-5a13b090799c#.xdec3scze.
    \18\ Guttmacher Institute. (2016, September). Publicly Funded 
Family Planning Services in the United States. Retrieved 12 January 
2017, from https://www.guttmacher.org/fact-sheet/publicly-funded-
family-planning-services-united-states.
---------------------------------------------------------------------------
    The Constitution invests in the Senate the responsibility of advice 
and consent to the President's nominees for high office. The Nation 
deserves a leader of the Department of Health and Human Services who 
will advance its mission. Rep. Tom Price would clearly take our health 
care system backward. He is not the right person for this job. We urge 
you to reject this nominee.
            Sincerely,

                                             Debra L. Ness,
                                                         President.

                       National Women's Law Center,
                                      Washington, DC 20036,
                                                  January 16, 2017.

Hon. Lamar Alexander, Chairman,
Senate Committee on Health, Education, Labor, and Pensions,
428 Senate Dirksen Office Building,
Washington, DC 20510.

Hon. Patty Murray, Ranking Member,
Senate Committee on Health, Education, Labor, and Pensions,
154 Russell Senate Office Building,
Washington, DC 20510.

    Dear Senators Alexander and Murray: On behalf of the National 
Women's Law Center (``Center''), an organization that has worked for 45 
years to advance and protect equality and opportunity for women and 
girls in every aspect of their lives, including health care and income 
security, we write in strong opposition to the confirmation of 
Representative Thomas Price as Secretary of Health and Human Services 
(HHS).
    As the Nation's top health official, the Secretary of HHS leads the 
important work of implementing laws, programs, and initiatives that 
directly affect the health and well-being of all people, and most 
especially women, in our country. These include the Affordable Care 
Act--which eliminates sex discrimination in health care and ensures 
that women receive comprehensive affordable health insurance; the 
Medicaid program--which has given low-income women and their families 
necessary health coverage across all stages of life for more than 50 
years; and Medicare--a literal lifeline for older women.
    The Secretary of HHS oversees other critical programs as well that 
help alleviate poverty and expand opportunity for low- and moderate-
income women and families, including vital services for seniors and 
people with disabilities and heating assistance for struggling 
families. Rep. Price's record of seeking to weaken these very programs, 
placing ideology over the health and well-being of people in our 
country and his lack of understanding of the challenges facing the 
majority of Americans demonstrate that he should not be confirmed to 
this important position.
    Rep. Price has a record of seeking to dismantle the very programs 
he would be charged with implementing.
    Rep. Price has led the charge to simply eliminate the Affordable 
Care Act (ACA) and along with it all the important gains it provides to 
women in health care and health insurance without proposing any true 
substitute. He sponsored and pushed the 2015 budget reconciliation bill 
that, for example, would have gutted key provisions of the ACA had it 
not been for President Obama's veto.\1\ In total, he has supported 65 
attempts to repeal the law.\2\ His replacement bill, the ``Empowering 
Patients First Act,'' contained none of the provisions in the ACA most 
important to women's health.\3\ For example, the bill did not ban the 
insurance industry practice of charging women more than men, it did not 
require coverage of services important to women like maternity care and 
women's preventive services, and it would not stop insurance companies 
from excluding coverage for people with ``pre-existing conditions,'' 
including a woman subjected to domestic violence, rape, or a cesarean 
delivery.
---------------------------------------------------------------------------
    \1\ H.R. 3762, 114th Cong. (2016).
    \2\ Miriam Berg, Planned Parenthood Action Fund, Tom Price, Trump's 
Pick to Lead HHS, Would Take Away Millions of Women's Access to Health 
Care (Nov. 29, 2016, 11:58 AM), https://
www.plannedparenthoodaction.org/blog/tom-price-trumps-pick-to-lead-hhs-
would-take-away-millions-of-womens-access-to-health-care.
    \3\ H.R. 2300, 114th Cong. (2015); Press Release, Price Statement 
on Obamacare Repeal, Feb. 3, 2016, available at https://
tomprice.house.gov/press-release/price-statement-obamacare-repeal (last 
visited Dec. 5, 2016).
---------------------------------------------------------------------------
    As HHS Secretary, Rep. Price would oversee the administration of 
Medicaid, but he has a history of working to cut HHS's administrative 
and funding roles in that program. The 2015 budget reconciliation bill 
that Rep. Price sponsored removed funding for Medicaid expansion,\4\ 
which has benefited millions of low-income people, disproportionately 
women. The House of Representatives proposed budget for 2017, which 
Rep. Price oversaw as budget chair, sought to block-grant Medicaid,\5\ 
cutting funding by more than $1 trillion over a decade and 
significantly restructuring the program to allow States to limit 
eligibility, reduce or eliminate services, and lower provider payment 
rates.
---------------------------------------------------------------------------
    \4\ H.R. 3762 114th Cong. 207 (2016).
    \5\ H.R. Con. Res. 125, 114th Cong. (2016); see also U.S. House of 
Rep. Comm. On the Budget, A Balanced Budget for a Stronger America: 
Fiscal Year 2017 Budget Resolution 26 (2016), http://budget.house.gov/
uploadedfiles/fy2017_a_balanced_budget_for_a_stronger
_america.pdf pg. 26.
---------------------------------------------------------------------------
    As Secretary of HHS, Rep. Price would oversee numerous government 
programs that are critical in supporting low-income women and their 
families, such as Head Start, child care assistance, the Low Income 
Home Energy Assistance Program, and Temporary Assistance for Needy 
Families. Rep. Price, however, has a history of proposing cuts to these 
key programs. For example, although low-income programs account for 
just 28 percent of total non-defense program spending and just 24 
percent of total spending,\6\ the fiscal year 2017 budget plan approved 
by his committee would take nearly two-thirds of its cuts from low-
income programs.\7\ The brunt of these draconian proposed cuts would be 
borne by women, who are more likely than men to be poor at all stages 
of their lives due to ongoing employment discrimination, 
overrepresentation in low-wage jobs, and greater responsibilities for 
unpaid caregiving.\8\
---------------------------------------------------------------------------
    \6\ Richard Kogan and Isaac Shapiro, House GOP Budget Gets 62 
Percent of Budget Cuts from Low- and Moderate-Income Programs, Center 
on Budget and Policy Priorities (Mar. 28, 2016) http://www.cbpp.org/
research/Federal-budget/house-gop-budget-gets-62-percent-of-budget-
cuts-from-low-and-moderate-income.
    \7\ Id.
    \8\ Katherine Gallagher Robbins and Julie Vogtman, Cutting Programs 
for Low-Income People Especially Hurts Women and Their Families, 
National Women's Law Center (Feb. 2015) http://www.nwlc.org/sites/
default/files/pdfs/lowincomefactsheet_february2015.pdf.
---------------------------------------------------------------------------
    Rep. Price has a record of extreme opposition to women's access to 
reproductive health care.
    The Secretary of HHS has responsibility over key Federal programs, 
such as Medicaid and title X, that ensure individuals, and most 
particularly women, receive important preventive care, including birth 
control, breast exams, and testing for sexually transmitted infections. 
Rep. Price has voted repeatedly to block Planned Parenthood from 
participation in these programs,\9\ which directly undermines his 
ability to administer these programs. Voting to shut down Planned 
Parenthood prioritizes an anti-women's health agenda over individual 
access to health care, since if Planned Parenthood were to be defunded, 
it is estimated that 390,000 women would lose access to preventive care 
within a year and up to 650,000 would face additional barriers to 
care.\10\
---------------------------------------------------------------------------
    \9\ See e.g., 153 Cong. Rec. 8167 (2007) (voting in support of 
Amendment to defund Planned Parenthood in annual appropriations bill); 
155 Cong. Rec. 8789 (2009) (voting in support of Amendment to defund 
Planned Parenthood in annual appropriations bill); 157 Cong. Rec. 1235 
(2011) (voting in support of Amendment to defund Planned Parenthood in 
annual appropriations bill); 161 Cong. Rec. 6166 (2015) (voting in 
support of the ``Defund Planned Parenthood Act''); 161 Cong. Rec.  6336 
(2015) (voting in support of the ``Women's Public Health and Safety 
Act'').
    \10\ CBO. (2015, September 16). ``Cost Estimate: H.R. 3134 Defund 
Planned Parenthood Act of 2015.'' Washington, DC: CBO, https://
www.cbo.gov/sites/default/files/114th-congress-2015-2016/costestimate/
hr3134.pdf.
---------------------------------------------------------------------------
    Rep. Price opposes the health care law's requirement that insurance 
plans cover birth control alongside other preventive services without 
additional cost to the individual. When asked about the benefit, he 
falsely stated that ``there's not one woman'' who would be unable to 
access birth control without insurance coverage.\11\ In fact, a recent 
study found that 20.2 million women in the U.S. were in need of 
publicly funded family planning services like birth contro1.\12\ Rep. 
Price's comments, by either refusing to recognize the facts or 
purposely misstating them, demonstrate he cannot reliably fulfill the 
Secretary of HHS's role of implementing the health care law's birth 
control benefit and the other programs under HHS purview that provide 
women with low-cost or free birth control.
---------------------------------------------------------------------------
    \11\ TP Clips, Rep. Price: ``Bring me one woman'' who doesn't have 
access to contraception, YouTube (Feb. 10, 2012), https://
www.youtube.com/watch?v=K_mu8CS0aWA&feature=you
tube.
    \12\ Jennifer J. Frost, et al., Guttmacher Institute, Contraceptive 
Needs And Services, 2014 Update 2016, htpps://www.guttmacher.org/
report/contraceptive-needs-and-services-2014-update.
---------------------------------------------------------------------------
    Rep. Price also has been willing to allow the religion of others to 
override women's own religious beliefs and ability to access health 
services in dramatic new ways. In Congress, Rep. Price voted for a 
major expansion of existing Federal laws that allow institutions and 
individual health care providers to refuse to provide women with 
abortion care.\13\ Therefore, rather than demonstrate that as Secretary 
of HHS Rep. Price would enforce existing programs and protections for 
women's access to reproductive health care, his record indicates he 
would put HHS energy and priorities behind seeking to undermine them.
---------------------------------------------------------------------------
    \13\ H.R. 4828, 114th Cong. (2016).
---------------------------------------------------------------------------
    Rep. Price's record of support for policies that discriminate on 
the basis of sex, includes extreme positions against LGBTQ rights.
    Rep. Price has supported legislation that would allow 
discrimination against individuals because of their sexual orientation 
or gender identity\14\ and co-sponsored Constitutional amendments to 
define marriage as between one man and one woman.\15\ When the Supreme 
Court decided Obergefell v. Hodges, recognizing the constitutional 
right of same sex couples to marry, Rep. Price called it ``a sad day 
for marriage.'' \16\ Rep. Price's record is directly contradictory to 
the HHS Secretary's role of implementing key legal protections for 
LGBTQ individuals--such as the law prohibiting discrimination in health 
care on the basis of gender identity--and administering programs--such 
as those that provide critical funding for HIV research and treatment--
that benefit LGBTQ individuals.
---------------------------------------------------------------------------
    \14\ H.R. 2802, supra note 14.
    \15\ H.R. J. Res. 88 109th Cong. (2006).
    \16\ Robert Pear, Tom Price, Obamacare Critic, Is Trump's Choice 
for Health Secretary, N.Y. Times (Nov. 28, 2016), http://
www.nytimes.com/2016/11/28/us/politics/tom-price-secretary-health-and-
human-services.html.
---------------------------------------------------------------------------
    Our Nation's top health official should expand and protect access 
to health care and income supports, not undermine it. Given Rep. 
Price's extreme record, the Center urges you to reject his nomination 
to be Secretary of Health and Human Services.

            Sincerely,
                                        Marcia Greenberger,
                                                      Co-President.

                                       Nancy Duff Campbell,
                                                      Co-President.

                Physicians for Reproductive Health,
                                          December 3, 2016.

Hon. Charles Schumer,
U.S. Senator,
322 Hart Senate Office Building,
Washington, DC 20510.

Hon. Richard Durbin,
U.S. Senator,
711 Hart Senate Office Building,
Washington, DC 20510.

Hon. Patty Murray,
U.S. Senator,
154 Russell Senate Office Building,
Washington, DC 20510

Hon. Debbie Stabenow,
U.S. Senator,
731 Hart Senate Office Building,
Washington, DC 20510.

    Dear Senators: Physicians for Reproductive Health (Physicians) is a 
doctor-led national advocacy organization that uses evidence-based 
medicine to promote sound reproductive health policies. Physicians 
unites the medical community and concerned supporters, and together, we 
work to improve access to comprehensive reproductive health care, 
including contraception and abortion, especially to meet the health 
care needs of economically disadvantaged patients. We, the board of 
directors of Physicians for Reproductive Health, thank you for your 
leadership on ensuring access to comprehensive reproductive health 
care. We offer our support and solidarity as you and your fellow 
Senators and respective committees thoroughly examine and vet cabinet 
level appointees during the confirmation processes for the incoming 
Trump administration and prepare for the next Congress.
    As physicians, we believe that our patients should have timely and 
affordable access to the full range of reproductive health care 
services, including abortion. Reproductive health care is vital not 
only to our patients' health and well-being, but also to that of their 
communities. Our patients deserve care that is rooted in evidence and 
compassion. We hope that actions taken by incoming cabinet officials 
will be based on what is in the best interest and safety of patients 
seeking health care, but are deeply concerned by several of the 
announced appointments by President-elect Donald Trump.
    President-elect Trump's plan to nominate Representative Tom Price 
(R-GA) to be the Secretary of Health and Human Services (HHS) signals 
an alarming direction for reproductive health. Representative Price has 
been a staunch opponent of women's health and the Affordable Care Act 
during his time in Congress. Although he has insisted that ``patients, 
families and doctors should be making health decisions, not Washington, 
DC,'' he has acted directly contrary to this statement by supporting 
legislative efforts that interfere with the doctor-patient 
relationship. For example, Price has voted for bans on abortion, 
defunding Planned Parenthood and their vital family planning services, 
and repealing the Affordable Care Act (ACA). He is also a member of the 
Association of American Physicians and Surgeons, a group that falsely 
claims that abortion increases the risk of breast cancer.
    Representative Price, though he is a physician, seems to disregard 
the strong medical evidence that access to safe and legal abortion and 
contraception protects not just a woman's health, but that of her 
family and community. He has even expressed disbelief that a woman 
would ever have trouble affording birth control. We can attest to the 
difficulties women encountered prior to the enactment of the 
contraceptive coverage rule under the ACA. Our patients have benefited 
tremendously. The elimination or weakening of this rule would be a step 
backward for women's health.
    As you know, attacks on access to reproductive care 
disproportionately target low-income women, women of color, young 
women, and immigrant women, communities that already suffer from health 
disparities and inequalities. Should Representative Price be confirmed 
as HHS secretary, he would be in a position to create even more 
barriers to comprehensive reproductive health care for these 
communities. The leader of HHS needs to understand and apply evidence-
based medicine to improve health outcomes, not worsen them.
    The plan to nominate Representative Price is part of a disturbing 
pattern of appointments in the weeks since the election. President-
elect Trump has also announced plans to nominate Senator Jeff Sessions 
(R-AL) to become U.S. Attorney General. Sessions has opposed Roe v. 
Wade and protections against clinic violence and supports bans on 
insurance coverage for abortion and defunding Planned Parenthood. 
Additionally, President-elect Trump has named Betsy DeVos, a supporter 
of so-called crisis pregnancy centers that deliberately mislead women 
about their pregnancy options including abortion, as his choice for 
Secretary of Education.
    You have all been staunch supporters of women's health and we want 
you to know that Physicians and our members stand with you and will 
support your efforts to fully evaluate nominees and advocate against 
damaging legislation. In addition to weakening or repealing the ACA and 
access to contraceptive coverage, we are alarmed at the prospect of 
legislation that would limit Planned Parenthood's ability to provide 
vital health services, the reduction or elimination of funding for 
title X, further entrenching of the Hyde Amendment, more protections 
for those who refuse to provide or insure evidence-based care, and 
continued efforts to restrict safe and legal abortion. All of these 
measures would be devastating for our patients.
    We know that we are entering into a challenging time for 
reproductive health care and very much appreciate your service and 
dedication. Thank you for your defense of women, their families, and 
their communities.
            In solidarity,

                          Willie J. Parker, M.D., MPH, MSc,
                                               Board Chair,
                                                    Birmingham, AL.

                                 Jodi Magee, MSW, President
                                                     & CEO,
                                                      New York, NY.

                                         Curtis Boyd, M.D.,
                                                   Albuquerque, NM.

                               Fredik F. Broekhuizen, M.D.,
                                                     Milwaukee, WI.

                             Michelle Debbink, M.D., Ph.D.,
                                                     Ann Arbor, MI.

                               Duane L. Dowell, M.D., FAAP,
                                                       Chicago, IL.

                                    Megan Evans, M.D., MPH,
                                                        Boston, MA.

                                   Patricia T. Glowa, M.D.,
                                                        Lebanon, NH

                                     Cassing Hammond, M.D.,
                                                       Chicago, IL.

                                         Adam Jacobs, M.D.,
                                                      New York, NY.

                                        Angela Janis, M.D.,
                                                       Madison, WI.

                                          Nazanin Ahmadieh,
                                      Medical Student, Vallejo, CA.

                                       Nancy J. Auer, M.D.,
                                                 Mercer Island, WA.

                                        Jill Meadows, M.D.,
                                                    Des Moines, IA.

                            Jason Rafferty, M.D., MPH, EdM,
                                                    Providence, RI.

                                      Shayne Sebolde, M.D.,
                                                     Nashville, TN.

                              Nancy L. Stanwood, M.D., MPH,
                                                     New Haven, CT.

                     Michelle Staples-Horne, M.D., MS, MPH,
                                                       Decatur, GA.

                                          Alyssa Yee, M.D.,
                                                      Brooklyn, NY.

                     Positive Women's Network, USA,
                                         Oakland, CA 94612,
                                                  January 17, 2017.

Hon. Lamar Alexander, Chairman,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

Hon. Patty Murray, Ranking Member,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

    Dear Chair Alexander and Ranking Member Murray: On behalf of 
Positive Women's Network--USA (PWN-USA), we write in opposition to 
Representative Tom Price's nomination to serve as our Nation's 
Secretary of Health and Human Services.
    Based in Oakland, CA, PWN-USA is a national membership body of 
women living with HIV and our allies that exists to strengthen the 
strategic power of all women living with HIV in the United States. We 
work to prepare and involve all women living with HIV, in all our 
diversity, in all levels of policy and decisionmaking, including 
reproductive justice for women living with HIV, which means upholding 
our full spectrum of sexual and reproductive rights.
    The mission of the Department of Health and Human Services (HHS) is 
``to enhance and protect the health and well-being of all Americans.'' 
\1\ Representative Price's record indicates that he would not serve the 
stated mission of HHS.
---------------------------------------------------------------------------
    \1\ U.S. Dept. of Health and Human Services. ``About Us.'' 
Retrieved 12 January 17, from https://www.hhs.gov/about/index.html#.
---------------------------------------------------------------------------
    During his 11 years in Congress, Representative Price has 
consistently championed policies that would undermine the health and 
well-being of women. He has worked to weaken the same programs that he 
has been nominated to oversee--programs that tens of millions of people 
rely on to protect the health of their families. His record should 
disqualify him for the office of HHS Secretary.
    Specifically, we are deeply concerned about the Congressman's 
opposition to the Affordable Care Act (ACA); his commitment to 
undermining Medicaid, Medicare and other key parts of our Nation's 
social safety net; and his extreme opposition to abortion care and 
access to contraception.
    The Affordable Care Act has improved the lives of tens of millions 
of people. It has enabled nearly 9.5 million previously uninsured women 
to gain access to affordable, comprehensive health care coverage.\2\ 
Millions now have the peace of mind of knowing that if they or their 
family members have a health emergency they will be able to afford 
care. Fifty-five million women have benefited from the ACA's coverage 
of preventive services, including well-woman visits, screening for 
domestic violence, contraceptive methods and counseling, and breast 
feeding support, among others.\3\
---------------------------------------------------------------------------
    \2\ U.S. Dept of Health and Human Services, Office of the Asst. 
Secretary for Planning and Evaluation. (2016, March). Health Insurance 
Coverage and the Affordable Care Act, 2010-2016. Retrieved 12 January 
2017, from https://aspe.hhs.gov/sites/default/files/pdf/187551/ACA2010-
2016.pdf.
    \3\ U.S. Dept of Health and Human Services. (2015, May). The 
Affordable Care Act is Improving Access to Preventive Services for 
Millions of Americans. Retrieved 12 January 2017, from https://
aspe.hhs.gov/pdf-report/affordable-care-act-improving-access-
poreventive-services-millions-americans.
---------------------------------------------------------------------------
    If confirmed, Rep. Price would roll back these important gains for 
women and families and strip beneficiaries of important protections 
concerning access to coverage and care. His record on these issues is 
clear. Rep. Price has voted over 60 times to repeal the ACA.\4\
---------------------------------------------------------------------------
    \4\ Planned Parenthood Federation of America. (2016, November). Tom 
Price, Trump's Pick to Lead HHS, Would Take Away Millions of Women's 
Health Care. Retrieved 12 January 2017, from https://
www.plannedparenthoodaction.org/blog/tom-price-trumps-pick-to-lead-hhs-
would-take-away-millions-of-womens-access-to-health-care.
---------------------------------------------------------------------------
    Rep. Price's opposition to affordable health care extends beyond 
the ACA. His appointment represents a serious threat to Medicare and 
Medicaid. Medicare has delivered life-saving health care and coverage 
to millions of older adults--the majority of whom are women--and people 
with disabilities, who otherwise could not afford it. Instead of 
working to strengthen this vital American institution, as the next HHS 
Secretary should, Rep. Price would weaken Medicare through 
privatization.\5\
---------------------------------------------------------------------------
    \5\  Better Way: Our Vision for a More Confident America--Health 
Care. (22 June 2016). Retrieved 13 January 2017, from http://
abetterway.speaker.gov/assets/pdf/A/betterWay-HealthCare-
PolicyPaper.pdf. Rep. Tom Price. (22 June 2016).A Better Way to Fix 
Health Care [Press Release]. Retrieved 13 January 2017, from https://
tomprice.house.gov/press-release/better-way-fix-health-care.
---------------------------------------------------------------------------
    In addition to his attacks on Medicare, Rep. Price has also 
targeted low-income women and families by seeking to cut funding for 
Medicaid and to eviscerate the program through the use of block grants 
and per capita caps.\6\ Millions of women rely on Medicaid for care 
throughout their lives--from reproductive and maternal health services 
to nursing home care. Block granting or capping Medicaid would 
devastatingly undermine the critical role that Medicaid plays in 
supporting the health and well-being of millions of people in this 
country.
---------------------------------------------------------------------------
    \6\ Ibid.
---------------------------------------------------------------------------
    Finally, Rep. Price's extreme record on reproductive health care 
alone should disqualify him for the job. Rep. Price has co-sponsored 
legislation that would outlaw abortion, stem cell research, forms of 
contraception, and in vitro fertilization.\7\ He has vigorously opposed 
women's constitutionally recognized right to abortion care, voting to: 
deny abortion coverage for women with private health insurance,\8\ ban 
abortion care as early as 20 weeks,\9\ and deny low-income women 
coverage for abortion care.\10\ He has voted multiple times in favor of 
the Select Panel to investigate abortion providers, a partisan witch-
hunt that has harassed and endangered researchers and abortion 
providers.\11\
---------------------------------------------------------------------------
    \7\ he Right to Life Act, H.R. 552 (2 February 2005).
    \8\ Stupak amendment to the Health Care for America Act, H.R. 3962, 
(7 November 2009); Camp motion to recommit Health Care and Education 
Reconciliation Act, H.R. 4872, (21 March 2010); No Taxpayer Funding for 
Abortion Act, H.R. 3, (4 May 2011); Protect Life Act, H.R. 358, (13 
October 2011); No Taxpayer Funding for Abortion Act, H.R. 7, (28 
January 2014); No Taxpayer Funding for Abortion Act, H.R. 7, (22 
January 2015).
    \9\ ``Pain-Capable'' Unborn Child Protection Act, H.R. 3808, (31 
July 2012); ``Pain-Capable'' Unborn Child Protection Act, H.R. 1797, 
(18 June 2013); Motion to recommit the ``Pain-Capable'' Unborn Child 
Protection Act, H.R. 36, (13 May 2015); ``Pain-Capable'' Unborn Child 
Protection Act, H.R. 36, (13 May 2015).
    \10\ No Taxpayer Funding for Abortion Act, H.R. 3, (4 May 2011); No 
Taxpayer Funding for Abortion Act, H.R. 7, (28 January 2014); No 
Taxpayer Funding for Abortion Act, H.R. 7, (22 January 2015).
    \11\ H. Res. 461, (7 October 2015); H. Res. 933, (1 December 2016).
---------------------------------------------------------------------------
    Rep. Price is a proven opponent of access to family planning 
services, no matter the public health impact. He has repeatedly voted 
to defund Planned Parenthood,\12\ which provides essential preventive 
health services like cancer screenings, birth control, STI testing, and 
HIV testing to 2.5 million people annually. Defunding Planned 
Parenthood will have a disproportionate impact on communities that 
historically face systemic barriers to care--people of color, people 
living in rural areas, and people with low incomes.\13\ He has also 
voted to eliminate title X, our Nation's family planning program, which 
provides millions of people with basic health care services.\14\
---------------------------------------------------------------------------
    \12\ Pence amendment to fiscal year 2008 Labor, Health and Human 
Services, and Education Appropriations Act, H.R. 3043, (19 July 2007); 
Pence amendment to fiscal year 2010 Labor, Health and Human Services, 
and Education Appropriations Act, H.R. 3293, (24 July 2009); Pence 
amendment to fiscal year 2011 Continuing Resolution, H.R. 1, (18 
February 2011); fiscal year 2011 Continuing Resolution, H.R. 1, (19 
February 2011); Enrollment resolution to fiscal year 2011 Continuing 
Resolution, H.Con.Res.36, (14 April 2011); Defund Planned Parenthood 
Act, H.R. 3134, (18 September 2015); Women's Public Health and Safety 
Act, H.R. 3495, (29 September 2015); fiscal year 2016 Continuing 
Resolution, H.Con. 79, (30 September 2015); Restoring Americans' 
Healthcare Freedom Reconciliation Act, H.R. 3762, (23 October 2015); 
H.R. 3762, (6 January 2016); Veto override of H.R. 3762, (2 February 
2016).
    \13\ Planned Parenthood Federation of America. (2016). The Urgent 
Need for Planned Parenthood Health Centers. Retrieved 13 January 2017, 
from https://www.plannedparenthood.org/files/4314/8183/5009/
20161207_Defunding_fs_d01_1.pdf.
    \14\ Fiscal year 2011 Continuing Resolution, H.R. 1, (19 February 
2011).
---------------------------------------------------------------------------
    Rep. Tom Price would clearly take our health care system backward. 
We urge you to reject this nominee.

    Note: Positive Women's Network--United States of America (PWN-USA) 
is a national membership body of women living with HIV working to 
prepare and involve all women living with HIV, in all our diversity, 
including gender identity and sexual expression, in all levels of 
policy and decisionmaking to improve the quality of women's lives. PWN-
USA applies a gender equity and human rights lens to the HIV epidemic 
to achieve Federal policies grounded in the reality of women's lived 
experiences.
            Sincerely,
                                              Naina Khanna,
                                                Executive Director.

                                          YWCA USA,
                                      Washington, DC 20036,
                                                  January 17, 2017.

Hon. Lamar Alexander,
Hon. Patty Murray,
Committee on Health, Education, Labor, and Pensions,
U.S. Senate,
Washington, DC 20510.

    Dear Chairman Alexander, Ranking Member Murray, and Members of the 
U.S. Senate Health, Education, Labor, and Pensions Committee: On behalf 
of YWCA USA, team writing to express our opposition to the nomination 
of Tom Price for Secretary of the Department of Health and Human 
Services (HHS).
    As one of the oldest and largest women's organizations in the 
country, YWCA USA has significant concerns about Representative Price's 
record as a member of the U.S. House of Representatives. Representative 
Price voted against the Violence Against Women Act (VAWA) in 2013 and 
has led efforts in Congress to limit access to reproductive healthcare. 
Representative Price has repeatedly promoted budget proposals and tax 
cuts that would cut billions from Medicare, Medicaid, and other 
important programs that reduce poverty and hunger. These issues are 
central to women's empowerment and to the well-being of millions of 
American families, including many of the families we serve.
    YWCA is particularly concerned that Representative Price repeatedly 
voted to repeal the Affordable Care Act (ACA), despite the harm this 
would cause to women's health. A repeal of the ACA, without the 
contemporaneous adoption of a comprehensive, well-vetted, comparable 
replacement plan, would be detrimental to the health of women across 
the country. Any replacement plan must maintain the ACA's provision of 
mammograms and other preventative screenings, access to low- or no-cost 
birth control and reproductive health care, and other supports for 
women's health. A replacement must also maintain the ACA's prohibition 
on discriminatory premium rates, to prevent sending us back to the time 
when women paid more for their health insurance policies than men, 
simply because of their gender. Given the role he is expected to play 
in shaping any replacement of the ACA, YWCA USA cannot support a 
candidate for Secretary of Health and Human Services who does not 
understand these imperatives. Representative Price's record indicates 
that he does not.
    The Secretary of Health and Human Services is expected to enhance 
and protect the health and well-being of all Americans.\1\ YWCA USA 
supports the mission of the Department of Health and Human Services and 
is committed to the health and safety for all women. Representative 
Price's voting record indicates that he is not a leader who will 
champion the concerns of women and families if he is confirmed as 
Secretary of HHS. As a member of the Senate Health, Education, Labor, 
and Pensions Committee, please ask him direct questions regarding the 
concerns we have raised in this letter and oppose his nomination as 
Secretary of the Department of Health and Human Services.
---------------------------------------------------------------------------
    \1\ See ``About HHS'': https://www.hhs.gov/about/.
---------------------------------------------------------------------------
            Best Regards,
                               Dara Richardson-Heron, M.D.,
                                                     CEO, YWCA USA.

    YWCA USA is on a mission to eliminate racism, empower women, stand 
up for social justice, help families, and strengthen communities. We 
help overt million women, girls, and their families each year at YWCAs 
across the country. To read more about YWCA USA, visit www.ywca.org.

    [Whereupon, at 1:54 p.m., the hearing was adjourned.]

                                  [all]

      
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
